<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                         SONNY CALLAHAN, Alabama
 HAROLD ROGERS, Kentucky             PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 TOM LATHAM, Iowa                    ED PASTOR, Arizona
 ROGER F. WICKER, Mississippi        JAMES E. CLYBURN, South Carolina
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 JO ANN EMERSON, Missouri
 JOHN T. DOOLITTLE, California      
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Robert Schmidt, Jeanne L. Wilson, and Kevin V. Cook, Staff Assistants
                                ________
                                 PART 5
                                                                   Page
 Secretary of Energy..............................................    1
 Science, Renewable Energy, and Nuclear Energy.................... 1553
 Federal Energy Regulatory Commission............................. 1753
 Nuclear Regulatory Commission.................................... 1859

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 73-750                     WASHINGTON : 2001





                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
                                    
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2002

                              ----------                              

                                            Wednesday, May 2, 2001.

                          DEPARTMENT OF ENERGY

                                WITNESS

HON. SPENCER ABRAHAM, SECRETARY OF ENERGY
    Mr. Callahan. Good morning. Mr. Secretary, welcome to your 
first appearance in this capacity before an Appropriations 
subcommittee. Do not be nervous. This is my first time to be 
chairman before the Secretary of Energy as well, so it is our 
maiden voyage. I am sure that, come October, you will be 
satisfied, and we will be satisfied.
    But we welcome you to the committee. I do not have an 
opening statement, but at this time, I will yield to my 
colleague, Mr. Visclosky, to see if he has an opening 
statement.
    Mr. Visclosky. Mr. Chairman, just to welcome the Secretary 
as well.
    Mr. Callahan. All right.
    Mr. Secretary.


                    FISCAL YEAR 2002 BUDGET REQUEST


    Secretary Abraham. Mr. Chairman, Representative Visclosky 
and to the other Members of the Subcommittee, thank you for 
having me here today. I look forward to this being just the 
first of obviously the many occasions when we get together to 
work on issues of importance to this country, and I am pleased 
to join you today to discuss the President's Fiscal Year 2002 
budget.
    Over the last few months, our Administration has prepared 
its first budget under an extraordinary and compressed time 
frame. We appreciate your patience and considerations. We have 
taken the opportunity to try to evaluate the policies to the 
extent time permits, and refine the missions of our Department. 
It is through this process that we have shaped this year's 2002 
budget submission.
    In doing so, we try to employ basically three strategies to 
try to guide us.
    First, we attempted to identify Presidential policy 
priorities as they have been outlined during the President's 
campaign, and attempted to support them with appropriate levels 
of funding.
    Examples include strengthening security at DOE 
laboratories, improving management of the weapons stockpile, 
preserving our nation's uranium enrichment capacity, moving 
forward on a permanent nuclear waste repository and similar 
items.
    In addition, we selected areas where we believe that in-
depth policy analysis is important and that the direction, 
progress, and level of commitment by the Federal Government 
needed to be reexamined. In those areas, we preserved core 
competencies pending the outcome of a variety of Administration 
reviews which are taking place at this time.
    Pivotal for our Department are Vice President Cheney's 
review of national energy policy, which has been much reported 
on, and which will certainly drive future policies and budgets 
of the Department, Secretary Rumsfeld's defense and nuclear 
posture reviews, as well as the National Security Council's 
review of U.S. deterrence and non-proliferation programs.
    Third, we evaluated all of our Department of Energy 
programs, then calibrated the Fiscal Year 2002 budget based on 
several principles that I outlined for our DOE program 
managers. These principles complement the President's 
blueprint. They are specific to the Department's mission and 
tailored to improve management.
    Accordingly, our Department will: seek to enhance complex-
wide safeguards and security efforts; eliminate programs that 
have completed their mission, are redundant, ineffective, or 
obsolete; establish baselines and improve accountability for 
project and capital asset management; arrest deterioration of 
infrastructure through stronger management of facility 
maintenance; utilize computer information systems to improve 
management and to promote efficient use of resources; and 
respect Congressional policy determinations for operating the 
complex.
    Our budget request is $19.2 billion. This represents a 2.3 
percent reduction, $456 million below the fiscal year 2001 
appropriations level, but it is a $275 million increase over 
the fiscal year 2001 request which was submitted by the 
previous administration to Congress.
    Moreover, if we subtract the cost of construction projects 
scheduled for completion, funds that were provided for the 
Cerro Grande fire emergency and one-time projects directed by 
Congress, this budget is exactly $13 million below this year's 
appropriation level. Put another way, the 2002 request is 8 
percent or $1.4 billion above the Fiscal Year 2000 
appropriation level.
    The Energy and Water Development Subcommittee provides 92 
percent of the Department of Energy's budget, as you know. For 
programs within your jurisdiction, we propose $17.6 billion in 
2002 spending. This request is approximately $446 million less 
than the 2001 appropriations level, but it is level with the 
2001 budget request that was submitted to Congress, and it is 
$1.1 million more than the fiscal year 2000 appropriation 
level.
    I am going to speak briefly about some of these areas, but 
in the interest of going to questions, I may be--
    Mr. Callahan. We will accept the statement for the record.
    [The prepared statement of Secretary Abraham follows:]
    [GRAPHIC] [TIFF OMITTED] T3750A.001
    
    [GRAPHIC] [TIFF OMITTED] T3750A.002
    
    [GRAPHIC] [TIFF OMITTED] T3750A.003
    
    [GRAPHIC] [TIFF OMITTED] T3750A.004
    
    [GRAPHIC] [TIFF OMITTED] T3750A.005
    
    [GRAPHIC] [TIFF OMITTED] T3750A.006
    
    [GRAPHIC] [TIFF OMITTED] T3750A.007
    
    [GRAPHIC] [TIFF OMITTED] T3750A.008
    
    [GRAPHIC] [TIFF OMITTED] T3750A.009
    
    [GRAPHIC] [TIFF OMITTED] T3750A.010
    
    [GRAPHIC] [TIFF OMITTED] T3750A.011
    
    [GRAPHIC] [TIFF OMITTED] T3750A.012
    
    [GRAPHIC] [TIFF OMITTED] T3750A.013
    
    [GRAPHIC] [TIFF OMITTED] T3750A.014
    
    [GRAPHIC] [TIFF OMITTED] T3750A.015
    
    [GRAPHIC] [TIFF OMITTED] T3750A.016
    
    [GRAPHIC] [TIFF OMITTED] T3750A.017
    
    [GRAPHIC] [TIFF OMITTED] T3750A.018
    
    [GRAPHIC] [TIFF OMITTED] T3750A.019
    
                    NATIONAL SECURITY BUDGET REQUEST

    Secretary Abraham. If we could.
    Obviously our program areas range from national security 
where we will be--where we propose $7.2 billion in fiscal year 
2002, which is about $180 million more than the 2001 
appropriations.
    In this area, we put special focus on the protection of the 
DOE complex against physical and cyber intrusions, and our 
budget proposes a little over $1 billion, an increase of $101 
million over last year, to address those issues.
    Accordingly, program offices will directly manage 
safeguards and security implementation activities and resources 
in keeping with policies and directives issued through the 
Office of Security and Emergency Operations. Our National 
Nuclear Security Administration, under the direction of Under 
Secretary or Administrator John Gordon, we are proposing $6.8 
billion for the 2002 budget. That is a $136 million increase 
over 2001. The lion's share of that budget will support weapons 
activities at our national laboratories and production sites. 
Our budget continues the refurbishment programs that are 
incorporated in that effort.
    In addition to our weapons area, we also fund our naval 
reactors, and other national security activities, which we 
believe this budget addresses effectively.

                      ENERGY SUPPLY BUDGET REQUEST

    In addition, of course, the future availability, 
reliability, and affordability of energy are the focus of 
national energy policy being developed at the present time 
under the leadership of Vice President Cheney. This budget 
emphasizes the next generation of energy production, including 
renewable sources and advanced nuclear technologies. It 
proposes to expand cost-share opportunities in areas of 
effective applied research through partnerships and industry 
collaboration.

                            RENEWABLE ENERGY

    In the area of renewable energy, our $277 million amended 
request maintains biomass, hydrogen, hydro-power, high-
temperature super-conducting energy storage, renewable energy 
production incentives, and transmission reliability programs at 
approximately current funding levels, and we will continue core 
research and development in other areas.
    The budget also advances a diverse portfolio of new and 
emerging technologies that we think offer cleaner and 
increasingly affordable solutions to help meet our growing U.S. 
energy needs through industry partnerships.

                             NUCLEAR ENERGY

    In addition and in light of our present energy situation, 
we must realize the potential of our nation's second largest 
source of electricity, nuclear power. Nuclear generation from 
our 103 power plants produced 20 percent of our nation's 
electricity output in the year 2000. Of the $223 million budget 
proposed for nuclear energy, science and technology supports 
innovations and encourages research participation by 
universities, industry and national laboratories.
    Later we may refine how our nuclear energy resources are 
deployed along with our renewable energy investments based and 
the recommendations of the President's national energy plan.

                                SCIENCE

    Our science programs I think are the finest in the world. 
The department's well known physical science and life science, 
mathematics, computation, engineering, and environmental 
research program serve as the basis for discoveries in almost 
every technical field. Our $3.2 billion request for DOE's basic 
research portfolio supports the President's goal of 
strengthening the U.S. scientific enterprise.
    Substantial continued investment in the spallation neutron 
source will provide the next generation neutron scattering 
source project scheduled for completion in June of 2006. The 
budget supports essential collaboration at nanoscale science 
research centers, upgrades at Illinois' Fermi Lab, and 
improvements to Stanford's Linear Accelerator facilities.
    In addition, the Human Genome Project, which began at DOE 
in 1986, is now entering a new phase. DOE is proposing the new 
Genomes to Life Initiative that will explore how genomes 
account for the functioning of cells. Our goal is to use this 
information in energy resources to examine the effect of energy 
use on humans, plants, and animals, and in radioactive waste 
clean-up.

                  ENVIRONMENTAL QUALITY BUDGET REQUEST

    For fiscal year 2002, the budget proposes $6.5 billion for 
environmental quality programs to advance cleanup and closure 
of the department's legacy sites in 30 states, covering over 
two million acres.
    As I think everybody is aware, progress in environmental 
management since the program was established in 1989 is 
impressive. As of the end of the year 2000, active cleanup at 
71 sites had been finished, with another three expected this 
year. Two vitrification facilities are operating to convert 
highly radioactive waste into safer glass form. The Waste 
Isolation Pilot Plant the world's first deep geological 
repository, is accepting waste from sites across the DOE 
complex.
    However, despite the progress that we have made, and I want 
to probably get back to this, I am sure, in questions, but I 
just wanted to indicate that after reviewing environmental 
management budget requirements for the next decade, I concluded 
that we should be moving more rapidly to complete the cleanup 
of remaining sites.
    When I arrived at the department, I was told that we had a 
70-year $300 billion environmental management plan. To me, that 
takes too long, and I am not sure if we need to spend that much 
money to get the job done if we could more directly focus on 
completion of projects.
    As I think the committee knows, there are two major sites, 
Rocky Flats and Fernald, where we are moving towards a 
reasonably short time frame for completion, and I believe the 
kinds of processes that have been put in place to try to bring 
that about need to be examined on a complex-wide basis.
    So what I have done in response to that concern and in 
response to the concerns we have seen in recent years, 
criticism about overhead and so on in these programs, is to 
direct the department to engage in a full top-to-bottom review 
of our environmental management programs.
    I believe that we can complete this process in a fairly 
short period of time, and I think as a consequence of it that 
we can return and work with this committee and others who have 
an interest in these issues to try to bring about a more 
realistic completion of the programs we have across the 
complex.
    Accordingly, what we are trying to do in this process is 
also involve people from throughout the country who work with 
and care about these programs, and to that extent, EPA 
Administrator Whitman and I are asking the governors of DOE 
sites to work with us to improve the compliance framework that 
governs the cleanup work at our sites. I believe these programs 
will help us in the future to more effectively address our 
environmental challenges within the DOE complex.

                 CIVILIAN RADIOACTIVE WASTE MANAGEMENT

    In addition, our civilian radioactive waste management 
program budget is $445 million, which is $55 million more than 
our 2001 appropriation. It supports the President's commitment 
for in-depth scientific analysis that is required by the 
Nuclear Waste Policy Act before moving forward with respect to 
issues that pertain to the licensing of a geologic repository 
for high-level waste.
    In conclusion, Mr. Chairman, obviously there are a lot of 
areas that I suspect we may get into, but we believe that this 
budget is the right budget at this time for our department. We 
are in a state of transition with respect to several policies 
that affect the department; we are also in the process of 
engaging in a number of reviews that will very directly affect 
energy policy, national security policy, and drive future 
budgets.
    What we tried to do in this process was to support the 
programs of high priority, make sure programs that would be 
affected by these policy reviews remain in a situation where if 
the reviews suggest further activity in the future, we can move 
forward, but not move forward before we finish the policy 
analysis and the review of areas where serious issues have 
existed.
    So at this point, I would be glad to discuss the proposals 
with the committee, and again, I appreciate not just the chance 
to be here today, but the participation that a number of 
members of the committee have already participated in or 
taken--or that has taken place with our office as we have come 
to this point, and I appreciate the chance to answer your 
questions at this time.

            ESTABLISHING THE FISCAL YEAR 2002 BUDGET REQUEST

    Mr. Callahan. Thank you, Mr. Secretary.
    You say this is the right budget at the right time. Some in 
the Senate feel differently. They feel that you have asked for 
an insufficient amount of money to supply Energy's needs, and I 
understand have extracted some commitment in the Senate to 
increase.
    If this is the right budget at the right time, do you 
intend to fight that increase?
    Secretary Abraham. Well, obviously the appropriation 
process, as I remember it from my fairly recent participation 
in it on the other side of this table, is one that involves 
discussions and negotiations between the White House and 
Congress.
    What we have tried to do here is to establish a budget, as 
I said, that serves appropriately as a transition point from 
where we were to the period after we complete these reviews. I 
think it remains to be seen. I would not want to speculate in 
terms of specific areas where there might be areas for 
negotiation. What we have tried to present is what we think, at 
least, is the right level of spending for the various program 
areas of the department for this year.

                           EMERGENCY FUNDING

    Mr. Callahan. Well, far be it for me, if you come and ask 
for a 2 percent reduction, for me to fight that. I am a 
fiscally responsible member of this Congress, and I am for 
cutting back on the bureaucracy; but at the same time, no 
doubt, there are going to be issues that come up this year just 
as they came up last year.
    You mentioned there is no room in this budget for any new 
starts. What if something in an emergency status comes up 
between now and October when we will pass this bill, and it 
becomes necessary for us to start funding some problem?
    I know California is a classic example. We are not going to 
fund California with their energy problems, but at the same 
time, there are going to be things that come up between now and 
October that are going to require some emergency attention. The 
fact that we have almost zero flexibility with the budget you 
have presented could be problematic, but we will just have to 
face that. But I should hope that you would not be down at the 
White House with OMB on September the 30th saying, Callahan has 
given me too much. I imagine that Callahan is going to probably 
heed your request to give you a 2 percent reduction. But I am 
saying there are going to be some problem areas that individual 
members are going to have.
    The administration has taken the attitude that any new 
start last year was unnecessary. I do not mean to say you have 
taken that attitude, but regardless of what the administrator 
or OMB thought, some new starts are absolutely necessary, and 
we will just have to face that as we get there.
    Secretary Abraham. If you wanted me to comment, I am not 
sure when in previous years there have been any agency heads 
who have pled with members of Congress ``please do not make me 
spend anymore,'' but that may be--the way you are describing, 
it may be the role we are playing here today.
    I think if emergencies develop, that is obviously something 
we cannot foresee today, but I know that a decision with 
respect to emergencies, supplementals and so on would be made 
at the Office of Management and Budget of the White House, so 
we would certainly----

              STATUS OF TOP NOMINATIONS AT THE DEPARTMENT

    Mr. Callahan. Well, it is a different role for me, too, Mr. 
Secretary. You know, I chaired Foreign Operations for the last 
six years, and I spent the entire six years trying to cut the 
President's request. Now I find myself in a position of being 
apprised by various agencies within your department, by various 
members of Congress, that there could be a possibility that we 
may have to increase spending, and to have me going down there 
getting a veto threat because I am increasing spending is a new 
role for me, and I do not think that I am going to put myself 
in that position with respect to Energy.
    You now have your office open and running, but I noticed, 
like most agencies, there are other nominations in the top 
positions at the department. When do you anticipate you will 
have your full staff at least before the Senate?
    Secretary Abraham. The status of our department is as 
follows. Of the various presidentially appointed and Senate-
confirmed positions, we have eight individuals for those 
positions, for various positions that have already been 
designated, five of whom have been nominated who now await a 
hearing in the Senate. We have been working to try to get a 
hearing date for as many of those five as possible. I am hoping 
that in the next couple of weeks, that might take place.
    We are working hard to identify some candidates for the 
remaining positions. The ones for which we already have either 
made nominations or identified are: the deputy secretary, the 
under secretary, four of the assistant secretaries and the CFO 
position as well as the general counsel position.
    So at least most of the top spots--we still are looking for 
the right persons to nominate for the remaining two assistant 
secretary positions, but we are making pretty good progress in 
terms of locating people that we think will do a great job in 
this department. We are hoping that the nomination process can 
move speedily for those who already have gone to the Senate.
    Mr. Callahan. I will have several questions--I do not want 
to take up all the time--regarding Yucca Mountain, regarding 
the new national energy policy that Vice President Cheney 
announced I think yesterday, but out of deference to my 
colleagues, I will now yield to Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, if it is all right, I would 
yield to Mr. Edwards first.
    Mr. Callahan. Mr. Edwards.

              REDUCTION IN NONPROLIFERATION BUDGET REQUEST

    Mr. Edwards. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your public service in the 
U.S. Senate and continuing that public service at the 
Department of Energy as secretary.
    We can make a lot of mistakes in this Congress in the next 
year without too many people being at risk, but in the area of 
proliferation of nuclear materials in the former Soviet Union, 
if we get that wrong, we risk thousands of our families' lives, 
if not literally millions.
    I find it absolutely incredible that I pick up the 
Washington Post today and read about the President's commitment 
to a national missile defense system, which I support if we can 
find the technology that actually works, which we have not yet 
done, a system that will cost perhaps in the hundreds of 
billions of dollars, if we know what that cost might ultimately 
be. Yet you come before this committee and have to defend, I 
guess, a $100 million cut in the DOE non-proliferation budget.
    Mr. Secretary, what that seems like to me is a family 
putting a $20,000 burglar alarm on their front door, and then, 
to save money, turning off the air-conditioning at night and 
raising their living room window and putting out a sign 
``Burglars Welcome,'' except it is much more serious than that.
    I have to have faith that the Department of Energy did not 
request this $100 million reduction, but nevertheless that is 
what came down at the end of the pike. Can you answer the 
question as to whether it was your agency or whether it was OMB 
that specifically cut the $100 million from the DOE non-
proliferation budget?
    Secretary Abraham. Well, in these discussions, a variety of 
budgets go back and forth and deliberations over components of 
it.
    Let me just talk about the administration's commitment 
here. This administration is deeply committed to trying to 
protect the American people from national security threats, 
including those which relate to weapons of mass destruction. 
Whether or not it is because of the proliferation of either 
talent or weapons-grade materials from the former Soviet Union 
or anywhere else, what this budget reflects is an effort on our 
part to maintain the core competencies of the program where we 
felt very comfortable moving forward with them.
    Well, we take part in an analysis that I referenced earlier 
that is being conducted on a fairly fast-track, I might add, by 
the National Security Council of the programs that are in place 
today.
    As you know, some of the existing programs, which fall into 
approximately four categories, have been widely criticized as 
either ineffectual or as very difficult to analyze in terms of 
their effectiveness and accountability.
    We believe that the programs which relate to the 
securitizing of sites, whether it has been naval reactor sites 
or former weapons complexes or current weapons complexes, is a 
program where we have made some great progress and we are for 
the most part keeping those programs on track.
    There are some concerns about some of the other elements of 
the non-proliferation agenda, though, that I think warrant 
review, which is what is taking place.
    Mr. Edwards. I do not mind, I will work with you on a 
bipartisan basis to find where programs are working well or 
not, but what you just said is we are in the middle of an 
analysis; yet, before that analysis is even finished, the 
administration is proposing a $100 million cut in the program 
to keep us, God forbid, from ever having to use a national 
missile defense system. It seems insane to me to try to save 
$100 million that might prevent some terrorist or rogue nation 
from getting his hands on nuclear-grade bomb material that 
could be used to threaten American citizens right here at home, 
and spend $100 billion perhaps on a missile defense system that 
might work ten years from now; I hope it will; who knows what 
it will cost. Again, we do not have the technology. But before 
you have even finished that analysis, you are recommending a 
cut in the proliferation budget.
    I would feel more comfortable if you said you did not 
support that cut, OMB recommended it as a budget-cutting 
matter, and we can all work together to try to make tough 
choices to replace those cuts. But you are saying you support 
this $100 million non-proliferation budget cut?

         UNITED STATES-RUSSIA PLUTONIUM DISPOSITION AGREEMENTS

    Secretary Abraham. I support the decisions that have been 
made here.
    Let me just point out for example one element of the non-
proliferation agenda that is addressed in here. It is an area 
in which we have scaled back the program to some extent.
    As you are aware, one of the elements in this program is 
the issue of trying to address the disposition of weapons-grade 
plutonium. The agreements that were reached were ones which, as 
I understand them, were called for both on the United States 
side as well as on the Russian Federation side for the 
demobilization of a certain level of plutonium, approximately, 
I think, 35 metric tons.
    We have been able to move forward with very significant 
investments on our side in terms of the responsibilities under 
this non-proliferation component of the budget to begin to 
design the facilities to do this immobilization, the 
development of a MOX facility at the Savannah River site, these 
kinds of efforts. They are very costly. We project extremely 
significant long-term expenses with respect to the reduction of 
the weapons-grade plutonium on our side of the agenda.
    As you probably know, the Russian side has not been able to 
so far come up with the resources to begin moving even in the 
direction----
    Mr. Edwards. Which is why we need to help them, it seems to 
me.
    Secretary Abraham. But our program is not to spend money to 
build their facilities; it is to build our own. And so what we 
decided to do in that area--I am not worried about--we have 
full security with respect to the weapons-grade plutonium in 
our complex. We are moving forward with one of those programs 
at full tilt, the MOX facility.
    With respect to the demobilization or the immobilization 
facility at the Savannah River, we are going to slow up that 
process a little bit to determine what actions are going to be 
forthcoming on the other side, and we put on hold the third 
component, the disassembly program, which does not even have a 
Russian counterpart, as I understand it, because we are waiting 
to see whether or not, through a variety of participants, 
including the United States, we can put together sufficient 
resources so that the concern we have about the weapons-grade 
plutonium in the Russian Federation will be addressed.
    If there are not resources--and these would be resources, 
as you know, provided by a number of countries, but if there 
are not going to be enough resources for them to proceed, we 
did not think it was a mistake for us to slow up on our side 
pending reanalysis of whether we should be spending all of our 
money to immobilize American weapons-grade plutonium if there 
was not going to be a corresponding action.
    So some of the actions we have taken, while it reduces our 
total commitment in terms of spending, really has nothing to do 
with the other side of the equation, what is happening to 
weapons-grade materials in the former Soviet Union.
    Mr. Edwards. I will look forward to continuing this line of 
discussion. Just from what I understand, this was an OMB-
directed decision and if that is the case, it gives new meaning 
to the phrase ``penny wise and pound foolish.''
    I look forward to having further discussions with you. 
Thank you, Mr. Chairman.
    Secretary Abraham. And we do, too, and I think that once 
this review is completed, we will be able to work 
constructively together to accomplish the goal that I think we 
share.
    Mr. Edwards. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Frelinghuysen.

                      NATIONAL ENERGY POLICY PLAN

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Secretary, welcome.
    First of all, I would like to commend the administration 
with coming up with a strategic energy plan. I was fairly hard 
on your predecessor because I basically said there did not seem 
to be any planning.
    Of course, some have already sort of damned the proposal 
already. In reality, I am glad there is something out there for 
the Congress to debate.
    I do think the administration, you, and the Vice President 
in setting up his study team, do need to outline the magnitude 
of the problem that is out there. You do not have to convince 
the people who live in California that there is a problem even 
though some say that that is sort of self-inflicted.
    But I would urge you, as this plan is developed and you put 
meat on the bones, to provide more specifics on a regular basis 
to the public about what you and the White House are doing.
    I think it needs to be said, even though some have read 
into the plan that we are sort of backing away from more 
investments in alternative energy sources and research, I do 
not see that occurring. I mean, certainly I wear fusion on my 
sleeve, but in reality, we are going to continue those types of 
investments in R&D.
    Some have suggested we are turning our back on the 
environment. Certainly I hope that is not the case. I think you 
are here, I assume, to reinforce that is not the case. But what 
you are trying to reach, what I should hope, is a careful 
balance. Could you react to that?
    Secretary Abraham. Sure. Well, first of all, we have not 
actually released the energy plan. I think there is----
    Mr. Frelinghuysen. You would think you had.
    Secretary Abraham. There have been some premature 
assumptions about it, and we are still--the one thing I would 
just stress is this is a plan in which the principals--that is, 
the agency and the department heads--are still working with a 
variety of topics that we will ultimately provide to the 
President recommendations on, and he will at that point decide 
from among those recommendations those he will choose to 
include in his plan.
    I stressed in a speech I gave in March about where we 
needed to go, the need for balance with respect to a national 
energy plan, and that is a balance on a number of fronts, it is 
a balance between supply, and increases in conservation. It is 
a balance between environmental sensitivity and the need for 
increasing energy supplies, it is a balance between the sources 
of energy that we have.
    I was struck when my own Department's Energy Information 
Administration presented us with information that suggested 
that over the course of the next 20 years, they estimated that 
almost the entire extent of our electricity demand increases 
would be met with natural gas-fired generation. That, as a 
result, translates into about a 63 percent increase in demand 
in this country for natural gas.
    This is, to me, disconcerting because it suggests that 
there will not be any balance in terms of the sources of energy 
that we will be using in the next 20 years, and I am not sure 
that we can continue down that road.
    So I think we need to be looking for new sources, I think 
we need to be balancing among the existing sources, recognizing 
that even anticipating some of the, you know, very significant 
increases in efficiency, the demand for energy is going to 
increase in the next 20 years very substantially in this 
country.

                SPREAD OF ENERGY CRISIS TO THE NORTHEAST

    Mr. Frelinghuysen. What has occurred in California for some 
of us in the East sort of serves as a wake-up call. I mean, 
there may be specific California issues in terms of how they 
dealt with deregulation, but you have been quoted as saying, I 
believe, blackouts in California are inevitable this summer. We 
are concerned about their crisis, but I am concerned about what 
may be happening in the Northeast.
    Could you sort of briefly describe what the department has 
done to address this crisis, and whether there is a likelihood 
of that crisis spreading across the nation?
    Secretary Abraham. Well, there is inevitably going to be a 
challenge for any region of the country where demand is 
increasing at a level that supply is not meeting. California's 
problems for the summer as we look ahead is that we right now 
project approximately a 5,000 megawatt difference between the 
level of demand when we get to the peak part of the summer and 
the current likely level of supply that will be available. That 
is why we have said that rolling blackouts seem inevitable.
    The problem, obviously, is that it takes a while for supply 
to be increased. We have been working very closely with 
Governor Davis with respect to helping do whatever we can to--
--
    Mr. Frelinghuysen. What about national preparedness? In 
other words, California is one thing----
    Secretary Abraham. There is a variety of----
    Mr. Frelinghuysen. How engaged is the Department of Energy 
working with emergency management people around the nation?
    Secretary Abraham. Well, just yesterday, we announced an 
internal emergency operation organization which will be headed 
by General McBroom, who heads up our emergency planning at the 
department, to be a special sort of strike force for this 
summer. We also are working with others and will be available 
to work with other federal agencies that might come into play, 
FEMA and others, if there were to be emergencies as a result of 
blackouts or other energy disruptions.
    The Northeast, some of the other areas of the country, do 
not have the challenge that California faces in terms of this 
shortage of supply, although we have certain areas that are 
close to the margin, if you would, that have been identified by 
the various councils, regional energy councils that analyze 
these peak levels and try to project what supply levels will 
be.
    In the Northeast, according to reports I saw even today, 
for the most part we can meet the demand, or the regions can, 
although there are certain areas--New York City, for example, 
where I recently met with the state ISO, and they are very 
close to the margin there.
    Part of the problem which they have in New York City is 
that because--and this is a broader problem we have as a 
country, is that our transmission grid is not necessarily 
adequate to move electricity when we need to to areas where 
there are shortages, and the City of New York confronts the 
fact that it has very limited capability of importing 
electricity from outside of the city, which means that as 
demand goes up, the only way to meet it is with supply that is 
generated inside the burroughs.
    I have met with officials from New York on this. They think 
they are getting enough supply on line by the summer to be able 
to address this, but that is an area where we face challenges.
    Mr. Frelinghuysen. Thank you.
    Mr. Callahan. Mr. Visclosky.

              REDUCTION IN NONPROLIFERATION BUDGET REQUEST

    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to follow up on Mr. Edwards' 
line of questioning. We had a brief discussion yesterday as far 
as Russian programs, and first of all I would not disagree with 
you that changes need to be made. We talked about a number of 
programs yesterday, and also for the record would point out 
that you asked in your budget for an increase to $63 million 
for the fabrication facility for MOX fuel.
    Secretary Abraham. Right.
    Mr. Visclosky. And that is a significant increase over 
enacted levels, which for this year is $26 million.
    So I would want to be very clear that changes need to be 
made and I would not disagree with that; I would, however, 
reference testimony by CIA Director George Tenet recently where 
he said that we have made considerable progress on terrorism 
against U.S. interests and facilities, but it persists. He went 
on to say that Russian state-run defense and nuclear industries 
are still strapped for funds. Moscow looks for them to acquire 
badly needed foreign exchange through exports. Russia remains a 
key supplier for a variety of civilian Iranian nuclear programs 
which could be used to advance its weapons programs as well. 
And then Director Tenet went on to talk about chemical and 
biological warfare agents and their production.
    I would also point out that in your comments earlier, you 
did talk about prioritization of some elements of the Russian 
program, including the securing of sites, and you specifically 
referenced the Navy.
    Some of the elements that I do find troubling as far as 
elimination from the budget, whoever's decisions they were, is 
that it is my understanding that $34 million were taken out of 
our proliferation detection and deterrence technology 
development program; $31 million for upgrades at 30 Russian 
Navy nuclear warhead sites containing approximately 1,500 
warheads and conversion of about a megaton of vulnerable highly 
enriched uranium into a less deadly form was taken out; $12 
million for development of chemical and biological agent 
detectors; $5 million for nuclear explosion monitoring; a 25 
percent reduction of allowed 24 special monitoring visits to 
four Russian facilities; and reduced scope of detailed data 
analysis to assess Russian compliance with U.S. non-
proliferation goals.
    I don't expect you, because of the very detailed and 
precise elements of it, to comment specifically on those, but 
would want for the record to suggest I do think that as we 
proceed with this process and there is a restructuring of some 
of these Russian programs, I think some of these programs ought 
to have a second look.
    Secretary Abraham. Well, and that is part of the process. 
You know, as I said earlier, some of the changes we made have 
been in direct relationship to or have been related to 
expenditures on the U.S. side of the equation.
    As I mentioned with respect to Savannah River, we--and you 
mentioned we've increased funding, actually, for one of the 
processes there, the MOX facility. We slowed expenditures by a 
few million dollars with respect to the pit disassembly process 
and have put on hold the immobilization facility because that 
is connected to the--that is actually not even connected to a 
similar program on the other side.

                     RUSSIAN NAVAL REACTORS PROGRAM

    But with regard to these other areas, I just would mention 
on the Naval reactors, as I think I alluded to earlier and you 
just referenced, we were asked after we began moving down the 
road by the Russian Federation to provide assistance with Naval 
reactors of the sort that we had been providing at various 
weapons sites.
    My understanding is that of approximately 42 sites that are 
involved with regard to the Russian Naval reactors program, 
that we have completed activities at 17, we have moved to the 
identification--sort of the planning stage at 20 more. We are 
on track to move those forward. There are only five that have 
not yet, I guess, received any attention, but that is 
contemplated. But we look forward to continuing to work with 
you on these other components of the program.
    Again, I want to stress, the concerns that have been 
expressed here are not unshared by me or by the Administration. 
The question was, should we--many of these programs were 
launched some time ago at a point when the Russian Federation 
was moving at the end of the Cold War into a new era. Things 
are changing inside of Russia that provide them perhaps a 
better ability to work on some of these programs than was the 
case when they began, but new issues have arisen, and we are 
trying to analyze those.
    You mentioned the issue with respect to Russia's activities 
with respect to other nations, with respect to providing 
technology for nuclear reactors. That is an issue that I think 
should be part of this process, because clearly, while we want 
to secure materials inside Russia working together with them, 
we also have some concerns about those types of relationships 
that might be developing between Russia and Iran or others, and 
I have conveyed that concern to Russian counterparts and others 
in our Government have, both during this administration and I 
know in the previous one.

              LABORATORY DIRECTED RESEARCH AND DEVELOPMENT

    Mr. Visclosky. Okay.
    Mr. Secretary, if I could turn to laboratory directed 
research and development projects, it is my understanding that 
DOE laboratories divert 6 percent of funds for research done in 
those laboratories for DOE-funded research. Am I correct on 
that?
    Secretary Abraham. It is my understanding that the 
laboratories--that the lab-directed research are programs where 
the labs themselves are able to essentially assign 6 percent of 
the costs or of the payments they receive for programs that 
they conduct on behalf of our agency and others.
    Mr. Visclosky. And other agencies.
    Secretary Abraham. Right. To what in effect are projects 
they have identified as ones they wish to work on; in other 
words, ones that are not--either work for other programs with 
other departments of the Federal Government or with DOE.
    Mr. Visclosky. And if I could ask, it would also be my 
understanding that the diversion of funds--say they are doing 
research for DOD on Project A, that the diversion of those 6 
percent could actually be spent on anything completely 
unrelated to Project A at the direction of the lab director.
    Secretary Abraham. That is my understanding, although there 
is program oversight that occurs between the labs and the 
regional offices of the department. Obviously the labs are 
contract operations; you know, the University of California 
operates two of the national labs, Lockheed operates another 
one. So our field offices obviously are monitoring this, and 
there are reports that are forthcoming of what that research is 
used for, as I understand it.
    Mr. Visclosky. Are there any controls, if you would, 
imposed by your office prior to obligation of these monies at 
these labs?
    Secretary Abraham. You know, I am not aware of any direct 
controls, but I know that there is a system by which the 
selections are monitored. I would have to investigate whether 
the department has ever exercised any prior intervention either 
to stop or modify such research.
    Mr. Visclosky. Okay.
    Secretary Abraham. My understanding is that typically it 
has been a 6 percent share. I think in the fiscal year 2000 
budget, it may have been reduced to 4 percent, and then in the 
current year's budget, that percentage was restored to 6 
percent.

                 Ballistic Missile Defense Organization

    Mr. Visclosky. One last question on this line, and then I 
will suspend, Mr. Chairman.
    I understand that DOE is also doing research for the 
ballistic missile defense organization of DOD, and I am 
wondering if you could for the record tell us how many dollars 
of those that have been spent on missile defense that is very 
important to the administration have been diverted under the 
laboratory directed research and development programs.
    Secretary Abraham. I would be glad to take that for the 
record and try to supply the committee with the information.
    Mr. Visclosky. Besides the dollar amount, as to what those 
activities might have been and whether they had any 
relationship at all to missile defense.
    Secretary Abraham. Okay.
    [The information follows:]

         LDRD and Ballistic Missile Defense Organization Funds

    Laboratory Directed Research and Development (LDRD) at DOE national 
defense laboratories each year is funded by an assessment, not to 
exceed 6 percent, of the laboratory's total operating and capital 
equipment budget, including non-DOE funded work at each laboratory. The 
assessment for LDRD was limited by the Energy and Water Development 
Appropriations Act for FY 2000 to 4 percent but restored to 6 percent 
for FY 2001. The LDRD assessment at Lawrence Livermore, Los Alamos and 
Sandia National Laboratories is part of the laboratory's overhead 
charge made against all work performed at each laboratory, both work 
for DOE and for non-DOE work for others. The sponsors of non-DOE funded 
work, including other federal agencies, are made aware of the LDRD 
assessment when entering into agreements with the laboratories.
    Departmental records show that Ballistic Missile Defense 
Organization (BMDO) funds provided to the three defense laboratories in 
FY 2000 through the Work-For-Others Program totaled $1.4 million and in 
FY 2001 is estimated at $5.5 million. The total assessment for LDRD 
made by the three laboratories against BMDO provided funds for Work-
For-Other projects is estimated at $56,000 for FY 2000 and $330,000 for 
FY 2001.
    Individual LDRD projects are funded out of the total LDRD budget. 
There is no correlation between any specific LDRD project and the 
assessment made against any DOE project or any non-DOE project. The 
National Nuclear Security Administration noted in its latest annual 
report to Congress, that over 55 percent of LDRD projects at the three 
defense laboratories were considered to support Department of Defense 
missions.

    Mr. Visclosky. Thank you.
    And Mr. Chairman, thank you for your generosity on time.
    Mr. Callahan. Mr. Wamp.

                   INVESTMENT IN THE SCIENCE PROGRAM

    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Secretary, I commend you on your courage to take over 
what has been an embattled agency and pledge our support to 
work with you to try to make the Department of Energy more 
efficient.
    Three of your primary missions that are important to the 
free world are also very important to the part of the country 
that I come from: science and research, national security, and 
environmental management. Actually, the President's budget 
request on two of those three areas is quite favorable, with 
the NNSA, the advent of the NNSA, the national security piece, 
seems to be improving. We will have that discussion later in 
the week.
    But setting that aside, recognizing that there seems to be 
sufficient and adequate funding in the national security 
missions, let me come back to science just for a minute and say 
that I particularly appreciate the President's commitment to 
basic research through the national laboratory system. You 
talked about the Spallation Neutron Source, and that is a 
partnership, a consortium between five different laboratories 
across the country. It happens to be sited in my district, and 
it is under construction.
    It is a critical physical science research investment on 
behalf of the entire country, but I would like to also point 
out that when people think about science in the country, most 
of them think about the National Science Foundation or maybe 
even the National Institutes of Health, which is now a very 
popular way to invest in basic research.
    Those are life and health sciences, and the Department of 
Energy Office of Science is also a very important agency for 
science and basic research investment typically along the 
physical science area.
    We are having a forum here the day after Memorial Day on 
May the 29th in Washington to talk about the future of 
scientific investment, because in the post-Cold War era, we 
really haven't established national priorities on the need to 
fund the physical science investment, not just the life science 
investment. We are dramatically ramping up investment in 
health-related research in this country, and rightly so. But 
you cannot leave behind the physical sciences.
    I would like for you to talk for a minute about the basic 
research through the Office of Science at the Department of 
Energy, where are we going, and give me your response to the 
need for a national discussion around the parity, really, 
between the physical science investment and the life science 
investment so they do not get out of whack because the two are 
interrelated, Mr. Secretary.
    Secretary Abraham. Well, thank you, Congressman.
    I would just say this. You know, as a member of the Senate, 
I was one of a group of people who at a very early stage joined 
together--I was one of the, I think, the original--one of the 
original cosponsors of legislation designed to try to double 
the budget of the National Institutes for Health over a fixed 
period of time, and I am proud of that effort.
    I have to say that, like I think a number of other members 
of Congress who were approached by folks and who had the 
opportunity at an early stage to become familiar with some of 
the needs at NIH and some of the opportunities, that we sort of 
have put a lot of Federal Government focus and Congressional 
focus on that initiative, and I think it is a good one and I 
would not want to detract from that commitment.
    But we have not put as much focus on the work done in some 
of our other science investment areas, especially at DOE where 
I think, frankly, a lot of people are not even aware of the 
magnitude of the kind of work we do.
    I met with our lab directors for the first time a couple of 
weeks ago when they were in Washington and talked to them about 
the need for us to expand public awareness and Congressional 
awareness.
    There is a little bit of a difference obviously because 
when we are in the areas of health, we have--virtually all of 
our constituents either themselves or have a family member with 
some ailment that NIH work can potentially help to address. 
There is not quite as clear a connection between some of the 
work we do in our labs in the basic sciences and physics and so 
on, that does not have quite the same kind of grassroots 
support.
    I hope we could ramp that up. I think whether it is the 
Human Genome Project, which is finally drawing some attention 
to the breakthrough work that we have done that began in these 
labs, or it is some of the super-computer work that will and is 
already being done, that maybe we can begin to capture the 
imagination of both the members of Congress as well as the 
American people. I think that has to happen for there to be the 
same level of momentum to increase these budgets as there has 
been in NIH.
    But I assured our lab directors that I was, having gone 
through the experience on the NIH side, quite interested in 
helping to build that awareness and educate Americans about 
what we can do in other areas as well, and I would hope we 
could work together to accomplish that.

                             INFRASTRUCTURE

    Mr. Wamp. Issues like nano-technology and protein 
development now clearly are connections between the physical 
sciences and life sciences arena, and I hope that we can focus 
through the Department of Energy on the enhancement of that as 
well.
    One other question, and then I will hold my others until we 
come back around.
    The Department of Energy inherited from the Atomic Energy 
Commission most of the facilities across the country after the 
weapons build-up 50-plus years ago. The infrastructure clearly 
is aging and eroding, and you have some major challenges--we 
do, the country--to reinvest and rebuild the infrastructure of 
the weapons facilities and even our national laboratory system. 
Some of our facilities are 50 years old.
    How are we going to plan three, four, five years in 
advance, from your perspective, for the needs to modernize the 
facilities across the country at the labs and at the weapons 
facilities?
    Secretary Abraham. Well, the question of facility 
conditions is one of the priority issues which General Gordon, 
who heads the NNSA, has brought to my attention in the first 
couple of months of our Administration.
    As everybody here knows, about a year ago, I guess, we and 
the Congress worked together to put together the various 
defense programs and national security programs of the DOE 
under one roof, NNSA. General Gordon was confirmed last summer. 
He began the process that the Congress had asked him to do, 
which was to try to evaluate both on the substantive side as 
well as on the infrastructure side the kinds of needs that we 
confronted and had moved a fair distance down the road of that 
analysis when the election occurred, after which, when the new 
Administration came, we launched a variety, as I mentioned 
already, of reviews that are defense-related.
    What we are trying to do is essentially marry the 
infrastructure and other reviews that have already begun at the 
Department with the strategies that are going to emanate from 
these defense reviews that Secretary Rumsfeld is engaged in. So 
that if we are going to move forward in terms of infrastructure 
and complex changes, they will be consistent with the needs 
that we foresee in the years ahead. That is kind of where we 
are at this point.
    This is a fairly fast-moving review at DOD. We have been 
working with them, both in terms of the substantive reviews, 
but also in terms of trying to incorporate these considerations 
which relate to infrastructure. So I expect that we will have 
some proposals along those lines to offer in the near future.

                         ENVIRONMENTAL CLEANUP

    Mr. Wamp. Just to follow up, since you mention the Rumsfeld 
review on defense, your review on environmental management and 
the past and the present and the future is very similar to the 
Rumsfeld approach to defense and the Pentagon saying, we are 
not doing a good enough job. We are going to stop, we are going 
to plan, we are going to look at the overall picture.
    If you could just address the environmental needs, because 
obviously, from a lot of perspectives, your budget request is 
not sufficient for environmental cleanup, but you believe that 
we can do a much better job and that we need to stop and make 
better plans for the future in order to save money over the 
next ten years.
    Secretary Abraham. I have talked with a number of folks on 
this committee and in the Senate as well about--and I alluded 
to it earlier--the sort of outline I received when I took this 
job with respect to environmental management and which I was 
told that, with the exception of two--let me step back.
    Over a period of some 50 years, we obviously engaged in a 
lot of defense-related programs at labs, at manufacturing sites 
and so on across the country. About 113 were subsequently 
identified in the late 1980s as in need of environmental 
remediation of some sort or another, and about 71 have been 
already fully addressed. But those were the 71--and there will 
be three more this year--but they tend to be ones that were 
fairly easy to address, and not as expensive.
    Now we come to the more serious challenges. The plan that I 
was provided said that the goal was to get the remaining sites 
cleaned up over a 70-year period of time. This came against a 
backdrop that I think a lot of the members of this committee 
are familiar with and which I remember from being in the Senate 
of concerns about whether or not we are spending enough of the 
money we do spend on actual cleanup versus other sorts of 
things at the sites, and by that, I mean, overhead and 
maintenance and securing things and so on.
    Part of the problem is that when you put in place a 70-year 
time frame, you have an awful lot of expense that is going to 
be involved in just keeping things in place, protecting people 
from somehow getting too close to a contaminated area. I mean, 
there are a lot of these kinds of expenses that go on if your 
plan is 70 years in duration.
    My reaction was 70 years--are you kidding? That means that 
people who are living in these sites' grandchildren may, in 
fact, be the first to enjoy living in these communities with a 
truly cleaned-up and environmentally remediated site. It seems 
too long to me. The cost of $300 billion seemed like a lot, but 
I would be willing to expend that if that is what it takes, but 
the question is, do you really think we should stretch it out 
over this period of time?

                        CLEAN UP AT ROCKY FLATS

    Let me give you a comparison, and certainly you cannot 
apply every single example to every other site, but at Rocky 
Flats, we encountered in 1994 an assessment that also suggested 
about a 70-year cleanup plan with a projected cost at Rocky 
Flats of over $30 billion.
    The decision was made a couple of years later, I think in 
1997 roughly, to make this a site that would be cleaned up in 
an expedited fashion, with a goal of a 2006 or 2007 cleanup 
period. We are basically on track to get that done, and we 
fully funded all the programs at Rocky Flats to keep on that 
track, which means that it will ultimately, I think, have been 
cleaned up in about 12 to 13 years from the point when we were 
told it would be 70, and the projected cost from 1997 forward 
to finish the job is going to be less than $7 billion based on 
our current estimates.
    Now, again, I am not suggesting we could do that at every 
single place where we have contamination in the complex that 
needs to be addressed, but it is a model that strikes me as 
well worth examining for application in other places, not only 
because it might save some money, but because it would mean 
that we actually are making significant forward progress in 
cleanup.
    I would like to be able to say that the money we spend on 
environmental management at these sites is largely going to 
make cleanup take place as opposed to other kinds of overhead 
and so on.
    I am not trying to denigrate anybody who is involved in 
this, and there has been a lot of criticism from different 
agencies that have looked at it, Congress and so on. I am not 
trying to say that. What I am trying to say is that I think 
that a management review taking some of the examples we have at 
Rocky Flats and Fernald, and that we might bring from new 
directions, and I think we will have a good management team to 
put these ideas together; can result in a process that is more 
expeditious and safer and ultimately less expensive.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Pastor, is this Happy Cinco de May Day
    Mr. Pastor. No. It is two more days. [Laughter.]
    Mr. Callahan. Mr. Pastor.
    Mr. Pastor. Mr. Chairman, Happy Cinco de Mayo on May 2nd. 
[Laughter.]

                            RENEWABLE ENERGY

    Mr. Secretary, good morning and welcome.
    What I would like to do is talk about some of the budget 
proposals that you have in the renewable energy area. It is an 
area in which I have had a lot of interest. As you know, in the 
Southwest, we are trying to develop and implement some of the 
research that DOE has completed and is now working with the 
private sector.
    What disturbs me is that the fiscal year 2002 budget for 
renewable energy and energy efficiency of about $1 billion is 
about $156 million or 32 percent lower than this fiscal year. 
If you look at the different items in energy conservation, 
building research and standards is reduced by 50 percent, the 
federal energy management program is reduced by 58 percent, 
industry sector improvements is reduced about 41 percent, and 
transportation sector improvement is reduced by 23 percent.
    If you look at energy supply, biomass and biofuels 
development reduced 5 percent, geothermal technology reduced 48 
percent, solar energy reduced by 54 percent, and wind energy 
reduced by 48 percent.
    The Vice President announced his or the administration's 
energy policy and in yesterday's article, the Washington Times 
says, and I quote, ``Mr. Cheney also for the first time 
announced the White House hopes to triple the use of renewable 
fuels favored by environmentalists--solar, biomass and wind 
power--from filling 2 percent of energy needs today to 6 
percent within 20 years. The increased use of these 
technologies will come through breakthroughs in research, 
development,'' he said, quote, end of quote.
    Somehow, what is in the fine-print is not consistent with 
what has been publicly announced, and what is the consistency 
that we are going to have as it deals with renewable energy?
    Secretary Abraham. Mr. Chairman, if I might, I would like 
to give a pretty full answer here, and I do not want to cheat 
Congressman Pastor out of his time.
    But I think this answer----
    Mr. Pastor. In celebration of Cinco de Mayo, I think----
    Secretary Abraham. The Chairman will understand. With your 
permission, I would like to give a full answer to that because 
there is a lot of--maybe you have other questions----
    Mr. Pastor. No, no, if we can answer that, Mr. Chairman----

  DEVELOPMENT OF THE FISCAL YEAR 2002 ENERGY EFFICIENCY AND RENEWABLE 
                                PROGRAM

    Mr. Callahan. The Chairman will allow him as much time as 
he needs to respond.
    Secretary Abraham. Okay. Let me give it a whirl.
    First of all, you know, it is sort of interesting, the 
conclusions about what will be in the energy plan are being 
speculated about all the time. One of the speculations that you 
probably have all seen rather frequently is that there is going 
to be a major commitment to increasing the role of nuclear 
energy in the next 20 years; yet, you did not mention, but if 
you looked at the nuclear energy research programs in the 
Department, we are actually proposing an increase percentage-
wise that is a greater increase than that which is connected to 
EERE, the energy efficiency and renewable energy area.
    What we did in the budget was to try to not simply take all 
the programs that had been in place and the policies that had 
been in place and simply continue them forward without 
evaluation, particularly since we knew that the results of the 
Vice President's task force effort and ultimately the 
development of the President's energy plan might have 
significant impact on where we would in the future want to 
spend the money.
    So what we did is this. Where we had some guidance from the 
President, as I said in my statement earlier, we have supported 
those programs and in some cases expand them substantially. In 
an area that is in the Interior Subcommittee's budget, for 
example, the clean coal technology area, we have increased by 
$150 million the clean coal programs. It is something the 
President was very committed to and remains committed to.
    Where we did not have guidance from the campaign platform 
or prior to the Cheney task force, we have done a couple of 
things. We have tried to keep programs that we could 
immediately determine or at least that I felt were sufficient 
in terms of the support for them, to continue them at level 
spending, and in some cases, we, in fact, did reduce. I want to 
talk about some of those reductions because I think they need 
some public examination.

                       ENERGY EFFICIENCY PROGRAM

    First let me talk about--again, it is in the efficiency 
area, but you did allude to the programs that dealt with the 
industries of the future, the buildings and so on, and the 
transportation.
    That side of the equation which is in the Interior 
Subcommittee I think is a reduction from about $815 million to 
about $755 million in our proposal; but most of that change is 
in the transportation area and in a particular category with 
which I am very familiar, the Partnership for a New Generation 
of Vehicles.
    I was a major supporter of this in the Senate. I came from 
Michigan, so it was something we had a lot of--as did our 
industries--a lot of interest in. But we evaluated this 
program, because I did know a fair amount about it, upon my 
arrival on the job in the context of where it is today versus 
where it was contemplated to be in 1993 when it was launched.
    One of the major components of that program has been the 
development of kind of a model vehicle, a kind of electric car 
approach, that we concluded, after significant conversations 
with the industry, was no longer where they were headed. It is 
about a $41 million component of the previous year's program.
    We decided that there were some very attractive components 
that remain in this whole area that have to do with more 
efficient parts of vehicles, fuel cell technologies, things 
like that, and we are continuing those, but when we discovered 
that there just was not going to be an ultimate application of 
the work that was being done in this area, we said we are just 
not going to fund it.
    Now, Congress may, you know, argue that it should be and 
that discussion can go forward, but I did not feel comfortable 
even though it was a program I had been a major advocate of, 
after I got that information.
    In addition, what we concluded, and this is where we had 
some Presidential guidance, that in the efficiency area, we 
were going to significantly shift resources away from 
investments in areas that we felt there could be greater--and 
should be and will be greater participation in terms of R&D by 
the private sector, to support programs where there would not 
be much of an alternative--specifically the Weatherization 
program.
    Our budget reflects reductions in the Industries of the 
Future and the Buildings and so on, which are offset by a $120 
million increase in Weatherization to help economically 
disadvantaged folks deal with the energy crisis and energy 
costs that they are encountering. We believe at the end of the 
day that we are keeping the core competencies of those programs 
in place so that if we conclude at the end of this National 
Energy Plan that they should go forward, that they could, but 
we felt, frankly, that the industries involved, which are major 
industries in this country, should pick up a greater part of 
the tab.

                        RENEWABLE ENERGY PROGRAM

    Now, in the area of renewable energy, let me just talk 
about where we are headed. We identified some things that we 
felt deserved to be continued at level funding--the hydrogen 
technologies, the fuel cell technologies I mentioned, the 
distributed energy programs, programs that relate to super-
conductivity--because I happen to think that there are some 
strong promising opportunities there if we really are going to 
increase the share that renewable energy provides.
    In the other areas, I have some pause, and it is a pause 
that is I guess based on a couple of things. One, we have spent 
a lot of money on geothermal, on wind, and on solar energy 
research over the last 20 years. We did a little calculus and 
in today's dollars, that cumulative expenditure I believe is 
somewhere in the vicinity of $5- to $6 billion.
    At the same time, our Energy Information Administration 
indicates that if you look at the total percentage of energy 
supply that those three areas currently account for, it is 
about one-half of 1 percent, and that is up from less than one-
quarter of 1 percent when the expenditures began.
    Now, does it mean there cannot be more breakthroughs? Maybe 
there can. A lot of people--I have not bought into this 
argument yet, but I at least have heard a lot of people say 
that the technology side of this, the investment and research 
side, has largely matured, and that the role now is not so 
much, ``can we figure out a better way to build a mousetrap?,'' 
it is a question of, ``what do we need to do to translate these 
technologies to applications?,'' to get people to actually 
employ solar systems for their homes, or ``what do we need to 
do to, move in the direction of more wind-generated power?''
    During this analysis, some people said, we have to look at 
regulations and maybe at tax incentives, some of those sides of 
the equation instead of more investment in this Department.
    So what we did in those areas, because of these forecasts 
and because of what we had done, is we said, we are not going 
to cut these programs entirely, but we are going to kind of 
scale them back subject to both the results of the Cheney task 
force as well as further analysis of whether or not more 
research investment was the logical way to spend money.

                   RENEWABLE ENERGY BUDGET AMENDMENT

    Let me just say at the end of the day, in the area of 
renewables, after a budget amendment, we will be--I think that 
is forthcoming very soon--be spending about $277 million, which 
is about $100 million less than last year. However, if you take 
out of the current year appropriated level, those activities 
that are one-time Congressionally-directed projects, it is 
about a $60 million reduction, and I think in light of this 
analysis, it is not inappropriate as we wait to see what the 
results of the task force and further evaluations are.
    Now, I know others view this differently, but I guess I was 
concerned when I saw that the percentage that renewables have 
played is at the level I just indicated, and when we asked the 
Energy Information Administration to give us their projection 
for the next 20 years, they project that those three forms of 
renewable energy are unlikely at the end of 20 years to provide 
more than about .78 percent of 1 percent of our supply, and I 
want to analyze that a little bit more before we continue those 
expenditures.

                     RENEWABLE ENERGY TECHNOLOGIES

    Mr. Pastor. How do you compare, then, yesterday's statement 
by the Vice President saying that we are going from, you know, 
2 percent to 6 percent, and he sees that there is to be greater 
efficiency in terms of going from research into actual 
implementation.
    Secretary Abraham. Right. That is where----
    Mr. Pastor. And then, by your actions, by reducing, there 
seems to be inconsistency.
    Secretary Abraham. No, I do not think there is because I 
think he is talking about actually getting--first of all, I 
mentioned three areas of alternative energy.
    Mr. Pastor. Right.
    Secretary Abraham. There is also biomass, which actually 
provides about 2 percent of the current energy supply. So when 
it is added to the others, that is why we are at about the 2 
percent level he said.
    Now, we are, as you know, funding the biomass research in 
this budget at about $81 million within our Department, within 
the Renewable Energy Program, there is some additional money in 
the Office of Science budget for that and in other agencies of 
the Government, and we see that as a growing source.
    We also see increases because of the translation that I 
just discussed over the next 20 years of technologies we have 
developed to applications in terms of people actually using 
these technologies, because that is where I have been at least 
informed there is right now a bit of a challenge. And then 
there are these areas that I mentioned of hydrogen and fuel 
cell technology that we want to continue to support and believe 
can begin to enter the equation. But that is the point.
    The question is, how much more do we need to do in terms of 
the research in those three areas as opposed to how much 
actually has already been done, and how do we take the research 
that has already been done and start translating it into people 
actually using these as energy sources? And that is what I 
think we need to work more on, and that is how we would 
hopefully get from the current level to a level that is higher.
    Mr. Pastor. Thank you, Mr. Chairman.

                        CLEAN UP AT ROCKY FLATS

    Mr. Callahan. Mr. Wicker.
    Mr. Wicker. Thank you very much. And I apologize for being 
late. We have your colleague, Secretary Thompson, down the hall 
in the Labor HHS Subcommittee.
    Secretary Abraham. Save all the tough questions for him.
    Mr. Wicker. Actually, I am sure this has been touched on, 
but in this committee's jurisdiction are two very important 
areas of subject matter: your energy concerns with very 
important priorities there, and also the water aspect of it. We 
have to balance those out, and I think the Chairman has been 
very forthcoming in explaining to the administration we are 
going to have a little more money on the water side of it. That 
is why I was so encouraged to see in your testimony about Rocky 
Flats, and as I came into the room, I believe, Mr. Secretary, 
you were responding to a question and using that as an example.
    Let me just make sure that I understand how good this is. 
As I understand it, this was initially to be a cleanup site 
until the year 2065; is that correct?
    Secretary Abraham. It is my understanding, and I was not 
obviously present at the point when these plans were put 
together, but my understanding is that the cleaning-up process 
at Rocky Flats was at one time projected to take approximately 
70 years and cost over $30 billion. Now, I do not know what its 
status was going to be throughout that period, but essentially 
it was a site that was more managed than cleaned up, because 
obviously we have demonstrated that you can clean a site up 
quicker than 70 years. So that is my understanding of what the 
plan was.
    Mr. Wicker. The figure I have is $37 billion.
    Secretary Abraham. That is right.
    Mr. Wicker. Now, who was going to manage that? Was the 
department itself going to do that or was that going to be 
contracted out?
    Secretary Abraham. You know, again, I would have to get 
back to you on the specific relationship. I mean, obviously we 
have at Rocky Flats a complete cessation of activities there in 
terms of DOE weapons activities as had previously been the 
case, so there would not have been a reason to maintain it 
under DOE operations because those operations, you know, are 
over. Whether the plan was to have the environmental management 
or a remediation contractor manage the site, I would not be 
able to tell you.
    [The information follows:]

                      Rocky Flats Clean-Up History

    The previous estimate that the cleanup of the Rocky Flats 
Environmental Technology Site would cost $37 billion and take nearly 70 
years to complete was provided in the initial 1995 Baseline 
Environmental Management Report (BEMR). One of the primary factors 
driving the cost and schedule estimates at the time was the lack of 
clear disposition paths for the special nuclear materials managed at 
Rocky Flats and cleanup requirements. At that time, the contracting 
approach was to employ an integrating management contractor to 
coordinate the cleanup efforts. Kaiser-Hill (K-H), L.L.C. was awarded 
an Integrated Management Contract (IMC) in 1995. As K-H and the 
Department worked to refine the plans for achieving closure, 
significant, strategic revisions resulted in plans for accelerating the 
site closure, including the development of disposition paths for the 
nuclear materials on site. Several baselines were developed that 
reflected increasingly aggressive projected schedules for site closure 
(2015, 2010, and 2008) prior to the development of the 2006 closure 
project baseline in May 1999, as the term of the IMC with K-H neared 
completion.
    Due in a large part to these significant efforts to refine and 
accelerate the closure schedules and maintain schedules for 
consolidating special nuclear material, the Department decided to 
pursue negotiations for a sole-source contract with K-H for completing 
the Rocky Flats Closure Project by the target date of 2006. 
Negotiations were completed successfully in late 2000. The new contract 
is significantly different from the previous contracts. It is a closure 
contract (cost plus incentive fee) that defines a target cost and 
schedule for the project. It also includes significant incentives for 
the contractor to achieve--and even exceed--the contractual goals.
    This contracting approach is innovative, and is serving as a model 
for other closure efforts within the DOE complex. It is not necessarily 
applicable for all cleanup efforts, but comparable, innovative 
techniques are being pursued within other contracts to reduce the 
cleanup baseline costs.

                  APPLYING THE ROCKY FLATS EXPERIENCE

    Mr. Wicker. Well, what I am interested in, I mean, when I 
hear $37 billion has now turned into $7.3 billion, it gives me 
hope that we can find other areas of savings. I would just like 
to understand is there something unique and one-time about just 
a couple of these projects, or is it something that we really, 
really can look at in terms of other areas?
    Secretary Abraham. Here is what I would say. First of all, 
I think there is certainly expertise to be derived from any of 
these experiences. Whether it is, as I said in my comments 
earlier, possible to apply the exact same model at every place 
where we have major management challenges, I will not say that 
today.
    But what I will say is that we made the decision based on 
the success of this effort to select for the under secretary 
position the gentleman who is the CEO of the contracting 
management team that has been doing this, and we have selected 
to be nominated for the Assistant Secretary for Environmental 
Management Jessie Roberson, a woman who was the Rocky Flats DOE 
manager in charge of our operations, the Field Operations 
Office manager there during part of this period.
    So I think we can take that expertise and apply it, 
especially to this overall management plan that we are going to 
develop.
    Mr. Wicker. Well, it certainly is an encouraging 
development, and at first blush it sounds almost too good to be 
true. So I look forward to exploring this possibility with you.
    Secretary Abraham. Thank you. And I would just say that my 
impression working with a very fine group of people in the 
building who work on these projects--and I want to stress that, 
whatever the criticisms have been, it is my observation that 
the people at DOE who are in these areas are very positively 
motivated and want to get their jobs done, but I do think 
having a top-down focus on actually completing these sites, 
making that a priority, establishing that kind of short-term 
commitment, from the conversations I have had with people who 
have been participants, was a major part of the reason that the 
success has been achieved.
    In other words, when people stop thinking that, well, we 
are not really ever going to accomplish anything during my time 
here, but somebody who is twelve Administrations from now in 
this job gets the credit for closing a site, I think it changes 
the way we do business, and I hope we could find other sites 
that could be moved into a more expedited time frame.
    Mr. Wicker. Thank you, Mr. Chairman.
    Mr. Callahan. Is that a vote? A series of votes? Well, I 
guess we have time for one more.
    Mr. Clyburn.

                  HEALTH AND SAFETY AT SAVANNAH RIVER

    Mr. Clyburn. Thank you, Mr. Chairman. Mr. Chairman, I am 
going to be brief. And thank you, Mr. Secretary, for being 
here.
    I am particularly concerned about the environmental 
management aspect role in this and, of course, I do know that 
the Savannah River site has been pegged for a $159 million 
decrease. Of course, that site is not in my congressional 
district, but I am concerned about its impact on the 2000 jobs 
that are under threat here.
    I am particularly concerned about the people of South 
Carolina who live in and around that plant, many of whom live 
in the lower part of South Carolina. They are concerned about 
safety and security.
    I would like to know what kind of analytical studies may 
have been done that brought you to the conclusion that the 
Savannah River plant can remain secure and be safe for the 
people who are living in that part of South Carolina and, of 
course, those who live over in Mr. Norwood's district over in 
Augusta, Georgia, that if we make this big reduction, that we 
are not sacrificing safety.
    Secretary Abraham. Well, first of all, rest assured that 
those who represent the Savannah River site directly have also 
been in touch on behalf of the communities that are there, and 
we are working with them.
    What we have set up as a criterion for the use of the 
resources which we have for the sites is to examine each site 
in terms of whether or not there is a health or safety risk and 
to address those first at all the sites, including Savannah 
River.
    There is a tendency, I think, sometimes to assume that 
every single dollar that is spent at a site is spent on 
environmental remediation. As you know, that is not the case. 
There are various degrees of work, from regular cleanup efforts 
to the amelioration of high-level challenges that pose direct 
health and safety risks. I can assure this Committee that the 
budget which we have is more than sufficient to deal with all 
high-level or any kind of a direct risk to the health and 
safety of the people of the communities in which these sites 
repose.
    What I am trying to do is to be able to come back to the 
people of Savannah River, I hope fairly soon, once we have 
completed this analysis, and tell them that the good news here 
is that instead of being in a situation where they, their 
children and their grandchildren are all going to have to have 
these kinds of concerns, that we are going to try to address 
them during their lifetime, soon, by changing the way we try to 
do business at these sites to get them completed, as I just 
indicated, in a much shorter time frame.
    I believe that can be done. I think that the evidence we 
have from the sites which I have mentioned, Fernald and in 
particular Rocky Flats, demonstrates that that can be done. But 
it will not be done if we continue the approach which says it 
is going to be done over 70 years, we are going to make 
incremental gains each year in terms of total site cleanup, and 
then finally at some point way off in the future, after all of 
us have left public office, somebody is going to finish it. I 
do not think that is the way to get it done, and I think, if 
anything, if I lived in that community, that would be the kind 
of response that I would expect out of the Federal Government.
    In the meantime, we are addressing all the health and 
safety risks that we identified during this budget process as 
being posed at the sites, not just Savannah River, and we will 
be addressing them. Some of the other activities that go on at 
these sites are not going to receive perhaps the same attention 
they have in terms of commitments of money for community 
liaisons and these kinds of activities. We will do the most we 
can, but our principal goal is to try to address the cleanup of 
the highest priority challenges we have, to finish the Rocky 
Mountain and Fernald sites on time, to keep on track, and then 
to address some of the other priorities in these sites as well.
    Mr. Clyburn. I think all that is a good goal, but my 
concerns to a great extent have to do with people who are there 
now who see these headlines about the budget, and the anxiety 
that I see in all of them. It seems to me that it is somebody's 
responsibility now to start some kind of a discourse so that we 
will be able to explain to these people that there is some 
organized method here that will be a benefit to them in the 
future. Right now, they are anxious, they are nervous, and I 
have lived with that plant all my life.
    Mr. Callahan. I think I might interrupt and tell the 
gentleman it is someone's responsibility, but it is my 
responsibility to get you all over there to vote on these 
things at this time. [Laughter.]
    Mr. Clyburn. I appreciate it, Mr. Chairman.
    Mr. Callahan. I will allow the gentleman to continue his 
question.
    Mr. Clyburn. Well, that is all I have.
    Mr. Callahan. Mr. Secretary, you are welcome to use the 
members and staff office there.
    Secretary Abraham. Thank you.
    Mr. Callahan. We will be back. We have a series of votes.
    Secretary Abraham. More than most, I understand fully that 
you need to make the roll calls.
    [Recess.]
    Mr. Frelinghuysen [presiding]. The meeting will come to 
order.
    Thank you, Mr. Secretary. We are going to resume. Even at 
the risk of incurring the Chairman's wrath, we are going to 
begin.
    Secretary Abraham. As long as the record shows it was not 
my suggestion to start without him. [Laughter.]
    Mr. Frelinghuysen. May the record show it was the staff's 
suggestion to the vice chairman.
    Mr. Doolittle is recognized for some questions.
    Mr. Doolittle.

                        CALIFORNIA ENERGY CRISIS

    Mr. Doolittle. Thank you, Mr. Chairman.
    Mr. Secretary, it is wonderful to have you here with us 
today. We appreciate that.
    Mr. Secretary, when I was out in my district over Easter, 
the Sacramento Bee, which is part of the McClatchy News 
Corporation, ran a story indicating that the Bush 
administration hates California. That is basically a direct 
quote. And I just wondered if you could clarify for us. Does 
the Bush administration hate California?
    Secretary Abraham. It is our official position. [Laughter.]
    Well, I would just say, Congressman, and I know that we 
have a couple Members of this Committee from California, and I 
think you know because you and I have actually been in 
California on occasions in the past together; that is not 
either the position of our Department, myself, or the 
President.
    We take very seriously the problems and challenges that 
California is encountering right now, and we have tried since 
the first day of our Administration to work with Governor Davis 
to address those things which he has asked us to address.
    Mr. Doolittle. Is there any request that Governor Davis has 
made of the administration other than price caps that has not 
been granted?
    Secretary Abraham. To my knowledge, no. Certainly not with 
respect to requests of our Department or, that I am aware of--I 
believe that whether it has been to extend emergency orders for 
the sale of electricity and natural gas, which we did on our 
third day, I guess, in office, to working with him to expedite 
permits for the development of new generation in the State, we 
have agreed and have supported his requests.
    The price caps question is one where we have a different 
viewpoint, as is well known, but with regard to the issues that 
have been brought to me, we have attempted on every occasion to 
be supportive and fulfill the request that was made.

               MITIGATING ROLLING BLACKOUTS IN CALIFORNIA

    Mr. Doolittle. Thank you.
    Mr. Secretary, we face a very difficult problem in 
California with extensive rolling blackouts being projected, I 
think, by just about everyone for this summer, and I just 
wondered, is there anything that you are aware of that would 
help mitigate or indeed avert that circumstance from occurring 
this summer?
    Secretary Abraham. Well, as I said earlier and have 
testified on before, the current projection is that there is a 
delta of about 5,000 megawatts between the projected peak 
demand this summer and supply.
    California has, as you know, been very successful over the 
years in terms of energy conservation, and yet in spite of 
those efforts, it has not been enough to close that gap, and 
new generation is going to be needed. I think the Governor has 
made that very clear as one of his priorities. But it takes 
time for new generation to be brought online.
    Whether there are additional conservation opportunities, I 
mean, that is one possibility. I have held a couple of 
meetings, I brought together a conference of the various energy 
suppliers, those who sell energy in California, and made it 
very clear to them that we expected people to perform at the 
maximum level they possibly could, because we had seen 
instances where rolling blackouts had been triggered by 
shutdowns of facilities that had not perhaps been sufficiently 
discussed ahead of time, and at least that seemed to be the 
case, or because of acts of nature that perhaps could have been 
averted with more safeguards put in place, to try to make sure 
that happens.
    We are looking at ways to conserve as well from the Federal 
Government's point of view, and I think that, we have already 
made some major headway in that over the last of years with 
facilities in the State because we are a major energy user in 
California, and I think there is the potential to do even more 
on that front.
    But that is the challenge, and there is just no way to 
bring new energy sources online as quickly as to meet the 
summer challenge.
    We are also trying to look at the issue of some of the 
facilities that are not providing energy right now, the 
qualifying facilities, the ``QFs,'' some of whom have been 
offline because their contracts are with utilities, they have 
not been paid, and so they are not in a position to keep 
functioning, and we--I am not sure what can be done about that, 
but that could help close the gap a little bit, although the 
5,000 differential contemplates them being operational and 
right now some of them are not. In fact, the most recent 
blackouts were triggered I think because of QFs going offline 
because they had not been paid.

                   LEGISLATION WAIVING CLEAN AIR ACT

    Mr. Doolittle. I understand that there are a number of 
businesses throughout the State that collectively have 
approximately 600 megawatts of standby generating capacity, but 
that these cannot be used because of certain requirements of 
the Clean Air Act.
    I also understand that Union Pacific Railroad--I think this 
is just Union Pacific, although it may be all the railroads in 
California, have 4,000 additional locomotives, each of which is 
capable, I think, of generating 5 megawatts, and that those 
could be put to emergency use if, indeed, once again, the 
requirements of the Clean Air Act were waived so as to allow 
those locomotives to be turned on and generate electricity.
    Mr. Hunter has a bill which I have cosponsored which would 
waive--actually, it would change the law and allow in certain 
shortages of electricity, I think either Stage 1 or Stage 2, 
for the standby generators to go online.
    I guess my question to you would be, would the Bush 
administration support that bill and would it put its influence 
behind proposals to waive some of these requirements so that we 
could get through this summer with as minimal a disruption as 
possible?
    Secretary Abraham. The administration would be concerned 
about any move to waive or suspend the implementation of the 
Clean Air Act, but obviously we would, you know, we will review 
any bill that, you know, comes before us and take into account 
the considerations the state might ask us to look at. But----
    Mr. Doolittle. So if the Governor made that request, you 
would be more receptive to waiving the sacred Clean Air Act?
    Secretary Abraham. Well, I do not want to speculate on 
issues that are outside of the portfolio of my Department as to 
what EPA might, you know, think and so on. I think probably 
Administrator Whitman would have to be the person asked about 
that. But I would just up front indicate that I think we would 
be concerned about any federal action to change, you know, or 
waive provisions of the Act at this point.
    Mr. Doolittle. Well, my time is up. Just to observe, if we 
have these rolling blackouts and we lose air-conditioning in 
parts of California, which, you know, routinely are over 100 
degrees in the summer, you will have people die from that. So 
even the Clean Air Act might have to give way for the lives of 
other people.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Secretary, I apologize for my tardiness 
in returning, but I was summoned by the chairman of the full 
committee and the chairman of the Budget Committee to discuss 
some possible changes and increasing the amount of money we 
might have available. But you can rest assured I told them that 
Energy had the right amount of money at the right time. 
[Laughter.]
    Secretary Abraham. Thank you, Mr. Chairman. I know I speak 
for all 16,000 employees in the department for your steadfast 
commitment to our current budget proposal. [Laughter.]
    Mr. Callahan. Mrs. Roybal-Allard.

                IMPACT FROM ENERGY CRISIS IN CALIFORNIA

    Mrs. Roybal-Allard. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to follow up a little bit on 
some of what has already been covered, if I may, particularly 
as it pertains to California. Congressman Doolittle read a 
headline that said ``Bush Hates California.'' Now, I think one 
of the reasons there is at least that perception is because of 
the fact that very little has been done from California's 
standpoint by the administration to address the immediate 
crisis.
    Now, California has taken several steps that will address 
the crisis, but really will not have an impact until perhaps 
June or July. The real crisis period is this month and going 
into June.
    I think what feeds into that perception is that when you 
consider the fact that California is a major State, a major 
economy in this country, and that there are businesses that are 
closing now. For example, the L.A. Dye and Print Works, which 
was one of Southern California's largest textile firms, closed 
its door in April because of the natural gas costs that have 
absolutely soared to over $600,000 per month, which is 5 times 
higher than what they were paying in 2000. There are other 
businesses that are saying they are going to have to move to 
Mexico. People are being laid off.
    And as was mentioned earlier by Mr. Frelinghuysen from New 
Jersey, although right now it is California and other Western 
States that are experiencing this crisis, it is a crisis that 
potentially could impact the entire Nation. In fact, there was 
a Wall Street Journal article dated April 26th which says: 
``Why California isn't the only place bracing for electrical 
shock. In a deregulated environment, many States are vulnerable 
to erratic price and supply.'' So potentially maybe in a 
different form, there is going to be an energy crisis that is 
going to impact the entire country.
    Yet neither in your spoken statement or in your written 
statement do you address in any way, not even in a footnote, 
the energy crisis in California and the potential crisis that 
could impact the Nation. So I think those are the kinds of 
things that feed into this perception.
    I just want to highlight a little bit of the background as 
to what is taking place, because I think it is important for 
the public to understand what is happening in California 
potentially could happen in their own State.
    For example, in 1999, California was paying a total of $7 
billion for electricity. Last year, we paid $32.5 billion, and 
the price tag is expected to go to $65 billion.
    California's grid operator provided data to FERC in March 
documenting that $6 billion in overcharges were done by 
electricity producers, and at least twice FERC itself has found 
that prices, and I quote, ``are unjust and unreasonable'' in 
the Western electricity market under the Federal Power Act. Yet 
the Commission has refused to take any real meaningful action. 
The administration has potentially said that is California's 
problem. And although there are certain actions that have been 
taking place--and you have alluded to them earlier--they are 
more in the long term. And what we need right now is some 
short-term support.
    One of the things that has been suggested, which I believe 
that you have referred to as price caps, has been the true cost 
of service-based rates in the West. And these really are not 
arbitrary caps, as you have mentioned, but would be calculated 
individually for each plant in the West, reflecting their true 
costs for generating the power, plus a return on invested 
capital and a reasonable profit. And this is a recommendation 
that does not just come from California, but Governors from 
Washington, Oregon, Arizona, Montana, Nevada, Utah, and Wyoming 
have also supported this type of cost for service rate.

                ADDRESSING THE ENERGY CRISIS NATIONALLY

    I guess my question is: Why, particularly in this hearing, 
has there not even been a mention of the crisis, not just in 
California but in terms of what your agency is planning to do 
to avoid any future crisis that is being predicted will 
ultimately impact other States, for example, like New York?
    Secretary Abraham. Well, first, Mr. Chairman, I may need a 
little bit of time to respond to this, and I do not want to 
cheat the Congresswoman out of her period, but if I could have 
a little bit of latitude here.
    Let me first of all begin by saying, you know, the purpose 
obviously of the hearing today is to discuss the fiscal year 
2002 budget and the problems in California are happening right 
now. So I have been looking at next year's budget, and I am 
happy to talk about what we are doing right now, not just for 
California but for the West.
    First of all, we do care very much about California, and we 
care so much about it we are not going to take actions that we 
think will make the blackouts worse, longer lasting, and more 
permanent. And I happen to believe and have testified 
previously on the Senate side that price caps will do all of 
those things for reasons which I would be happy to go into and 
will.
    But let's begin with just sort of an analysis of the 
problem. Higher prices that you are encountering are a result 
of an inadequate supply-demand equilibrium. You have got a lot 
more demand than you have supply, and that is why the price is 
going up, not just in California but throughout the West.
    Now, we can sit here, and others have, and quibble about or 
castigate decisions that were made in California in recent 
years to not build new sources of supply. That has been done 
plenty. And my point here is not to criticize those who voted 
against local initiatives on the building of new power plants 
or those City Council people who very recently decided not to 
go forward with power plant construction, even when local 
community support from the Sierra Club to the American Lung 
Association was in favor of it. I mean, those were decisions 
that caused us to have this huge gap between supply and demand. 
And the way that gets expressed is in one of two forms: either 
you ration supply with price changes by passing along to 
customers these high prices and they decide as a result to not 
spend--not to use as much, and that is one way, or with 
blackouts, which is more or less what has been happening. But 
that is where we find ourselves, and that is why the price 
problems have happened.

                           ENERGY PRICE CAPS

    Let me talk about what I think price caps would do, whether 
they were cost-based price caps or arbitrary or any other kind. 
I believe that they would send California and perhaps other 
parts of the West into an even more devastating series of 
energy shortages. First of all, if you cap these prices, then 
you are going to have even less incentive to reduce demand. And 
that will mean that there will even be more strain on the 
system.
    In addition, I think there will be significant 
discouragement to the generation of new supply, because people 
who were thinking about investing in more generation are going 
to be discouraged by the idea that perhaps they would find--
after they made an investor-wise decision to go forward with a 
power facility, they would find themselves with a different 
equation in terms of the return on investment.
    And I think that will mean that this summer you would have 
even more severe blackouts and that the blackouts would be 
longer-standing because the new generation would not take 
place. That is our assessment. And I have not heard anybody who 
has made a case that that will not be the kind of effect.
    Now, the separate issue of the charges needs to be also 
addressed. The ISO, as you indicated, in March of this year 
indicated that over a 10-month period of time last year, for 
the most part, had--that there had been over six--you mentioned 
$6 billion of overcharges. This administration supports market-
based prices. We do not support unjust and unreasonable prices. 
We fully support FERC's efforts, I would hasten to point out, 
since Chairman Hebert took over, to begin refunding part of 
these overcharges.
    But it is important to put some things in perspective. The 
overcharges are a collective amount from all the entities that 
sell electricity. The Federal Government--FERC, we at the 
Department of Energy, and so on--only regulates part of the 
market. The municipals, the cooperatives and so on are not 
regulated by us. So a big percentage of those overcharges were 
not charges we could seek refunds for because we have no 
capacity to order them. And I might add they are also people 
over whom we cannot apply price caps. So that even if we were 
to go forward with a cost-based price cap, it would only apply 
to some of the entities but not all of--in fact, it would be 
less than half of the entities in California. It would mean 
that the other entities who we cannot control could buy the 
cheaper cap prices from the entities over which we would apply 
a price cap and resell it at the higher price.
    Moreover, it means that with respect to FERC's efforts, 
FERC has been very responsive and I am glad they have, but 
since Chairman Hebert took office--to begin ordering refunds. 
But, unfortunately, as you know, the law only allows you to go 
back 2 months. So we can't go back and order--at least FERC 
can't go back and order, refunds for last year. I think it is 
unfortunate that when these higher prices began, some would 
certainly--apparently the ISO would argue were excessive and 
unjust, that they weren't average, but seeking refunds at that 
time, that it didn't happen. FERC only has, I believe, a 60-day 
retroactive window to act within, and we are doing that. The 
FERC has done that.
    So that is the assessment of this. I mean, I just believe 
price caps will make the blackout situation far worse. I think 
that will result in even greater economic disruptions because, 
as people have, I think, become aware, if you shut down some of 
the high-tech production facilities without adequate notice, 
you are talking about $1 million an hour kinds of costs. That 
is what has been incurred. Other businesses I am sure feel the 
same kind of effect.
    If you impose price caps, I believe that those shutdowns 
would be longer, and I do not think you would get back on the 
right track for a long period of time.
    As to the advocacy for this, I would point out just for the 
record that several of the Governors who you mentioned have 
subsequently changed their position and are, in fact, opposing 
price caps at this point. The three Governors, I think, from 
the West Coast do still endorse and support them.

                       CALIFORNIA ENERGY PROBLEMS

    Mrs. Roybal-Allard. I just want to point out one of the 
comments. There have been a lot of comments made that one of 
the reasons that California is in this situation is because of 
our environmental laws. But I would like to point out that in 
the States where there are no such environmental laws, that 
power plants were also not being built. The reality is that the 
reason they were not being built was not because of 
environmental laws, but because it was, you know, cost--it was 
a cost-related thing. There was really not a profit in so 
doing.
    Secretary Abraham. Can I comment on this? Because it really 
is supportive of the original point you made. This is a 
challenge that not just California but the whole country must 
confront, and you are right about that. Communities and States 
who decide that they are going to allow demand to continue to 
increase for energy--and Americans' demand I think will 
increase, notwithstanding our best efficiency efforts. We have 
to make sure supply is available to meet that demand. In some 
cases--you know, we are a country which loves to use 
electricity and energy, but hates all the sources of energy. 
And over time, there has been opposition to virtually every 
source out there, including most recently renewable sources. 
Hydropower is killing fish, and windmill farms endanger birds. 
I mean, it has become all-inclusive.
    And I am not saying that we do not have to be sensitive to 
the side effects of energy production in an environmentally 
sensitive way. But what I would say is that communities act at 
great peril if they take the position that they are not going 
to make decisions with respect to energy supply that keeps up 
with the demand increases that they are encountering, whether 
it is California or anywhere else. And you are absolutely 
right, and the article that you reference is right, that other 
parts of the country can encounter the problem. But they are 
going to encounter it if they do not allow--if they do not 
recognize and evaluate their supply needs and try to address 
them in an effective way.
    Again, I mentioned--and I do not want to just single out 
California, but there were decisions not to build facilities 
that did, in fact, meet environmental and regulatory 
safeguards, partly because communities say, ``do not build it 
here, do not build it in my back yard.''
    Well, I understand that thinking, but there are 
consequences ultimately if no supply generation is built 
anywhere, whether it is for one State or a whole region.

               VICE PRESIDENT CHENEY'S ENERGY TASK FORCE

    Mrs. Roybal-Allard. Mr. Chairman, I know my time is up, but 
just for the record, if I could just say that I am very 
concerned, with Vice President Cheney's task force, that they 
are recommending a policy that relies almost entirely on 
increased production. I think that if we are going to have a 
real comprehensive national policy, it needs to be just that, 
comprehensive, and not just rely on increased production but 
also on conservation.
    Secretary Abraham. And if I could just say, Mr. Chairman, 
this task force has not completed its work. The speculation in 
the media as to the nature of the recommendations is premature. 
And it will definitely be a balanced set of recommendations 
which will demonstrate a role for efficiency and conservation.
    I would also note that in California, as I have said, if 
you look at the conservation effectiveness of the State of 
California, as I think I said to Congressman Doolittle, 
California is right at the top of the list. They have done a 
great job. But all of that alone was not enough to offset the 
increases in demand that have occurred in the last 5 to 10 
years.
    Mr. Callahan. Mr. Latham.

                      INCREASING REFINERY CAPACITY

    Mr. Latham. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary.
    I just want to say, first of all, I am so pleased that we 
finally have people who are going to actually put together a 
national energy policy. I think everyone remembers last year 
when we were experiencing major price increases in gasoline 
that former Secretary Richardson, and to quote him, said that 
the administration was ``caught asleep at the switch,'' that 
there was no energy policy, and that they had not thought 
through the situations that we had gotten into. I just want to 
compliment you for, I think, a very, very thoughtful approach 
to this huge problem that we have. It is a nationwide problem, 
and one that I am very pleased that you are finally addressing, 
and we finally have an administration that will look at a 
national energy policy.
    What I am hearing on gasoline prices and a major increase 
is that we do have a major problem as far as refinement 
capabilities. There is such a patchwork situation of different 
grades of fuels and different blends around the country that 
they are in a very difficult situation just volume-wise, but 
then, again, to get the right kind of fuels for the right kind 
of States and people have different regional problems.
    Could you address that for me, please?
    Secretary Abraham. Well, there are a lot of factors that 
are part of the equation with respect to gasoline, prices or 
the price of petroleum products after refining.
    Certainly the overall worldwide supply of oil that is 
available for production is a prime factor, but the problems 
that you have just referenced are also factors as well.
    Here is what has happened. We have not built a new refinery 
in this country I do not think since about 1976. And so even 
though the current existing refineries are operating at a 
production level that has allowed total production that takes 
place to be at a relatively stable level, even perhaps a slight 
increase, the straining of the refining capacity at peak 
periods is a big problem, as I understand it.
    For example, if unusual developments occur, such as 
happened up in my part of the country, in Michigan last summer 
when we had a pipeline explosion, there was not adequate 
refining capacity to compensate for the shutting down of that 
pipeline that connected Chicago to Detroit. There were no 
refineries in Detroit to take up the difference.
    When we go through these seasonal changes in terms of the 
product being refined in the refineries, for example, the 
transition from home heating products to gasoline products as 
we move from winter to the more sensitive driving periods of 
the summer, takes time. And when you get into these periods 
where the refineries are working at full tilt, unless they have 
had a chance to build up inventories in the intervening slower 
periods, then we have these price spikes that result from an 
inadequate supply being available.
    You mentioned the fuel issue, the boutique fuels, as they 
are sometimes referred to. That is a problem when we go through 
these seasonal transitions. In the Midwest last summer, as I 
think, looking at the panel, at least one member here from that 
region, we had--we will extend over to Pennsylvania. I am 
sorry. But, you know, we had in our region there from Chicago, 
through Indiana, through Gary, up through my home area in 
Michigan, big spikes. There were several factors. But one of 
them was the fact that the transition in the refineries for the 
manufacture of the special fuel that was needed, the gasoline 
that was needed for the Chicago, the Milwaukee area for the 
summer, for the first time it was being manufactured, and the 
transition took some time. And that racked up supply as well.
    Now, they are hopeful--and I have talked to people involved 
in the process--that having done that last year, we are in a 
better position this year to make that transition. But when you 
have a slow-up in supply of your refinery capacity, as strained 
as it is in this country, then you are going to have spikes of 
the sort that we encounter. And one of the things we are 
looking at in the context of this task force is what are the 
impediments to developing more refinery capacity.
    Obviously some of those impediments are ones that 
Government may be able to address, and some where it can not. 
One of the issues has been that for some time the margins that 
were available, the earnings or whatever, the earning margins, 
the profit margins for the refineries, until maybe the last 18 
months or so, have not been very great. And so the incentive 
from an investment point of view, as I understand it, has not 
been very great either.

                                BIOMASS

    Mr. Latham. I would just say, being from Iowa, that 
obviously I would hope that there is real consideration for 
clean-burning renewable fuels such as ethanol, biodiesel, and 
soy diesel. I actually have the largest wind energy farm in the 
country in my district right now. The cost has come down, I 
think, about 80 percent as far as wind energy. It is very, very 
profitable for the farmers themselves. They love it, to get 
that check every month, when they are otherwise having rather 
difficult times. It has made a difference, I think. But 
certainly I would just encourage you to make sure that ethanol 
and biodiesel are part of the equation. And with the California 
situation, obviously, the attainment, with no longer being able 
to use the MTB and hopefully replace that with a lot of ethanol 
out there.
    Secretary Abraham. Senator Grassley always kept me well 
informed on this issue in the Senate, as do my corn farmers in 
the thumb of Michigan.
    Mr. Latham. Thank you.
    Mr. Callahan. I think Senator Grassley says what we ought 
to do is take it away from Defense and give it to Energy.
    Mr. Secretary, I do not take pride of authorship nor do I 
support the suggestions that have come to my office that one 
possible solution to part of our energy problem might be for 
California to secede from the United States. [Laughter.]
    But in deference to my colleagues from California, I am not 
supporting that--at this point. [Laughter.]
    Secretary Abraham. Congressman, you may be able to run for 
President.

         SECRETARY'S ROLE IN DEVELOPING NATIONAL ENERGY POLICY

    Mr. Callahan. I am thinking about California and Florida.
    In any event, seriously, I had thought somehow or another 
that this committee, this subcommittee, would be more involved 
in the formulation of the energy policy. Obviously there is 
going to be need for appropriations in the future if you have 
an energy policy because you are going to have to investigate 
alternative sources of energy.
    Now, 2 weeks ago, on a codel to France, we met with the 
manufacturers of the fast train there. They explained to the 
members there that the reason fast trains are economically 
feasible in France was because of the low cost of energy, 
because they are electric.
    When we questioned them on why this was, it was simply 
because they have 55 nuclear power plants there, and the cost 
of electricity there is so inexpensive that they run their fast 
trains much more economically than they can be run on diesel.
    Secondly, we found that there were serious indications 
coming from Daimler-Chrysler that they would have a separation 
capability of hydrogen from oxygen and the capability of 
burning the hydrogen in an automobile or possibly at some 
capacity at a residence. And I wonder where we are on those two 
things. But I was quite surprised.
    What position did you play in the formulation of the policy 
provisions that came out this week?
    Secretary Abraham. Well, first, I want to reiterate that 
the Vice President's speech in Toronto was not a reflection of 
a final report. It was, I think, an indication of some of the 
things we have been looking at seriously. But the process, in 
fact, this afternoon I believe I have another meeting of 
principals, Department and Agency heads who are the task force 
members, to look at some of the recommendations that we have 
been debating again. There are a number of these issues that 
are still in debate.

                             NUCLEAR ENERGY

    As to the two that you just mentioned, let me just say 
that, with respect to nuclear energy, that has certainly been 
mentioned in the media as a possible part of this task force, 
and certainly it is one we have been looking at. There are some 
significant changes that have transpired with respect to 
nuclear energy in the last 30 or so years since we most 
recently built a nuclear power plant in America.
    Certainly there have been a lot of safety improvements, I 
think, in terms of on a worldwide basis, as countries like 
France have increased their use of nuclear energy. We have much 
to learn from that, I think. There has been a concentration to 
some extent, of ownership of facilities in the United States. 
And as I said to the group not too long ago, when these 
facilities were all being built by independent operators, local 
community utilities and so on, we had situations where maybe we 
did not have the kind of expertise at every single facility 
that would have been our preference.
    Now I think we are moving in a direction where we have more 
experienced operators with longer safety track records to draw 
from, and I think that is an encouraging sign.
    In addition, I think that the Energy Policy Act that was 
passed in 1992 with respect to the licensing procedures are 
ones that make it theoretically more feasible to go through 
licensing.
    But there are some challenges that remain before nuclear 
energy can assume a greater role than it does today, one of 
which is, of course, the disposition of the waste. And we take 
this very seriously at the Department and have injected into 
the discussions of the task force the extent to which we must 
address that issue, because in the absence of having a 
confidence level that there will be a way to address waste in 
the future, it seems to me unlikely that new facilities are 
going to be invested in, and it seems to me that even existing 
facilities may not be--relicensing or full-life extension for 
existing facilities will be questioned.
    So that is another part of it, and it is something that at 
the Department, as you know from this budget, we are proposing 
approximately $445 million of investment to continue the 
science evaluation so that a site characterization can 
ultimately be finished and presented to me so that I can 
examine that.

                                HYDROGEN

    As to hydrogen, I mentioned in my comments that with 
respect to renewable energy, we had several areas in which we 
intend to maintain funding levels. One of them is research in 
this area. I think it is a very promising one, and we believe 
that there is much more that needs to be done before that is 
going to become a component of a renewable energy strategy. But 
we see a lot of prospects there for significant increases in 
terms of understanding and technology that can come about from 
research investments and hydrogen-related science.

        CONGRESSIONAL PARTICIPATION IN ENERGY POLICY DEVELOPMENT

    Mr. Callahan. One reason I wanted to be a part--or I know 
that my assumptions were not carried forth about being a part 
of this energy policy development, I will piggyback on Ms. 
Roybal-Allard's concerns about California being unjustly 
accused of not supporting any increases in power capabilities.
    On the other hand, Alabama is just the opposite. We do 
allow drilling off the shores of our coast. That natural gas 
goes into a national pipeline, and ultimately some of it winds 
up in California. And as a result of the demands in California, 
the prices in Alabama have skyrocketed.
    In addition to that, we have a nuclear power plant in 
Alabama that we have had few problems with. So why should the 
people of Alabama, who are allowing their natural resources to 
be used for their national energy needs, why should we be 
paying through the nose to satisfy a State need that has 
refused to allow their natural resources to be utilized for 
this purpose? I was hoping to have an opportunity to find a way 
of rewarding those States that are permitting use of this 
natural resource and maybe use that as a carrot to States like 
California who are saying, up until now, do anything you want 
in Alabama, do anything you want in Louisiana and New Jersey, 
but don't do anything in California, but ship us your natural 
gas from your coastlines, and ship us your power from your 
nuclear power plant.
    So I wanted that opportunity to find a way to reduce the 
energy cost to the people of Alabama because we are doing what 
I think is the right thing, that is, permitting natural 
resources to be used to develop power.
    Secretary Abraham. I think your concerns here are ones that 
need to be part of this debate, and I want to make just two 
quick points. One, the goal of the development of this plan was 
to get the Department and Agency heads who have 
responsibilities in the energy issues together to try to come 
forward with recommendations to the President. I do not think 
it is in any way the intent of anybody, part of this, to assume 
that once we finish those deliberations there is no role for 
Congress to play. The Congress will play a very integral role 
with respect to any of the issues that involve statutes or 
involve changes in the law. And we have not discouraged any 
members, and I would encourage--because this is not a finished 
product, even at this point, even though it is a late point in 
the process, to forward to me, I would be happy to convey to 
the Vice President----
    Mr. Callahan. I understand that, but even in the 
formulation or the beginning of the formulation of a policy, I 
think that those States that are contributing to the energy 
needs of this country ought to be a part of that from the 
beginning. We ought not be piggybacked to that later on during 
the process. And that is why I would hope that this 
subcommittee or the Congress would have played a role in the 
basic formulation. But that is not to be.

                             YUCCA MOUNTAIN

    Speaking of one of the solutions that you said needs to be 
done before we can make any advances in nuclear power, we can 
talk about the Yucca Mountain repository. I do not know what 
your personal commitment is to Yucca Mountain. I do know that 
there are some time constraints. I think the end of this year 
something must be issued by your Department or by the President 
in order to let this project go forward, in order to relieve 
the pressure that you say is prohibiting us from looking 
seriously at nuclear plants to resolve this problem.
    I need to know your personal commitment to the Yucca 
Mountain repository. I need to know can you by the end of the 
year, or whenever it is, file the necessary indications that it 
is an acceptable site. I also understand that Nevada has a 
problem or that we have a problem with some water provision and 
that we have to have a water permit authority from Nevada. I do 
not think it is any secret that many powerful people are trying 
to do everything they can to stall the opening of this 
facility.
    Secretary Abraham. Mr. Chairman, the responsibility I have 
is to assemble all of the site characterization science once it 
is completed, and it is near completion, and then to evaluate 
it as expeditiously but as comprehensively as possible and make 
a recommendation at that point or advise the President based on 
that evaluation. And I will commit to you certainly to move it, 
as I said, as expeditiously as I can, consistent with a 
comprehensive review, because I do not want to create any 
possible challenge to any actions that might be taken that 
suggests that somehow or another there was any predetermination 
on my part or anybody else's as to what should be the 
recommendation.
    I think that it is important that we follow this as a 
matter of procedure as exhaustively as we can so that we can 
minimize the criticisms that I suspect would happen if there 
were to be a recommendation, because I want to be absolutely 
confident that I can defend any decisions that we make. That 
said, we will move as expeditiously as we can consistent with 
that responsibility that I take very seriously.
    In terms of subsequent actions, as I think everybody knows, 
the process kind of moves back and forth. There is a role for 
the President to play. There is subsequently a role for the 
State of Nevada to play, because Nevada has authority, I 
believe, under the statute to veto a decision if there was a 
recommendation. The Congress, however, has a responsibility 
after that, if a veto were to occur, to override it. And, 
again, we are speculating. Who knows what our recommendation, 
if any, would be?
    But those are other factors that are all part of the time 
frame and the time line here, because even after all of those 
things occur, there still is a licensing procedure that the 
Nuclear Regulatory Commission is responsible for, and that is, 
were it to be undertaken, a lengthy period in and of itself, 
and only after that is finished will construction be possible. 
And construction, even though obviously certain things have 
happened with respect to the science efforts and other things 
at Yucca Mountain, if that, again, is the direction that we 
would recommend, that takes time, too.
    So I think everybody is well aware of the time constraints 
here, but no part of the process will move forward unless we 
are absolutely confident that we have comprehensively made the 
evaluations and that they are science-based, because that is 
the only basis on which we can proceed, I think, and a way to 
assure the people of Nevada or any other State where a site 
ever were to be placed that we have exhaustively determined 
that the health and safety of everyone concerned is going to be 
addressed.

                               RECISSIONS

    Mr. Callahan. There is a $170 million rescission indicated 
in your budget request. What is that for?
    Secretary Abraham. I would have to check. I am not sure. 
Perhaps someone who is with me----
    [Laughter.]
    Secretary Abraham. While I pretend to be looking through my 
own----
    Mr. Callahan. Go ahead.
    Secretary Abraham. I am not sure what----
    Mr. Callahan. That is a last year rescission, it is 2001, 
though. That was a rescission from this fiscal year, which 
freed up $172 million. You do not know what that was for?
    Ms. Wilson. $97 million was a privatization rescission and 
$75 million was nuclear waste.
    Secretary Abraham. I knew that. [Laughter.]
    Mr. Callahan. The $172 million, I think Jeannie just 
answered it. What constituted the $172 million?
    Secretary Abraham. Please go ahead, Mike. Let me identify 
our CFO, Mr. Michael Telson, who would be more familiar with 
the current year budget process than I.
    Mr. Telson. The first item is $97 million of the prior year 
budget was from prior year balances in the privatization 
account. It was used to fund a higher amount of spending for 
waste----
    Secretary Abraham. Hanford.
    Mr. Telson. Yes. It was $97 million from prior year funds. 
So, in essence, the program was $97 million higher because we 
had $97 million of prior year money to offset it. The second 
one is $75 million from 1996 funding, I believe it was, that 
was fenced in a prior year appropriation for Yucca Mountain. 
That again was used to fund a higher level of funding for the 
Yucca Mountain program.
    Mr. Callahan. So it was earmarked in 1996 for a project 
that you no longer needed that money for, and you put it back 
in the Yucca Mountain request for 2001.
    Mr. Telson. It was fenced for the Yucca Mountain project 
subject to certain findings, and last year the Administration 
and Congress determined it was okay to un-fence it.
    Mr. Callahan. Okay.
    Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, I yield to Mr. Edwards.
    Mr. Callahan. Mr. Edwards.

                 NONPROLIFERATION: BAKER-CUTLER REVIEW

    Mr. Edwards. Thank you, Mr. Chairman. Thank you again, Mr. 
Secretary, for being here today. There are a lot of issues with 
which we would agree, and that includes the energy field, and I 
respect the administration's leadership in saying this country 
must have an energy policy. As important as the energy crisis 
is in California and our country, and it is, I would like to go 
back to the issue of our nonproliferation efforts against 
weapons of mass destruction that put at risk our American 
servicemen and women in the field as well as our civilian 
population in our neighborhoods. That issue does not get as 
much public attention in the press, and yet I think it is a 
vitally important responsibility of the Department of Energy 
and this subcommittee.
    I respect the President coming out today and saying we 
ought to consider spending $200 billion on a national missile 
defense system because we must protect our American population. 
But I do continue to have serious problems about the 
inconsistency of that philosophy regarding national missile 
defense, and yet turning right around and proposing a $100 
million reduction in our defense nuclear nonproliferation 
efforts.
    Let me ask you one question first. The bipartisan Baker-
Cutler review I understand earlier this year said this, and I 
quote: ``The most urgent unmet national security threat to the 
United States today is the danger that weapons of mass 
destruction or weapons-usable material in Russia could be 
stolen and sold to terrorists or hostile nation states and used 
against American troops abroad or citizens at home.''
    Is there anything about that statement from that bipartisan 
report, Mr. Secretary, with which you would disagree?
    Secretary Abraham. I have not had the experience of going 
through the comparisons that they did, but I have met with both 
former Senator Baker and Mr. Cutler on their report, and they 
have briefed me on it, and I take very seriously their 
conclusions. And I can assure you that the conclusions they 
have reached, which was a report from the Secretary of Energy's 
Advisory Board, have been incorporated in the review that I 
mentioned earlier of the National Security Council review of 
our deterrence and nonproliferation strategies.
    I only would add what I said earlier or reiterate it, 
really, and that is that I do not believe that one should 
conclude that the decision, either the budget decision or 
certainly this decision to engage in a fairly rapidly moving 
review of these programs translates into a conclusion that 
somehow we have any lessened degree of concern about 
nonproliferation or in terms of the future a lack of commitment 
to these programs.
    What we thought made sense, what the President's budget 
reflects, is a pause in some of these programs while we 
evaluate their effectiveness against a variety of other 
choices. And even as the Baker-Cutler report provided 
incentives to focus more resources on components of these 
programs, at the same time I think Congress is familiar with 
criticisms about some of the programs that have come in, I 
believe, from the GAO and others and outside critics.
    We are trying to take it all into account. We want to make 
sure that as we move forward with expenditures that they are 
consistent with the result you want and that we want as well.
    Mr. Edwards. I understand. If I could respond to that, I 
have no criticism of that approach. I think it is somewhat 
inconsistent, though, to say despite our not having the 
technology to put in place a national missile defense system, 
we should accelerate the implementation of that system when we 
do not even have the technology for it and have no idea really 
how much it will cost. So there is some inconsistency there.

                     COMMITMENT TO NONPROLIFERATION

    But I do not question for one instant this administration's 
serious commitment to wanting to deal with nonproliferation. I 
just happen to believe ultimately in the public arena our 
values are best stated by where we put our limited resources. 
And as I look at your budget highlights, it looks to me as if 
you are proposing cuts in nonproliferation and verification and 
R&D by 15.7 percent; arms control, 31.7 percent; international 
materials protection, control, and accounting, 18.2 percent; 
and international nuclear safety, a reduction of 28.9 percent. 
And I will not ask you to respond, but it is my understanding 
that OMB's passback guidance to the Department of Energy for 
preparing this budget, including these serious budget cuts in 
such an important area, that OMB's direction to your agency was 
to reduce nonproliferation programs before there was any full 
analysis carried out.
    I trust OMB in many ways. I respect their financial 
expertise. I am not willing to risk the future security of our 
servicemen and women or our families here at home to the 
accountants at OMB. And, furthermore, the budget highlights 
from your agency do not engender great confidence, and what I 
know had to be a fairly rushed process as a new administration 
comes in. That was not any blame to you or your agency.

                 REDUCTION IN NONPROLIFERATION PROGRAM

    But on page 49 of your report, chemical and biological 
national security is cut by $12 million, and your own report's 
language says this program is to continue to develop 
technologies urgently needed--urgently needed--by domestic 
emergency personnel in response to the threat of terrorism.
    On page 51 of your report, under the $30.9 million proposed 
reduction in international materials protection, control, and 
accounting, your report says, and I quote: ``Because of the 
high-risk reduction value of these efforts to protect weapons 
grade material''--and that is, by the way, nuclear weapons 
grade material--``these decisions to reduce funding in this 
area will be subject to ongoing evaluation and review by 
program personnel.''
    That is not very comforting to me that what we are saying 
is let's cut $30.9 million in this high-risk reduction area 
dealing with nuclear material proliferation, but, you know, if 
that cut really did not make sense, we will review that in the 
future. That could be like putting toothpaste back in the tube 
if we make a mistake in that area.
    I guess my request to you would be: Would you ask your 
staff to please add to the specifics of the budget highlights 
and help explain with great specificity to this subcommittee 
what exactly would be cut in the proposed cuts? At the end of 
the day, my hope is that we can work on a bipartisan basis to 
find the money necessary to increase those proposed cuts, 
because I think all of us on both sides of the aisle care 
deeply about protecting the servicemen and women and our 
American families from the threat of mass destruction.
    Secretary Abraham. We certainly agree with that approach 
and would be glad to share some of the more specific 
explanations. For example, just on the issue you raise with 
regard to international materials protection, I know that the 
reductions here are due to the completion of upgrades at most 
of the permanent sites. At least that is the understanding I 
have. I have been 12 weeks or so here in the job. I have tried 
to get acquainted with some of these issues as well as time has 
permitted. But that is my understanding of at least what the 
particular change in that area is.
    But let us try to provide more specificity to you on these, 
as you would request, in terms of what the implications are.
    [The information follows:]

     Impacts to Cuts for Chemical and Biological and MPC&A Programs

    The Chemical and Biological R&D program was reduced by $12 million 
which will (1) affect the development of new biological and chemical 
detectors, and the pace of the underlying biological research; and (2) 
reduce activity in subway chemical agent detection demonstration to 
planning.
    In FY 2002 the decrease in MPC&A reflects the completion of 
upgrades at the majority of sites where warheads are stored on a 
permanent basis. Security concerns and site upgrade requirements of the 
remaining 30 warhead sites, mostly temporary sites will require fewer 
upgrades, will be assessed and implemented through visits by U.S. 
personnel.

                    NUCLEAR NONPROLIFERATION FUNDING

    Mr. Edwards. Thank you. I appreciate it. That might allow 
us to remind OMB just how serious the implications of some of 
these proposed cuts that I think that we are pressured by them 
could be.
    Thank you, Mr. Secretary. Thank you, Mr. Chairman.
    Mr. Callahan. I would like to inform the members that you 
can submit questions to the Secretary, hopefully by tomorrow, 
and, Mr. Secretary, we would ask that you respond to these 
questions that Members have.
    Secretary Abraham. Of course.
    Mr. Callahan. I would like to also get the Secretary out of 
here within the next 15 minutes or so, but I do not want to cut 
anybody short, so, Mr. Frelinghuysen?

                            BUDGET AMENDMENT

    Mr. Frelinghuysen. With that admonition, I will be brief. 
Thank you, Mr. Chairman. I am always listening to you. That is 
very good advice.
    Mr. Secretary, I meant to commend you this morning for your 
Department's commitment to the Northeast Oil Reserve. That is 
important to those of us in the Northeast. Also, I had some 
questions relative to page 13 in your testimony, the fusion 
energy sciences. You made reference this morning that there 
would be some amendments coming before the committee. I assume 
that the account there for fusion has recommended or will be 
coming with some other recommendations.
    Secretary Abraham. Congressman, in the budget rollout on 
April the 9th, we indicated that a couple of things were, in 
fact, going to be changed via amendment. The most significant 
of those really results in a transfer of money to this account 
from our Interior budget accounts. It is essentially a shift of 
about $39 million, which is largely in the area of renewable 
energy programs.
    As I have indicated to you, it is our decision, subsequent 
to the drafting of the budget document, that we would maintain 
last year's fusion energy program at $245 million, I guess it 
would be, and what we have actually concluded is that we may 
not need to amend--to offer an amendment to accomplish that 
because it is all contained within this one budget. So we are 
trying to analyze now whether or not that is a change that 
requires a formal amendment submitted to the committee or 
whether or not it can be handled through an alternative means 
that does not require the submission of a new budget.
    Mr. Frelinghuysen. So you are suggesting there may not be 
an amendment which would include a variety of things that you 
have discussed?
    Secretary Abraham. What I am saying, there will be an 
amendment that is proffered that will indicate an increase in 
the budget for this Subcommittee of about $39.5 million, I 
believe, which would be monies transferred from the Interior 
Subcommittee component of the Department to this Subcommittee. 
Those would be in areas that were renewable energy areas.
    Mr. Frelinghuysen. Let me----
    Secretary Abraham. What will happen here is we would 
actually shift money from within the Science programs, from 
other science sources to the program that is the fusion 
program.

                        GASOLINE PRICE INCREASE

    Mr. Frelinghuysen. Good. Well, I think we will take you at 
your word----
    Secretary Abraham. The outcome will be the same.
    Mr. Frelinghuysen. According to your statement. I just 
wanted to make a couple of brief comments on gasoline prices, 
the spike. You have made some attributions as to why those 
occur. I assume there is going to be diligence relative to the 
issue of price gouging. I mean, if there is a potential out 
there this summer, I assume you and the Department of Justice 
will be active in that regard. And, lastly, the MTBE as a 
gasoline additive, is that one of the things that is slowing up 
the production or sort of putting refiners--sort of making 
their push somewhat more tardy? I am one of those that feels it 
ought to be----
    Secretary Abraham. It is expensive. I am not sure that it 
is the reason for the slow-up. But what we, as I said earlier, 
encounter are these transitional periods in regions of the 
country where the formula that is required for gasoline in one 
season changes in the next, depending on--for instance, in 
Chicago and Milwaukee, there are a variety of issues related to 
MTBE which the Environmental Protection Agency is focusing on 
right now. It is not within our purview.
    But back to the earlier point you made with regard to price 
gouging, of course, we will, you know, be observant and 
diligent. But we also should not overlook the conclusions that 
the Federal Trade Commission rendered after they exhaustively 
studied these allegations that related to last summer's price 
spikes, which were specifically in my part of the country.
    Mr. Frelinghuysen. All I am saying is the public needs a 
higher level of confidence, and if you are telling the 
committee they can have that confidence--I think most people 
understand the law of supply and demand, but in reality----
    Secretary Abraham. Well, they can. And we will accept that 
responsibility gladly. But I do think it is important to not 
allow us as a Nation to always assume that somehow or another 
our energy supply challenges are fake, phony, exaggerated. Some 
of them are very serious. Over the next 20 years, we anticipate 
the demand for electricity to increase by 45 percent. That is 
in spite of significant conservation savings.
    Mr. Frelinghuysen. All I am saying, if you are selling a 
national energy policy, one of those elements is that you have 
got to give the people confidence that all bases are checked, 
that everybody who is involved in this policy is up front, and 
their activities are transparent.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Doolittle.

                  HYDROELECTRIC GENERATING FACILITIES

    Mr. Doolittle. Thank you, Mr. Chairman.
    Mr. Secretary, it is my understanding over the next 15 
years the bulk of the non-Federal hydroelectric generating 
facilities will have to be relicensed by FERC. That means this 
will be the first time in any substantial way that we have done 
this and taken into account the requirements of the Endangered 
Species Act, and all of these Federal agencies with some say in 
the matter will have their opportunity to exact a pound of 
flesh in the relicensing process and by imposing mandatory and 
recommended conditions.
    We are very concerned that this could result in a 
substantial reduction in the amount of electricity generated by 
these plants as new demands are made for fish and environmental 
requirements. California, for example, generates, I believe--of 
all electricity that we use, about 24 percent of it comes from 
hydroelectric plants.
    Is the Bush administration concerned about the potential 
out there for this kind of loss? And what are you doing about 
it?
    Secretary Abraham. Well, as to the issue of the proper 
licensing procedures for hydroelectric facilities, we are 
concerned about what has already presented itself, which is the 
very lengthy time frames which these processes take. And one of 
the things which we are examining in the context of our energy 
task force is the licensing process.
    As you probably know, there have been legislative 
initiatives discussed, maybe even introduced, as I remember 
last year in the Senate, by people concerned about the process.
    On the more immediate side of the equation, we encounter 
already in the Northwest, of course, issues that pertain to the 
fish mitigation strategies of the Bonneville Power Authority, 
which present this summer a very serious challenge to us with 
regard to--I mean, that is, Bonneville presents a very serious 
challenge with respect to power production in the region 
because the water levels have been lower this year, and some of 
the water was spent early in an effort during the winter to 
help deal with some of California's problems.
    So at this point, the Acting Administrator of BPA is, in 
fact, encountering exactly those kinds of choices. We have made 
the decision, he has made the decision to operate at a higher 
level than would be typically the case with respect to the fish 
mitigation responsibilities, as he does have the power to do 
under the emergency procedures or provisions which apply.
    So that brings them squarely into focus for us, and we are 
trying to evaluate them in the context--currently in the 
context of BPA.
    Mr. Doolittle. May I ask, Mr. Secretary, if you would 
prepare and submit later on for the committee--I would like to 
see a list broken down State by State and for all our 
territories for the decade of the 1990s the number of 
generating facilities per State and territory, how much each 
generates, and what type of fuel or what type of generation 
occurs there. I understand that Texas has a crash program of 
building generating plants, and I understand that we have not 
built any in the last 10 years in California. And I just 
wondered if we could have this information so that we could see 
what the rest of the country has been doing.
    Secretary Abraham. I would be happy to try to provide it. I 
assure you we would, you know, do our best to get a 
comprehensive review of all of those.
    [The information follows:]

                     Electric Generating Facilities

    The total generating capacity of electric utilities plus 
nonutilities in the United States grew from 727,687 megawatts 
in 1990 to 787,900 megawatts by 1999. About 90 percent of the 
new capacity added during that time uses natural gas. For 1999, 
Table 1 provides data on electricity generation by State and 
fuel type. For 1999, Table 2 provides data on electricity 
generating capacity by State and fuel type. As the 1990 data 
include information that is confidential, they will be provided 
to Congress separately.
[GRAPHIC] [TIFF OMITTED] T3750A.020

[GRAPHIC] [TIFF OMITTED] T3750A.021

[GRAPHIC] [TIFF OMITTED] T3750A.022

[GRAPHIC] [TIFF OMITTED] T3750A.023

    Mr. Doolittle. And I guess finally, just to observe while 
you have talked about the difficulty with some of these long 
processes, I did hear you mention we need to do more about 
building more transmission lines. But I understand it is 
extraordinarily difficult to locate transmission lines because 
of all of these vague and broad Federal laws that we have set 
up that make it so difficult to do anything anymore. And in 
that, I will just mention that early on in your meeting with us 
this morning, I had to meet with my Sacramento Metropolitan 
Chamber of Commerce where I was informed, in their opinion, we 
are on a path in California to having all inhabitable land 
designated as critical habitat. That will mean that we will not 
be able to make a single land use decision without a Section 7 
consultation. And that will mean that we will not be able to 
site any power plants, even if we overcome all of our own 
stupidities inside the State and manage to, you know, be 
serious about this, because then we will have to deal with the 
blessing of the Federal bureaucrat either in the Fish and 
Wildlife Service, the EPA, or the National Marine Fisheries.
    And I just wanted to, as a Cabinet member of the Bush 
administration over Energy, draw this to your attention and ask 
for some help and get some relief. This thing is totally out of 
control. And, you know, you may just laugh, it is just us in 
California, but guess what, folks? What starts in California 
spreads. It is like cancer. It goes to the rest.
    Thank you.
    Mr. Callahan. I am not going to comment on that at all. 
[Laughter.]
    Mr. Visclosky.
    Mr. Visclosky. I might comment that New Jersey, Alabama, 
and Indiana are looking better all the time.
    I would just briefly add my voice, as far as energy 
policy--and we are into budgets here, but I do think moderation 
in all things is good. We have become very nonsensical as far 
as our policy. So I would hope that there is a broad, inclusive 
approach.

           INFRASTRUCTURE IMPROVEMENTS ACROSS THE DEPARTMENT

    Secondly, Mr. Secretary, obviously we are charged today and 
this year with looking at next year's budget, but I am very 
concerned, looking at the longer term and anticipating you are 
going to be with us for a long period of time, that the NNSA is 
probably going to be coming up asking or indicating that they 
have a $5 billion backlog of maintenance requirements. I do 
appreciate your attitude towards environmental cleanup and 
wanting to speed this process up, but obviously that will also 
necessitate at some point in time some expenditure of large 
sums of money. And the administration is betting, at least in 
2004, that $1.2 billion is going to become available through 
the Arctic National Wildlife Reserve, and maybe it will and 
maybe it won't. But I would hope that the administration, not 
necessarily your office, is realistic as they look in these 
out-years.

               DEPARTMENT LABORATORIES SHARING RESOURCES

    Briefly, if I could just ask two questions in whatever time 
the Chair would yield you, again, the NNSA will indicate that 
they have a $5 billion backlog for infrastructure. I am 
wondering if on the civilian side the Department has done a 
similar assessment. And, secondly, a March 2001 General 
Accounting report indicated that in 1997, DOE was using only 
about 59 percent of its available super-computing capacity and 
that they were missing opportunities to share resources. I am 
wondering if DOE labs have a policy for sharing resources 
rather than each laboratory duplicating and reinventing the 
wheel.

                      INFRASTRUCTURE: COMPLEX-WIDE

    Secretary Abraham. As to the first issue, we are in the 
process of trying to make a complex-wide infrastructure 
evaluation. Part of General Gordon's NNSA evaluation will be, I 
think, a function of the nuclear force reviews that we are 
participating in with the Department of Defense, because we 
really first have to determine what refurbishment, what 
development, what other sorts of needs we will have. But I know 
that if Congressman Wamp was here or others who have facilities 
that are related to the defense responsibilities of the 
complex, if he were present or others who are from those areas 
were present, they would note that, in fact, we have 
deterioration in buildings throughout this complex. We are 
trying in this budget to address some of that, but certainly 
there is more. Senator Domenici I know has talked about this at 
some length in a variety of contexts in recent years. And we 
are waiting to first determine, you know, what the total 
responsibilities of the complex are going to be before we 
decide what the priorities ought to be and try to cost those 
out. Although obviously General Gordon has made an initial 
assessment, which was done in a vacuum, not including in that 
consideration the priorities that would be set by our nuclear 
force review.
    Our goal is to have a similar kind of assessment on the 
civilian side. Obviously a lot of these facilities have shared 
responsibilities, so that has an overlapping kind of impact.

               COMPUTER CAPABILITIES AT THE LABORATORIES

    With respect to the computer capabilities that you 
referenced, we actually had a little bit of a difference about 
this in the context of the putting together of the budget, 
because OMB had identified the same report circa 1997 and asked 
whether or not we could not reduce some of our costs in this 
area.
    What our investigation revealed was that, in fact, while 59 
percent was roughly the percentage perhaps at that point that 
was being used for actual applications, in fact, the rest of 
the capacity of the computers was being used in no small 
measure to develop the codes and the software that would drive 
the process of the expressly applied computer system. That is 
my understanding of it.
    So when we went back and forth on this issue in the 
preparation of this budget, it was, I think, agreed upon that, 
in fact, the capacity is being fully used, and we further 
discovered that, in fact, a fair amount of sharing goes on on a 
regular basis as between the needs of the various labs. This 
was, I guess, exemplified, for example, last year when the 
Cerro Grande fire took place at Los Alamos, and my 
understanding is that some of the facilities at Sandia, the 
computer services there were made available for the use of the 
technicians at Los Alamos.
    Whether or not we can expand that kind of sharing or even 
if there is room to do so is something we will look into.
    Mr. Visclosky. Thank you, Mr. Chairman.

                               CONCLUSION

    Mr. Callahan. Mr. Secretary, we thank you for appearing 
before our committee today and encourage you to do everything 
you can, which I know you are going to, to make certain that 
your entire organization is made whole as soon as possible. You 
are blessed to have talented people like Mike Telson to give 
you some historical input into your decisions of the day, but 
naturally, it is important to all of us that you get your 
entire group assembled so we can move forward.
    But we look forward to working with you and to establish a 
policy and to provide to you the necessary resources to have an 
effective policy that is workable.
    Secretary Abraham. I appreciate that and look forward to 
working with all the members of the committee on these issues 
in the future. Thank you.
    Mr. Callahan. Thank you.
    [The questions and answers for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T3750A.024
    
    [GRAPHIC] [TIFF OMITTED] T3750A.025
    
    [GRAPHIC] [TIFF OMITTED] T3750A.026
    
    [GRAPHIC] [TIFF OMITTED] T3750A.027
    
    [GRAPHIC] [TIFF OMITTED] T3750A.028
    
    [GRAPHIC] [TIFF OMITTED] T3750A.029
    
    [GRAPHIC] [TIFF OMITTED] T3750A.030
    
    [GRAPHIC] [TIFF OMITTED] T3750A.031
    
    [GRAPHIC] [TIFF OMITTED] T3750A.032
    
    [GRAPHIC] [TIFF OMITTED] T3750A.033
    
    [GRAPHIC] [TIFF OMITTED] T3750A.034
    
    [GRAPHIC] [TIFF OMITTED] T3750A.035
    
    [GRAPHIC] [TIFF OMITTED] T3750A.036
    
    [GRAPHIC] [TIFF OMITTED] T3750A.037
    
    [GRAPHIC] [TIFF OMITTED] T3750A.038
    
    [GRAPHIC] [TIFF OMITTED] T3750A.039
    
    [GRAPHIC] [TIFF OMITTED] T3750A.040
    
    [GRAPHIC] [TIFF OMITTED] T3750A.041
    
    [GRAPHIC] [TIFF OMITTED] T3750A.042
    
    [GRAPHIC] [TIFF OMITTED] T3750A.043
    
    [GRAPHIC] [TIFF OMITTED] T3750A.044
    
    [GRAPHIC] [TIFF OMITTED] T3750A.045
    
    [GRAPHIC] [TIFF OMITTED] T3750A.046
    
    [GRAPHIC] [TIFF OMITTED] T3750A.047
    
    [GRAPHIC] [TIFF OMITTED] T3750A.048
    
    [GRAPHIC] [TIFF OMITTED] T3750A.049
    
    [GRAPHIC] [TIFF OMITTED] T3750A.050
    
    [GRAPHIC] [TIFF OMITTED] T3750A.051
    
    [GRAPHIC] [TIFF OMITTED] T3750A.052
    
    [GRAPHIC] [TIFF OMITTED] T3750A.053
    
    [GRAPHIC] [TIFF OMITTED] T3750A.054
    
    [GRAPHIC] [TIFF OMITTED] T3750A.055
    
    [GRAPHIC] [TIFF OMITTED] T3750A.056
    
    [GRAPHIC] [TIFF OMITTED] T3750A.057
    
    [GRAPHIC] [TIFF OMITTED] T3750A.058
    
    [GRAPHIC] [TIFF OMITTED] T3750A.059
    
    [GRAPHIC] [TIFF OMITTED] T3750A.060
    
    [GRAPHIC] [TIFF OMITTED] T3750A.061
    
    [GRAPHIC] [TIFF OMITTED] T3750A.062
    
    [GRAPHIC] [TIFF OMITTED] T3750A.063
    
    [GRAPHIC] [TIFF OMITTED] T3750A.064
    
    [GRAPHIC] [TIFF OMITTED] T3750A.065
    
    [GRAPHIC] [TIFF OMITTED] T3750A.066
    
    [GRAPHIC] [TIFF OMITTED] T3750A.067
    
    [GRAPHIC] [TIFF OMITTED] T3750A.068
    
    [GRAPHIC] [TIFF OMITTED] T3750A.069
    
    [GRAPHIC] [TIFF OMITTED] T3750A.070
    
    [GRAPHIC] [TIFF OMITTED] T3750A.071
    
    [GRAPHIC] [TIFF OMITTED] T3750A.072
    
    [GRAPHIC] [TIFF OMITTED] T3750A.073
    
    [GRAPHIC] [TIFF OMITTED] T3750A.074
    
    [GRAPHIC] [TIFF OMITTED] T3750A.075
    
    [GRAPHIC] [TIFF OMITTED] T3750A.076
    
    [GRAPHIC] [TIFF OMITTED] T3750A.077
    
    [GRAPHIC] [TIFF OMITTED] T3750A.078
    
    [GRAPHIC] [TIFF OMITTED] T3750A.079
    
    [GRAPHIC] [TIFF OMITTED] T3750A.080
    
    [GRAPHIC] [TIFF OMITTED] T3750A.081
    
    [GRAPHIC] [TIFF OMITTED] T3750A.082
    
    [GRAPHIC] [TIFF OMITTED] T3750A.083
    
    [GRAPHIC] [TIFF OMITTED] T3750A.084
    
    [GRAPHIC] [TIFF OMITTED] T3750A.085
    
    [GRAPHIC] [TIFF OMITTED] T3750A.086
    
    [GRAPHIC] [TIFF OMITTED] T3750A.087
    
    [GRAPHIC] [TIFF OMITTED] T3750A.088
    
    [GRAPHIC] [TIFF OMITTED] T3750A.089
    
    [GRAPHIC] [TIFF OMITTED] T3750A.090
    
    [GRAPHIC] [TIFF OMITTED] T3750A.091
    
    [GRAPHIC] [TIFF OMITTED] T3750A.092
    
    [GRAPHIC] [TIFF OMITTED] T3750A.093
    
    [GRAPHIC] [TIFF OMITTED] T3750A.094
    
    [GRAPHIC] [TIFF OMITTED] T3750A.095
    
    [GRAPHIC] [TIFF OMITTED] T3750A.096
    
    [GRAPHIC] [TIFF OMITTED] T3750A.097
    
    [GRAPHIC] [TIFF OMITTED] T3750A.098
    
    [GRAPHIC] [TIFF OMITTED] T3750A.099
    
    [GRAPHIC] [TIFF OMITTED] T3750A.100
    
    [GRAPHIC] [TIFF OMITTED] T3750A.101
    
    [GRAPHIC] [TIFF OMITTED] T3750A.102
    
    [GRAPHIC] [TIFF OMITTED] T3750A.103
    
    [GRAPHIC] [TIFF OMITTED] T3750A.104
    
    [GRAPHIC] [TIFF OMITTED] T3750A.105
    
    [GRAPHIC] [TIFF OMITTED] T3750A.106
    
    [GRAPHIC] [TIFF OMITTED] T3750A.107
    
    [GRAPHIC] [TIFF OMITTED] T3750A.108
    
    [GRAPHIC] [TIFF OMITTED] T3750A.109
    
    [GRAPHIC] [TIFF OMITTED] T3750A.110
    
    [GRAPHIC] [TIFF OMITTED] T3750A.111
    
    [GRAPHIC] [TIFF OMITTED] T3750A.112
    
    [GRAPHIC] [TIFF OMITTED] T3750A.113
    
    [GRAPHIC] [TIFF OMITTED] T3750A.114
    
    [GRAPHIC] [TIFF OMITTED] T3750A.115
    
    [GRAPHIC] [TIFF OMITTED] T3750A.116
    
    [GRAPHIC] [TIFF OMITTED] T3750A.117
    
    [GRAPHIC] [TIFF OMITTED] T3750A.118
    
    [GRAPHIC] [TIFF OMITTED] T3750A.119
    
    [GRAPHIC] [TIFF OMITTED] T3750A.120
    
    [GRAPHIC] [TIFF OMITTED] T3750A.121
    
    [GRAPHIC] [TIFF OMITTED] T3750A.122
    
    [GRAPHIC] [TIFF OMITTED] T3750A.123
    
    [GRAPHIC] [TIFF OMITTED] T3750A.124
    
    [GRAPHIC] [TIFF OMITTED] T3750A.125
    
    [GRAPHIC] [TIFF OMITTED] T3750A.126
    
    [GRAPHIC] [TIFF OMITTED] T3750A.127
    
    [GRAPHIC] [TIFF OMITTED] T3750A.128
    
    [GRAPHIC] [TIFF OMITTED] T3750A.129
    
    [GRAPHIC] [TIFF OMITTED] T3750A.130
    
    [GRAPHIC] [TIFF OMITTED] T3750A.131
    
    [GRAPHIC] [TIFF OMITTED] T3750A.132
    
    [GRAPHIC] [TIFF OMITTED] T3750A.133
    
    [GRAPHIC] [TIFF OMITTED] T3750A.134
    
    [GRAPHIC] [TIFF OMITTED] T3750A.135
    
    [GRAPHIC] [TIFF OMITTED] T3750A.136
    
    [GRAPHIC] [TIFF OMITTED] T3750A.137
    
    [GRAPHIC] [TIFF OMITTED] T3750A.138
    
    [GRAPHIC] [TIFF OMITTED] T3750A.139
    
    [GRAPHIC] [TIFF OMITTED] T3750A.140
    
    [GRAPHIC] [TIFF OMITTED] T3750A.141
    
    [GRAPHIC] [TIFF OMITTED] T3750A.142
    
    [GRAPHIC] [TIFF OMITTED] T3750A.143
    
    [GRAPHIC] [TIFF OMITTED] T3750A.144
    
    [GRAPHIC] [TIFF OMITTED] T3750A.145
    
    [GRAPHIC] [TIFF OMITTED] T3750A.146
    
    [GRAPHIC] [TIFF OMITTED] T3750A.147
    
    [GRAPHIC] [TIFF OMITTED] T3750A.148
    
    [GRAPHIC] [TIFF OMITTED] T3750A.149
    
    [GRAPHIC] [TIFF OMITTED] T3750A.150
    
    [GRAPHIC] [TIFF OMITTED] T3750A.151
    
    [GRAPHIC] [TIFF OMITTED] T3750A.152
    
    [GRAPHIC] [TIFF OMITTED] T3750A.153
    
    [GRAPHIC] [TIFF OMITTED] T3750A.154
    
    [GRAPHIC] [TIFF OMITTED] T3750A.155
    
    [GRAPHIC] [TIFF OMITTED] T3750A.156
    
    [GRAPHIC] [TIFF OMITTED] T3750A.157
    
    [GRAPHIC] [TIFF OMITTED] T3750A.158
    
    [GRAPHIC] [TIFF OMITTED] T3750A.159
    
    [GRAPHIC] [TIFF OMITTED] T3750A.160
    
    [GRAPHIC] [TIFF OMITTED] T3750A.161
    
    [GRAPHIC] [TIFF OMITTED] T3750A.162
    
    [GRAPHIC] [TIFF OMITTED] T3750A.163
    
    [GRAPHIC] [TIFF OMITTED] T3750A.164
    
    [GRAPHIC] [TIFF OMITTED] T3750A.165
    
    [GRAPHIC] [TIFF OMITTED] T3750A.166
    
    [GRAPHIC] [TIFF OMITTED] T3750A.167
    
    [GRAPHIC] [TIFF OMITTED] T3750A.168
    
    [GRAPHIC] [TIFF OMITTED] T3750A.169
    
    [GRAPHIC] [TIFF OMITTED] T3750A.170
    
    [GRAPHIC] [TIFF OMITTED] T3750A.171
    
    [GRAPHIC] [TIFF OMITTED] T3750A.172
    
    [GRAPHIC] [TIFF OMITTED] T3750A.173
    
    [GRAPHIC] [TIFF OMITTED] T3750A.174
    
    [GRAPHIC] [TIFF OMITTED] T3750A.175
    
    [GRAPHIC] [TIFF OMITTED] T3750A.176
    
    [GRAPHIC] [TIFF OMITTED] T3750A.177
    
    [GRAPHIC] [TIFF OMITTED] T3750A.178
    
    [GRAPHIC] [TIFF OMITTED] T3750A.179
    
    [GRAPHIC] [TIFF OMITTED] T3750A.180
    
    [GRAPHIC] [TIFF OMITTED] T3750A.181
    
    [GRAPHIC] [TIFF OMITTED] T3750A.182
    
    [GRAPHIC] [TIFF OMITTED] T3750A.183
    
    [GRAPHIC] [TIFF OMITTED] T3750A.184
    
    [GRAPHIC] [TIFF OMITTED] T3750A.185
    
    [GRAPHIC] [TIFF OMITTED] T3750A.186
    
    [GRAPHIC] [TIFF OMITTED] T3750A.187
    
    [GRAPHIC] [TIFF OMITTED] T3750A.188
    
    [GRAPHIC] [TIFF OMITTED] T3750A.189
    
    [GRAPHIC] [TIFF OMITTED] T3750A.190
    
    [GRAPHIC] [TIFF OMITTED] T3750A.191
    
    [GRAPHIC] [TIFF OMITTED] T3750A.192
    
    [GRAPHIC] [TIFF OMITTED] T3750A.193
    
    [GRAPHIC] [TIFF OMITTED] T3750A.194
    
    [GRAPHIC] [TIFF OMITTED] T3750A.195
    
    [GRAPHIC] [TIFF OMITTED] T3750A.196
    
    [GRAPHIC] [TIFF OMITTED] T3750A.197
    
    [GRAPHIC] [TIFF OMITTED] T3750A.198
    
    [GRAPHIC] [TIFF OMITTED] T3750A.199
    
    [GRAPHIC] [TIFF OMITTED] T3750A.200
    
    [GRAPHIC] [TIFF OMITTED] T3750A.201
    
    [GRAPHIC] [TIFF OMITTED] T3750A.202
    
    [GRAPHIC] [TIFF OMITTED] T3750A.203
    
    [GRAPHIC] [TIFF OMITTED] T3750A.204
    
    [GRAPHIC] [TIFF OMITTED] T3750A.205
    
    [GRAPHIC] [TIFF OMITTED] T3750A.206
    
    [GRAPHIC] [TIFF OMITTED] T3750A.207
    
    [GRAPHIC] [TIFF OMITTED] T3750A.208
    
    [GRAPHIC] [TIFF OMITTED] T3750A.209
    
    [GRAPHIC] [TIFF OMITTED] T3750A.210
    
    [GRAPHIC] [TIFF OMITTED] T3750A.211
    
    [GRAPHIC] [TIFF OMITTED] T3750A.212
    
    [GRAPHIC] [TIFF OMITTED] T3750A.213
    
    [GRAPHIC] [TIFF OMITTED] T3750A.214
    
    [GRAPHIC] [TIFF OMITTED] T3750A.215
    
    [GRAPHIC] [TIFF OMITTED] T3750A.216
    
    [GRAPHIC] [TIFF OMITTED] T3750A.217
    
    [GRAPHIC] [TIFF OMITTED] T3750A.218
    
    [GRAPHIC] [TIFF OMITTED] T3750A.219
    
    [GRAPHIC] [TIFF OMITTED] T3750A.220
    
    [GRAPHIC] [TIFF OMITTED] T3750A.221
    
    [GRAPHIC] [TIFF OMITTED] T3750A.222
    
    [GRAPHIC] [TIFF OMITTED] T3750A.223
    
    [GRAPHIC] [TIFF OMITTED] T3750A.224
    
    [GRAPHIC] [TIFF OMITTED] T3750A.225
    
    [GRAPHIC] [TIFF OMITTED] T3750A.226
    
    [GRAPHIC] [TIFF OMITTED] T3750A.227
    
    [GRAPHIC] [TIFF OMITTED] T3750A.228
    
    [GRAPHIC] [TIFF OMITTED] T3750A.229
    
    [GRAPHIC] [TIFF OMITTED] T3750A.230
    
    [GRAPHIC] [TIFF OMITTED] T3750A.231
    
    [GRAPHIC] [TIFF OMITTED] T3750A.232
    
    [GRAPHIC] [TIFF OMITTED] T3750A.233
    
    [GRAPHIC] [TIFF OMITTED] T3750A.234
    
    [GRAPHIC] [TIFF OMITTED] T3750A.235
    
    [GRAPHIC] [TIFF OMITTED] T3750A.236
    
    [GRAPHIC] [TIFF OMITTED] T3750A.237
    
    [GRAPHIC] [TIFF OMITTED] T3750A.238
    
    [GRAPHIC] [TIFF OMITTED] T3750A.239
    
    [GRAPHIC] [TIFF OMITTED] T3750A.240
    
    [GRAPHIC] [TIFF OMITTED] T3750A.241
    
    [GRAPHIC] [TIFF OMITTED] T3750A.242
    
    [GRAPHIC] [TIFF OMITTED] T3750A.243
    
    [GRAPHIC] [TIFF OMITTED] T3750A.244
    
    [GRAPHIC] [TIFF OMITTED] T3750A.245
    
    [GRAPHIC] [TIFF OMITTED] T3750A.246
    
    [GRAPHIC] [TIFF OMITTED] T3750A.247
    
    [GRAPHIC] [TIFF OMITTED] T3750A.248
    
    [GRAPHIC] [TIFF OMITTED] T3750A.249
    
    [GRAPHIC] [TIFF OMITTED] T3750A.250
    
    [GRAPHIC] [TIFF OMITTED] T3750A.251
    
    [GRAPHIC] [TIFF OMITTED] T3750A.252
    
    [GRAPHIC] [TIFF OMITTED] T3750A.253
    
    [GRAPHIC] [TIFF OMITTED] T3750A.254
    
    [GRAPHIC] [TIFF OMITTED] T3750A.255
    
    [GRAPHIC] [TIFF OMITTED] T3750A.256
    
    [GRAPHIC] [TIFF OMITTED] T3750A.257
    
    [GRAPHIC] [TIFF OMITTED] T3750A.258
    
    [GRAPHIC] [TIFF OMITTED] T3750A.259
    
    [GRAPHIC] [TIFF OMITTED] T3750A.260
    
    [GRAPHIC] [TIFF OMITTED] T3750A.261
    
    [GRAPHIC] [TIFF OMITTED] T3750A.262
    
    [GRAPHIC] [TIFF OMITTED] T3750A.263
    
    [GRAPHIC] [TIFF OMITTED] T3750A.264
    
    [GRAPHIC] [TIFF OMITTED] T3750A.265
    
    [GRAPHIC] [TIFF OMITTED] T3750A.266
    
    [GRAPHIC] [TIFF OMITTED] T3750A.267
    
    [GRAPHIC] [TIFF OMITTED] T3750A.268
    
    [GRAPHIC] [TIFF OMITTED] T3750A.269
    
    [GRAPHIC] [TIFF OMITTED] T3750A.270
    
    [GRAPHIC] [TIFF OMITTED] T3750A.271
    
    [GRAPHIC] [TIFF OMITTED] T3750A.272
    
    [GRAPHIC] [TIFF OMITTED] T3750A.273
    
    [GRAPHIC] [TIFF OMITTED] T3750A.274
    
    [GRAPHIC] [TIFF OMITTED] T3750A.275
    
    [GRAPHIC] [TIFF OMITTED] T3750A.276
    
    [GRAPHIC] [TIFF OMITTED] T3750A.277
    
    [GRAPHIC] [TIFF OMITTED] T3750A.278
    
    [GRAPHIC] [TIFF OMITTED] T3750A.279
    
    [GRAPHIC] [TIFF OMITTED] T3750A.280
    
    [GRAPHIC] [TIFF OMITTED] T3750A.281
    
    [GRAPHIC] [TIFF OMITTED] T3750A.282
    
    [GRAPHIC] [TIFF OMITTED] T3750A.283
    
    [GRAPHIC] [TIFF OMITTED] T3750A.284
    
    [GRAPHIC] [TIFF OMITTED] T3750A.285
    
    [GRAPHIC] [TIFF OMITTED] T3750A.286
    
    [GRAPHIC] [TIFF OMITTED] T3750A.287
    
    [GRAPHIC] [TIFF OMITTED] T3750A.288
    
    [GRAPHIC] [TIFF OMITTED] T3750A.289
    
    [GRAPHIC] [TIFF OMITTED] T3750A.290
    
    [GRAPHIC] [TIFF OMITTED] T3750A.291
    
    [GRAPHIC] [TIFF OMITTED] T3750A.292
    
    [GRAPHIC] [TIFF OMITTED] T3750A.293
    
    [GRAPHIC] [TIFF OMITTED] T3750A.294
    
    [GRAPHIC] [TIFF OMITTED] T3750A.295
    
    [GRAPHIC] [TIFF OMITTED] T3750A.296
    
    [GRAPHIC] [TIFF OMITTED] T3750A.297
    
    [GRAPHIC] [TIFF OMITTED] T3750A.298
    
    [GRAPHIC] [TIFF OMITTED] T3750A.299
    
    [GRAPHIC] [TIFF OMITTED] T3750A.300
    
    [GRAPHIC] [TIFF OMITTED] T3750A.301
    
    [GRAPHIC] [TIFF OMITTED] T3750A.302
    
    [GRAPHIC] [TIFF OMITTED] T3750A.303
    
    [GRAPHIC] [TIFF OMITTED] T3750A.304
    
    [GRAPHIC] [TIFF OMITTED] T3750A.305
    
    [GRAPHIC] [TIFF OMITTED] T3750A.306
    
    [GRAPHIC] [TIFF OMITTED] T3750A.307
    
    [GRAPHIC] [TIFF OMITTED] T3750A.308
    
    [GRAPHIC] [TIFF OMITTED] T3750A.309
    
    [GRAPHIC] [TIFF OMITTED] T3750A.310
    
    [GRAPHIC] [TIFF OMITTED] T3750A.311
    
    [GRAPHIC] [TIFF OMITTED] T3750A.312
    
    [GRAPHIC] [TIFF OMITTED] T3750A.313
    
    [GRAPHIC] [TIFF OMITTED] T3750A.314
    
    [GRAPHIC] [TIFF OMITTED] T3750A.315
    
    [GRAPHIC] [TIFF OMITTED] T3750A.316
    
    [GRAPHIC] [TIFF OMITTED] T3750A.317
    
    [GRAPHIC] [TIFF OMITTED] T3750A.318
    
    [GRAPHIC] [TIFF OMITTED] T3750A.319
    
    [GRAPHIC] [TIFF OMITTED] T3750A.320
    
    [GRAPHIC] [TIFF OMITTED] T3750A.321
    
    [GRAPHIC] [TIFF OMITTED] T3750A.322
    
    [GRAPHIC] [TIFF OMITTED] T3750A.323
    
    [GRAPHIC] [TIFF OMITTED] T3750A.324
    
    [GRAPHIC] [TIFF OMITTED] T3750A.325
    
    [GRAPHIC] [TIFF OMITTED] T3750A.326
    
    [GRAPHIC] [TIFF OMITTED] T3750A.327
    
    [GRAPHIC] [TIFF OMITTED] T3750A.328
    
    [GRAPHIC] [TIFF OMITTED] T3750A.329
    
    [GRAPHIC] [TIFF OMITTED] T3750A.330
    
    [GRAPHIC] [TIFF OMITTED] T3750A.331
    
    [GRAPHIC] [TIFF OMITTED] T3750A.332
    
    [GRAPHIC] [TIFF OMITTED] T3750A.333
    
    [GRAPHIC] [TIFF OMITTED] T3750A.334
    
    [GRAPHIC] [TIFF OMITTED] T3750A.335
    
    [GRAPHIC] [TIFF OMITTED] T3750A.336
    
    [GRAPHIC] [TIFF OMITTED] T3750A.337
    
    [GRAPHIC] [TIFF OMITTED] T3750A.338
    
    [GRAPHIC] [TIFF OMITTED] T3750A.339
    
    [GRAPHIC] [TIFF OMITTED] T3750A.340
    
    [GRAPHIC] [TIFF OMITTED] T3750A.341
    
    [GRAPHIC] [TIFF OMITTED] T3750A.342
    
    [GRAPHIC] [TIFF OMITTED] T3750A.343
    
    [GRAPHIC] [TIFF OMITTED] T3750A.344
    
    [GRAPHIC] [TIFF OMITTED] T3750A.345
    
    [GRAPHIC] [TIFF OMITTED] T3750A.346
    
    [GRAPHIC] [TIFF OMITTED] T3750A.347
    
    [GRAPHIC] [TIFF OMITTED] T3750A.348
    
    [GRAPHIC] [TIFF OMITTED] T3750A.349
    
    [GRAPHIC] [TIFF OMITTED] T3750A.350
    
    [GRAPHIC] [TIFF OMITTED] T3750A.351
    
    [GRAPHIC] [TIFF OMITTED] T3750A.352
    
    [GRAPHIC] [TIFF OMITTED] T3750A.353
    
    [GRAPHIC] [TIFF OMITTED] T3750A.354
    
    [GRAPHIC] [TIFF OMITTED] T3750A.355
    
    [GRAPHIC] [TIFF OMITTED] T3750A.356
    
    [GRAPHIC] [TIFF OMITTED] T3750A.357
    
    [GRAPHIC] [TIFF OMITTED] T3750A.358
    
    [GRAPHIC] [TIFF OMITTED] T3750A.359
    
    [GRAPHIC] [TIFF OMITTED] T3750A.360
    
    [GRAPHIC] [TIFF OMITTED] T3750A.361
    
    [GRAPHIC] [TIFF OMITTED] T3750A.362
    
    [GRAPHIC] [TIFF OMITTED] T3750A.363
    
    [GRAPHIC] [TIFF OMITTED] T3750A.364
    
    [GRAPHIC] [TIFF OMITTED] T3750A.365
    
    [GRAPHIC] [TIFF OMITTED] T3750A.366
    
    [GRAPHIC] [TIFF OMITTED] T3750A.367
    
    [GRAPHIC] [TIFF OMITTED] T3750A.368
    
    [GRAPHIC] [TIFF OMITTED] T3750A.369
    
    [GRAPHIC] [TIFF OMITTED] T3750A.370
    
    [GRAPHIC] [TIFF OMITTED] T3750A.371
    
    [GRAPHIC] [TIFF OMITTED] T3750A.372
    
    [GRAPHIC] [TIFF OMITTED] T3750A.373
    
    [GRAPHIC] [TIFF OMITTED] T3750A.374
    
    [GRAPHIC] [TIFF OMITTED] T3750A.375
    
    [GRAPHIC] [TIFF OMITTED] T3750A.376
    
    [GRAPHIC] [TIFF OMITTED] T3750A.377
    
    [GRAPHIC] [TIFF OMITTED] T3750A.378
    
    [GRAPHIC] [TIFF OMITTED] T3750A.379
    
    [GRAPHIC] [TIFF OMITTED] T3750A.380
    
    [GRAPHIC] [TIFF OMITTED] T3750A.381
    
    [GRAPHIC] [TIFF OMITTED] T3750A.382
    
    [GRAPHIC] [TIFF OMITTED] T3750A.383
    
    [GRAPHIC] [TIFF OMITTED] T3750A.384
    
    [GRAPHIC] [TIFF OMITTED] T3750A.385
    
    [GRAPHIC] [TIFF OMITTED] T3750A.386
    
    [GRAPHIC] [TIFF OMITTED] T3750A.387
    
    [GRAPHIC] [TIFF OMITTED] T3750A.388
    
    [GRAPHIC] [TIFF OMITTED] T3750A.389
    
    [GRAPHIC] [TIFF OMITTED] T3750A.390
    
    [GRAPHIC] [TIFF OMITTED] T3750A.391
    
    [GRAPHIC] [TIFF OMITTED] T3750A.392
    
    [GRAPHIC] [TIFF OMITTED] T3750A.393
    
    [GRAPHIC] [TIFF OMITTED] T3750A.394
    
    [GRAPHIC] [TIFF OMITTED] T3750A.395
    
    [GRAPHIC] [TIFF OMITTED] T3750A.396
    
    [GRAPHIC] [TIFF OMITTED] T3750A.397
    
    [GRAPHIC] [TIFF OMITTED] T3750A.398
    
    [GRAPHIC] [TIFF OMITTED] T3750A.399
    
    [GRAPHIC] [TIFF OMITTED] T3750A.400
    
    [GRAPHIC] [TIFF OMITTED] T3750A.401
    
    [GRAPHIC] [TIFF OMITTED] T3750A.402
    
    [GRAPHIC] [TIFF OMITTED] T3750A.403
    
    [GRAPHIC] [TIFF OMITTED] T3750A.404
    
    [GRAPHIC] [TIFF OMITTED] T3750A.405
    
    [GRAPHIC] [TIFF OMITTED] T3750A.406
    
    [GRAPHIC] [TIFF OMITTED] T3750A.407
    
    [GRAPHIC] [TIFF OMITTED] T3750A.408
    
    [GRAPHIC] [TIFF OMITTED] T3750A.409
    
    [GRAPHIC] [TIFF OMITTED] T3750A.410
    
    [GRAPHIC] [TIFF OMITTED] T3750A.411
    
    [GRAPHIC] [TIFF OMITTED] T3750A.412
    
    [GRAPHIC] [TIFF OMITTED] T3750A.413
    
    [GRAPHIC] [TIFF OMITTED] T3750A.414
    
    [GRAPHIC] [TIFF OMITTED] T3750A.415
    
    [GRAPHIC] [TIFF OMITTED] T3750A.416
    
    [GRAPHIC] [TIFF OMITTED] T3750A.417
    
    [GRAPHIC] [TIFF OMITTED] T3750A.418
    
    [GRAPHIC] [TIFF OMITTED] T3750A.419
    
    [GRAPHIC] [TIFF OMITTED] T3750A.420
    
    [GRAPHIC] [TIFF OMITTED] T3750A.421
    
    [GRAPHIC] [TIFF OMITTED] T3750A.422
    
    [GRAPHIC] [TIFF OMITTED] T3750A.423
    
    [GRAPHIC] [TIFF OMITTED] T3750A.424
    
    [GRAPHIC] [TIFF OMITTED] T3750A.425
    
    [GRAPHIC] [TIFF OMITTED] T3750A.426
    
    [GRAPHIC] [TIFF OMITTED] T3750A.427
    
    [GRAPHIC] [TIFF OMITTED] T3750A.428
    
    [GRAPHIC] [TIFF OMITTED] T3750A.429
    
    [GRAPHIC] [TIFF OMITTED] T3750A.430
    
    [GRAPHIC] [TIFF OMITTED] T3750A.431
    
    [GRAPHIC] [TIFF OMITTED] T3750A.432
    
    [GRAPHIC] [TIFF OMITTED] T3750A.433
    
    [GRAPHIC] [TIFF OMITTED] T3750A.434
    
    [GRAPHIC] [TIFF OMITTED] T3750A.435
    
    [GRAPHIC] [TIFF OMITTED] T3750A.436
    
    [GRAPHIC] [TIFF OMITTED] T3750A.437
    
    [GRAPHIC] [TIFF OMITTED] T3750A.438
    
    [GRAPHIC] [TIFF OMITTED] T3750A.439
    
    [GRAPHIC] [TIFF OMITTED] T3750A.440
    
    [GRAPHIC] [TIFF OMITTED] T3750A.441
    
    [GRAPHIC] [TIFF OMITTED] T3750A.442
    
    [GRAPHIC] [TIFF OMITTED] T3750A.443
    
    [GRAPHIC] [TIFF OMITTED] T3750A.444
    
    [GRAPHIC] [TIFF OMITTED] T3750A.445
    
    [GRAPHIC] [TIFF OMITTED] T3750A.446
    
    [GRAPHIC] [TIFF OMITTED] T3750A.447
    
    [GRAPHIC] [TIFF OMITTED] T3750A.448
    
    [GRAPHIC] [TIFF OMITTED] T3750A.449
    
    [GRAPHIC] [TIFF OMITTED] T3750A.450
    
    [GRAPHIC] [TIFF OMITTED] T3750A.451
    
    [GRAPHIC] [TIFF OMITTED] T3750A.452
    
    [GRAPHIC] [TIFF OMITTED] T3750A.453
    
    [GRAPHIC] [TIFF OMITTED] T3750A.454
    
    [GRAPHIC] [TIFF OMITTED] T3750A.455
    
    [GRAPHIC] [TIFF OMITTED] T3750A.456
    
    [GRAPHIC] [TIFF OMITTED] T3750A.457
    
    [GRAPHIC] [TIFF OMITTED] T3750A.458
    
    [GRAPHIC] [TIFF OMITTED] T3750A.459
    
    [GRAPHIC] [TIFF OMITTED] T3750A.460
    
    [GRAPHIC] [TIFF OMITTED] T3750A.461
    
    [GRAPHIC] [TIFF OMITTED] T3750A.462
    
    [GRAPHIC] [TIFF OMITTED] T3750A.463
    
    [GRAPHIC] [TIFF OMITTED] T3750A.464
    
    [GRAPHIC] [TIFF OMITTED] T3750A.465
    
    [GRAPHIC] [TIFF OMITTED] T3750A.466
    
    [GRAPHIC] [TIFF OMITTED] T3750A.467
    
    [GRAPHIC] [TIFF OMITTED] T3750A.468
    
    [GRAPHIC] [TIFF OMITTED] T3750A.469
    
    [GRAPHIC] [TIFF OMITTED] T3750A.470
    
    [GRAPHIC] [TIFF OMITTED] T3750A.471
    
    [GRAPHIC] [TIFF OMITTED] T3750A.472
    
    [GRAPHIC] [TIFF OMITTED] T3750A.473
    
    [GRAPHIC] [TIFF OMITTED] T3750A.474
    
    [GRAPHIC] [TIFF OMITTED] T3750A.475
    
    [GRAPHIC] [TIFF OMITTED] T3750A.476
    
    [GRAPHIC] [TIFF OMITTED] T3750A.477
    
    [GRAPHIC] [TIFF OMITTED] T3750A.478
    
    [GRAPHIC] [TIFF OMITTED] T3750A.479
    
    [GRAPHIC] [TIFF OMITTED] T3750A.480
    
    [GRAPHIC] [TIFF OMITTED] T3750A.481
    
    [GRAPHIC] [TIFF OMITTED] T3750A.482
    
    [GRAPHIC] [TIFF OMITTED] T3750A.483
    
    [GRAPHIC] [TIFF OMITTED] T3750A.484
    
    [GRAPHIC] [TIFF OMITTED] T3750A.485
    
    [GRAPHIC] [TIFF OMITTED] T3750A.486
    
    [GRAPHIC] [TIFF OMITTED] T3750A.487
    
    [GRAPHIC] [TIFF OMITTED] T3750A.488
    
    [GRAPHIC] [TIFF OMITTED] T3750A.489
    
    [GRAPHIC] [TIFF OMITTED] T3750A.490
    
    [GRAPHIC] [TIFF OMITTED] T3750A.491
    
    [GRAPHIC] [TIFF OMITTED] T3750A.492
    
    [GRAPHIC] [TIFF OMITTED] T3750A.493
    
    [GRAPHIC] [TIFF OMITTED] T3750A.494
    
    [GRAPHIC] [TIFF OMITTED] T3750A.495
    
    [GRAPHIC] [TIFF OMITTED] T3750A.496
    
    [GRAPHIC] [TIFF OMITTED] T3750A.497
    
    [GRAPHIC] [TIFF OMITTED] T3750A.498
    
    [GRAPHIC] [TIFF OMITTED] T3750A.499
    
    [GRAPHIC] [TIFF OMITTED] T3750A.500
    
    [GRAPHIC] [TIFF OMITTED] T3750A.501
    
    [GRAPHIC] [TIFF OMITTED] T3750A.502
    
    [GRAPHIC] [TIFF OMITTED] T3750A.503
    
    [GRAPHIC] [TIFF OMITTED] T3750A.504
    
    [GRAPHIC] [TIFF OMITTED] T3750A.505
    
    [GRAPHIC] [TIFF OMITTED] T3750A.506
    
    [GRAPHIC] [TIFF OMITTED] T3750A.507
    
    [GRAPHIC] [TIFF OMITTED] T3750A.508
    
    [GRAPHIC] [TIFF OMITTED] T3750A.509
    
    [GRAPHIC] [TIFF OMITTED] T3750A.510
    
    [GRAPHIC] [TIFF OMITTED] T3750A.511
    
    [GRAPHIC] [TIFF OMITTED] T3750A.512
    
    [GRAPHIC] [TIFF OMITTED] T3750A.513
    
    [GRAPHIC] [TIFF OMITTED] T3750A.514
    
    [GRAPHIC] [TIFF OMITTED] T3750A.515
    
    [GRAPHIC] [TIFF OMITTED] T3750A.516
    
    [GRAPHIC] [TIFF OMITTED] T3750A.517
    
    [GRAPHIC] [TIFF OMITTED] T3750A.518
    
    [GRAPHIC] [TIFF OMITTED] T3750A.519
    
    [GRAPHIC] [TIFF OMITTED] T3750A.520
    
    [GRAPHIC] [TIFF OMITTED] T3750A.521
    
    [GRAPHIC] [TIFF OMITTED] T3750A.522
    
    [GRAPHIC] [TIFF OMITTED] T3750A.523
    
    [GRAPHIC] [TIFF OMITTED] T3750A.524
    
    [GRAPHIC] [TIFF OMITTED] T3750A.525
    
    [GRAPHIC] [TIFF OMITTED] T3750A.526
    
    [GRAPHIC] [TIFF OMITTED] T3750A.527
    
    [GRAPHIC] [TIFF OMITTED] T3750A.528
    
    [GRAPHIC] [TIFF OMITTED] T3750A.529
    
    [GRAPHIC] [TIFF OMITTED] T3750A.530
    
    [GRAPHIC] [TIFF OMITTED] T3750A.531
    
    [GRAPHIC] [TIFF OMITTED] T3750A.532
    
    [GRAPHIC] [TIFF OMITTED] T3750A.533
    
    [GRAPHIC] [TIFF OMITTED] T3750A.534
    
    [GRAPHIC] [TIFF OMITTED] T3750A.535
    
    [GRAPHIC] [TIFF OMITTED] T3750A.536
    
    [GRAPHIC] [TIFF OMITTED] T3750A.537
    
    [GRAPHIC] [TIFF OMITTED] T3750A.538
    
    [GRAPHIC] [TIFF OMITTED] T3750A.539
    
    [GRAPHIC] [TIFF OMITTED] T3750A.540
    
    [GRAPHIC] [TIFF OMITTED] T3750A.541
    
    [GRAPHIC] [TIFF OMITTED] T3750A.542
    
    [GRAPHIC] [TIFF OMITTED] T3750A.543
    
    [GRAPHIC] [TIFF OMITTED] T3750A.544
    
    [GRAPHIC] [TIFF OMITTED] T3750A.545
    
    [GRAPHIC] [TIFF OMITTED] T3750A.546
    
    [GRAPHIC] [TIFF OMITTED] T3750A.547
    
    [GRAPHIC] [TIFF OMITTED] T3750A.548
    
    [GRAPHIC] [TIFF OMITTED] T3750A.549
    
    [GRAPHIC] [TIFF OMITTED] T3750A.550
    
    [GRAPHIC] [TIFF OMITTED] T3750A.551
    
    [GRAPHIC] [TIFF OMITTED] T3750A.552
    
    [GRAPHIC] [TIFF OMITTED] T3750A.553
    
    [GRAPHIC] [TIFF OMITTED] T3750A.554
    
    [GRAPHIC] [TIFF OMITTED] T3750A.555
    
    [GRAPHIC] [TIFF OMITTED] T3750A.556
    
    [GRAPHIC] [TIFF OMITTED] T3750A.557
    
    [GRAPHIC] [TIFF OMITTED] T3750A.558
    
    [GRAPHIC] [TIFF OMITTED] T3750A.559
    
    [GRAPHIC] [TIFF OMITTED] T3750A.560
    
    [GRAPHIC] [TIFF OMITTED] T3750A.561
    
    [GRAPHIC] [TIFF OMITTED] T3750A.562
    
    [GRAPHIC] [TIFF OMITTED] T3750A.563
    
    [GRAPHIC] [TIFF OMITTED] T3750A.564
    
    [GRAPHIC] [TIFF OMITTED] T3750A.565
    
    [GRAPHIC] [TIFF OMITTED] T3750A.566
    
    [GRAPHIC] [TIFF OMITTED] T3750A.567
    
    [GRAPHIC] [TIFF OMITTED] T3750A.568
    
    [GRAPHIC] [TIFF OMITTED] T3750A.569
    
    [GRAPHIC] [TIFF OMITTED] T3750A.570
    
    [GRAPHIC] [TIFF OMITTED] T3750A.571
    
    [GRAPHIC] [TIFF OMITTED] T3750A.572
    
    [GRAPHIC] [TIFF OMITTED] T3750A.573
    
    [GRAPHIC] [TIFF OMITTED] T3750A.574
    
    [GRAPHIC] [TIFF OMITTED] T3750A.575
    
    [GRAPHIC] [TIFF OMITTED] T3750A.576
    
    [GRAPHIC] [TIFF OMITTED] T3750A.577
    
    [GRAPHIC] [TIFF OMITTED] T3750A.578
    
    [GRAPHIC] [TIFF OMITTED] T3750A.579
    
    [GRAPHIC] [TIFF OMITTED] T3750A.580
    
    [GRAPHIC] [TIFF OMITTED] T3750A.581
    
    [GRAPHIC] [TIFF OMITTED] T3750A.582
    
    [GRAPHIC] [TIFF OMITTED] T3750A.583
    
    [GRAPHIC] [TIFF OMITTED] T3750A.584
    
    [GRAPHIC] [TIFF OMITTED] T3750A.585
    
    [GRAPHIC] [TIFF OMITTED] T3750A.586
    
    [GRAPHIC] [TIFF OMITTED] T3750A.587
    
    [GRAPHIC] [TIFF OMITTED] T3750A.588
    
    [GRAPHIC] [TIFF OMITTED] T3750A.589
    
    [GRAPHIC] [TIFF OMITTED] T3750A.590
    
    [GRAPHIC] [TIFF OMITTED] T3750A.591
    
    [GRAPHIC] [TIFF OMITTED] T3750A.592
    
    [GRAPHIC] [TIFF OMITTED] T3750A.593
    
    [GRAPHIC] [TIFF OMITTED] T3750A.594
    
    [GRAPHIC] [TIFF OMITTED] T3750A.595
    
    [GRAPHIC] [TIFF OMITTED] T3750A.596
    
    [GRAPHIC] [TIFF OMITTED] T3750A.597
    
    [GRAPHIC] [TIFF OMITTED] T3750A.598
    
    [GRAPHIC] [TIFF OMITTED] T3750A.599
    
    [GRAPHIC] [TIFF OMITTED] T3750A.600
    
    [GRAPHIC] [TIFF OMITTED] T3750A.601
    
    [GRAPHIC] [TIFF OMITTED] T3750A.602
    
    [GRAPHIC] [TIFF OMITTED] T3750A.603
    
    [GRAPHIC] [TIFF OMITTED] T3750A.604
    
    [GRAPHIC] [TIFF OMITTED] T3750A.605
    
    [GRAPHIC] [TIFF OMITTED] T3750A.606
    
    [GRAPHIC] [TIFF OMITTED] T3750A.607
    
    [GRAPHIC] [TIFF OMITTED] T3750A.608
    
    [GRAPHIC] [TIFF OMITTED] T3750A.609
    
    [GRAPHIC] [TIFF OMITTED] T3750A.610
    
    [GRAPHIC] [TIFF OMITTED] T3750A.611
    
    [GRAPHIC] [TIFF OMITTED] T3750A.612
    
    [GRAPHIC] [TIFF OMITTED] T3750A.613
    
    [GRAPHIC] [TIFF OMITTED] T3750A.614
    
    [GRAPHIC] [TIFF OMITTED] T3750A.615
    
    [GRAPHIC] [TIFF OMITTED] T3750A.616
    
    [GRAPHIC] [TIFF OMITTED] T3750A.617
    
    [GRAPHIC] [TIFF OMITTED] T3750A.618
    
    [GRAPHIC] [TIFF OMITTED] T3750A.619
    
    [GRAPHIC] [TIFF OMITTED] T3750A.620
    
    [GRAPHIC] [TIFF OMITTED] T3750A.621
    
    [GRAPHIC] [TIFF OMITTED] T3750A.622
    
    [GRAPHIC] [TIFF OMITTED] T3750A.623
    
    [GRAPHIC] [TIFF OMITTED] T3750A.624
    
    [GRAPHIC] [TIFF OMITTED] T3750A.625
    
    [GRAPHIC] [TIFF OMITTED] T3750A.626
    
    [GRAPHIC] [TIFF OMITTED] T3750A.627
    
    [GRAPHIC] [TIFF OMITTED] T3750A.628
    
    [GRAPHIC] [TIFF OMITTED] T3750A.629
    
    [GRAPHIC] [TIFF OMITTED] T3750A.630
    
    [GRAPHIC] [TIFF OMITTED] T3750A.631
    
    [GRAPHIC] [TIFF OMITTED] T3750A.632
    
    [GRAPHIC] [TIFF OMITTED] T3750A.633
    
    [GRAPHIC] [TIFF OMITTED] T3750A.634
    
    [GRAPHIC] [TIFF OMITTED] T3750A.635
    
    [GRAPHIC] [TIFF OMITTED] T3750A.636
    
    [GRAPHIC] [TIFF OMITTED] T3750A.637
    
    [GRAPHIC] [TIFF OMITTED] T3750A.638
    
    [GRAPHIC] [TIFF OMITTED] T3750A.639
    
    [GRAPHIC] [TIFF OMITTED] T3750A.640
    
    [GRAPHIC] [TIFF OMITTED] T3750A.641
    
    [GRAPHIC] [TIFF OMITTED] T3750A.642
    
    [GRAPHIC] [TIFF OMITTED] T3750A.643
    
    [GRAPHIC] [TIFF OMITTED] T3750A.644
    
    [GRAPHIC] [TIFF OMITTED] T3750A.645
    
    [GRAPHIC] [TIFF OMITTED] T3750A.646
    
    [GRAPHIC] [TIFF OMITTED] T3750A.647
    
    [GRAPHIC] [TIFF OMITTED] T3750A.648
    
    [GRAPHIC] [TIFF OMITTED] T3750A.649
    
    [GRAPHIC] [TIFF OMITTED] T3750A.650
    
    [GRAPHIC] [TIFF OMITTED] T3750A.651
    
    [GRAPHIC] [TIFF OMITTED] T3750A.652
    
    [GRAPHIC] [TIFF OMITTED] T3750A.653
    
    [GRAPHIC] [TIFF OMITTED] T3750A.654
    
    [GRAPHIC] [TIFF OMITTED] T3750A.655
    
    [GRAPHIC] [TIFF OMITTED] T3750A.656
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.079
    
    [GRAPHIC] [TIFF OMITTED] T3750A.657
    
    [GRAPHIC] [TIFF OMITTED] T3750A.658
    
    [GRAPHIC] [TIFF OMITTED] T3750A.659
    
    [GRAPHIC] [TIFF OMITTED] T3750A.660
    
    [GRAPHIC] [TIFF OMITTED] T3750A.661
    
    [GRAPHIC] [TIFF OMITTED] T3750A.662
    
    [GRAPHIC] [TIFF OMITTED] T3750A.663
    
    [GRAPHIC] [TIFF OMITTED] T3750A.664
    
    [GRAPHIC] [TIFF OMITTED] T3750A.665
    
    [GRAPHIC] [TIFF OMITTED] T3750A.666
    
    [GRAPHIC] [TIFF OMITTED] T3750A.667
    
    [GRAPHIC] [TIFF OMITTED] T3750A.668
    
    [GRAPHIC] [TIFF OMITTED] T3750A.669
    
    [GRAPHIC] [TIFF OMITTED] T3750A.670
    
    [GRAPHIC] [TIFF OMITTED] T3750A.671
    
    [GRAPHIC] [TIFF OMITTED] T3750A.672
    
    [GRAPHIC] [TIFF OMITTED] T3750A.673
    
    [GRAPHIC] [TIFF OMITTED] T3750A.674
    
    [GRAPHIC] [TIFF OMITTED] T3750A.675
    
    [GRAPHIC] [TIFF OMITTED] T3750A.676
    
    [GRAPHIC] [TIFF OMITTED] T3750A.677
    
    [GRAPHIC] [TIFF OMITTED] T3750A.678
    
    [GRAPHIC] [TIFF OMITTED] T3750A.679
    
    [GRAPHIC] [TIFF OMITTED] T3750A.680
    
    [GRAPHIC] [TIFF OMITTED] T3750A.681
    
    [GRAPHIC] [TIFF OMITTED] T3750A.682
    
    [GRAPHIC] [TIFF OMITTED] T3750A.683
    
    [GRAPHIC] [TIFF OMITTED] T3750A.684
    
    [GRAPHIC] [TIFF OMITTED] T3750A.685
    
    [GRAPHIC] [TIFF OMITTED] T3750A.686
    
    [GRAPHIC] [TIFF OMITTED] T3750A.687
    
    [GRAPHIC] [TIFF OMITTED] T3750A.688
    
    [GRAPHIC] [TIFF OMITTED] T3750A.689
    
    [GRAPHIC] [TIFF OMITTED] T3750A.690
    
    [GRAPHIC] [TIFF OMITTED] T3750A.691
    
    [GRAPHIC] [TIFF OMITTED] T3750A.692
    
    [GRAPHIC] [TIFF OMITTED] T3750A.693
    
    [GRAPHIC] [TIFF OMITTED] T3750A.694
    
    [GRAPHIC] [TIFF OMITTED] T3750A.695
    
    [GRAPHIC] [TIFF OMITTED] T3750A.696
    
    [GRAPHIC] [TIFF OMITTED] T3750A.697
    
    [GRAPHIC] [TIFF OMITTED] T3750A.698
    
    [GRAPHIC] [TIFF OMITTED] T3750A.699
    
    [GRAPHIC] [TIFF OMITTED] T3750A.700
    
    [GRAPHIC] [TIFF OMITTED] T3750A.701
    
    [GRAPHIC] [TIFF OMITTED] T3750A.702
    
    [GRAPHIC] [TIFF OMITTED] T3750A.703
    
    [GRAPHIC] [TIFF OMITTED] T3750A.704
    
    [GRAPHIC] [TIFF OMITTED] T3750A.705
    
    [GRAPHIC] [TIFF OMITTED] T3750A.706
    
    [GRAPHIC] [TIFF OMITTED] T3750A.707
    
    [GRAPHIC] [TIFF OMITTED] T3750A.708
    
    [GRAPHIC] [TIFF OMITTED] T3750A.709
    
    [GRAPHIC] [TIFF OMITTED] T3750A.710
    
    [GRAPHIC] [TIFF OMITTED] T3750A.711
    
    [GRAPHIC] [TIFF OMITTED] T3750A.712
    
    [GRAPHIC] [TIFF OMITTED] T3750A.713
    
    [GRAPHIC] [TIFF OMITTED] T3750A.714
    
    [GRAPHIC] [TIFF OMITTED] T3750A.715
    
    [GRAPHIC] [TIFF OMITTED] T3750A.716
    
    [GRAPHIC] [TIFF OMITTED] T3750A.717
    
    [GRAPHIC] [TIFF OMITTED] T3750A.718
    
    [GRAPHIC] [TIFF OMITTED] T3750A.719
    
    [GRAPHIC] [TIFF OMITTED] T3750A.720
    
    [GRAPHIC] [TIFF OMITTED] T3750A.721
    
    [GRAPHIC] [TIFF OMITTED] T3750A.722
    
    [GRAPHIC] [TIFF OMITTED] T3750A.723
    
    [GRAPHIC] [TIFF OMITTED] T3750A.724
    
    [GRAPHIC] [TIFF OMITTED] T3750A.725
    
    [GRAPHIC] [TIFF OMITTED] T3750A.726
    
    [GRAPHIC] [TIFF OMITTED] T3750A.727
    
    [GRAPHIC] [TIFF OMITTED] T3750A.728
    
    [GRAPHIC] [TIFF OMITTED] T3750A.729
    
    [GRAPHIC] [TIFF OMITTED] T3750A.730
    
    [GRAPHIC] [TIFF OMITTED] T3750A.731
    
    [GRAPHIC] [TIFF OMITTED] T3750A.732
    
    [GRAPHIC] [TIFF OMITTED] T3750A.733
    
    [GRAPHIC] [TIFF OMITTED] T3750A.734
    
    [GRAPHIC] [TIFF OMITTED] T3750A.735
    
    [GRAPHIC] [TIFF OMITTED] T3750A.736
    
    [GRAPHIC] [TIFF OMITTED] T3750A.737
    
    [GRAPHIC] [TIFF OMITTED] T3750A.738
    
    [GRAPHIC] [TIFF OMITTED] T3750A.739
    
    [GRAPHIC] [TIFF OMITTED] T3750A.740
    
    [GRAPHIC] [TIFF OMITTED] T3750A.741
    
    [GRAPHIC] [TIFF OMITTED] T3750A.742
    
    [GRAPHIC] [TIFF OMITTED] T3750A.743
    
    [GRAPHIC] [TIFF OMITTED] T3750A.744
    
    [GRAPHIC] [TIFF OMITTED] T3750A.745
    
    [GRAPHIC] [TIFF OMITTED] T3750A.746
    
    [GRAPHIC] [TIFF OMITTED] T3750A.747
    
    [GRAPHIC] [TIFF OMITTED] T3750A.748
    
    [GRAPHIC] [TIFF OMITTED] T3750A.749
    
    [GRAPHIC] [TIFF OMITTED] T3750A.750
    
    [GRAPHIC] [TIFF OMITTED] T3750A.751
    
    [GRAPHIC] [TIFF OMITTED] T3750A.752
    
    [GRAPHIC] [TIFF OMITTED] T3750A.753
    
    [GRAPHIC] [TIFF OMITTED] T3750A.754
    
    [GRAPHIC] [TIFF OMITTED] T3750A.755
    
    [GRAPHIC] [TIFF OMITTED] T3750A.756
    
    [GRAPHIC] [TIFF OMITTED] T3750A.757
    
    [GRAPHIC] [TIFF OMITTED] T3750A.758
    
    [GRAPHIC] [TIFF OMITTED] T3750A.759
    
    [GRAPHIC] [TIFF OMITTED] T3750A.760
    
    [GRAPHIC] [TIFF OMITTED] T3750A.761
    
    [GRAPHIC] [TIFF OMITTED] T3750A.762
    
    [GRAPHIC] [TIFF OMITTED] T3750A.763
    
    [GRAPHIC] [TIFF OMITTED] T3750A.764
    
    [GRAPHIC] [TIFF OMITTED] T3750A.765
    
    [GRAPHIC] [TIFF OMITTED] T3750A.766
    
    [GRAPHIC] [TIFF OMITTED] T3750A.767
    
    [GRAPHIC] [TIFF OMITTED] T3750A.768
    
    [GRAPHIC] [TIFF OMITTED] T3750A.769
    
    [GRAPHIC] [TIFF OMITTED] T3750A.770
    
    [GRAPHIC] [TIFF OMITTED] T3750A.771
    
    [GRAPHIC] [TIFF OMITTED] T3750A.772
    
    [GRAPHIC] [TIFF OMITTED] T3750A.773
    
    [GRAPHIC] [TIFF OMITTED] T3750A.774
    
    [GRAPHIC] [TIFF OMITTED] T3750A.775
    
    [GRAPHIC] [TIFF OMITTED] T3750A.776
    
    [GRAPHIC] [TIFF OMITTED] T3750A.777
    
    [GRAPHIC] [TIFF OMITTED] T3750A.778
    
    [GRAPHIC] [TIFF OMITTED] T3750A.779
    
    [GRAPHIC] [TIFF OMITTED] T3750A.780
    
    [GRAPHIC] [TIFF OMITTED] T3750A.781
    
    [GRAPHIC] [TIFF OMITTED] T3750A.782
    
    [GRAPHIC] [TIFF OMITTED] T3750A.783
    
    [GRAPHIC] [TIFF OMITTED] T3750A.784
    
    [GRAPHIC] [TIFF OMITTED] T3750A.785
    
    [GRAPHIC] [TIFF OMITTED] T3750A.786
    
    [GRAPHIC] [TIFF OMITTED] T3750A.787
    
    [GRAPHIC] [TIFF OMITTED] T3750A.788
    
    [GRAPHIC] [TIFF OMITTED] T3750A.789
    
    [GRAPHIC] [TIFF OMITTED] T3750A.790
    
    [GRAPHIC] [TIFF OMITTED] T3750A.791
    
    [GRAPHIC] [TIFF OMITTED] T3750A.792
    
    [GRAPHIC] [TIFF OMITTED] T3750A.793
    
    [GRAPHIC] [TIFF OMITTED] T3750A.794
    
    [GRAPHIC] [TIFF OMITTED] T3750A.795
    
    [GRAPHIC] [TIFF OMITTED] T3750A.796
    
    [GRAPHIC] [TIFF OMITTED] T3750A.797
    
    [GRAPHIC] [TIFF OMITTED] T3750A.798
    
    [GRAPHIC] [TIFF OMITTED] T3750A.799
    
    [GRAPHIC] [TIFF OMITTED] T3750A.800
    
    [GRAPHIC] [TIFF OMITTED] T3750A.801
    
    [GRAPHIC] [TIFF OMITTED] T3750A.802
    
    [GRAPHIC] [TIFF OMITTED] T3750A.803
    
    [GRAPHIC] [TIFF OMITTED] T3750A.804
    
    [GRAPHIC] [TIFF OMITTED] T3750A.805
    
    [GRAPHIC] [TIFF OMITTED] T3750A.806
    
    [GRAPHIC] [TIFF OMITTED] T3750A.807
    
    [GRAPHIC] [TIFF OMITTED] T3750A.808
    
    [GRAPHIC] [TIFF OMITTED] T3750A.809
    
    [GRAPHIC] [TIFF OMITTED] T3750A.810
    
    [GRAPHIC] [TIFF OMITTED] T3750A.811
    
    [GRAPHIC] [TIFF OMITTED] T3750A.812
    
    [GRAPHIC] [TIFF OMITTED] T3750A.813
    
    [GRAPHIC] [TIFF OMITTED] T3750A.814
    
    [GRAPHIC] [TIFF OMITTED] T3750A.815
    
    [GRAPHIC] [TIFF OMITTED] T3750A.816
    
    [GRAPHIC] [TIFF OMITTED] T3750A.817
    
    [GRAPHIC] [TIFF OMITTED] T3750A.818
    
    [GRAPHIC] [TIFF OMITTED] T3750A.819
    
    [GRAPHIC] [TIFF OMITTED] T3750A.820
    
    [GRAPHIC] [TIFF OMITTED] T3750A.821
    
    [GRAPHIC] [TIFF OMITTED] T3750A.822
    
    [GRAPHIC] [TIFF OMITTED] T3750A.823
    
    [GRAPHIC] [TIFF OMITTED] T3750A.824
    
    [GRAPHIC] [TIFF OMITTED] T3750A.825
    
    [GRAPHIC] [TIFF OMITTED] T3750A.826
    
    [GRAPHIC] [TIFF OMITTED] T3750A.827
    
    [GRAPHIC] [TIFF OMITTED] T3750A.828
    
    [GRAPHIC] [TIFF OMITTED] T3750A.829
    
    [GRAPHIC] [TIFF OMITTED] T3750A.830
    
    [GRAPHIC] [TIFF OMITTED] T3750A.831
    
    [GRAPHIC] [TIFF OMITTED] T3750A.832
    
    [GRAPHIC] [TIFF OMITTED] T3750A.833
    
    [GRAPHIC] [TIFF OMITTED] T3750A.834
    
    [GRAPHIC] [TIFF OMITTED] T3750A.835
    
    [GRAPHIC] [TIFF OMITTED] T3750A.836
    
    [GRAPHIC] [TIFF OMITTED] T3750A.837
    
    [GRAPHIC] [TIFF OMITTED] T3750A.838
    
    [GRAPHIC] [TIFF OMITTED] T3750A.839
    
    [GRAPHIC] [TIFF OMITTED] T3750A.840
    
    [GRAPHIC] [TIFF OMITTED] T3750A.841
    
    [GRAPHIC] [TIFF OMITTED] T3750A.842
    
    [GRAPHIC] [TIFF OMITTED] T3750A.843
    
    [GRAPHIC] [TIFF OMITTED] T3750A.844
    
    [GRAPHIC] [TIFF OMITTED] T3750A.845
    
    [GRAPHIC] [TIFF OMITTED] T3750A.846
    
    [GRAPHIC] [TIFF OMITTED] T3750A.847
    
    [GRAPHIC] [TIFF OMITTED] T3750A.848
    
    [GRAPHIC] [TIFF OMITTED] T3750A.849
    
    [GRAPHIC] [TIFF OMITTED] T3750A.850
    
    [GRAPHIC] [TIFF OMITTED] T3750A.851
    
    [GRAPHIC] [TIFF OMITTED] T3750A.852
    
    [GRAPHIC] [TIFF OMITTED] T3750A.853
    
    [GRAPHIC] [TIFF OMITTED] T3750A.854
    
    [GRAPHIC] [TIFF OMITTED] T3750A.855
    
    [GRAPHIC] [TIFF OMITTED] T3750A.856
    
    [GRAPHIC] [TIFF OMITTED] T3750A.857
    
    [GRAPHIC] [TIFF OMITTED] T3750A.858
    
    [GRAPHIC] [TIFF OMITTED] T3750A.859
    
    [GRAPHIC] [TIFF OMITTED] T3750A.860
    
    [GRAPHIC] [TIFF OMITTED] T3750A.861
    
    [GRAPHIC] [TIFF OMITTED] T3750A.862
    
    [GRAPHIC] [TIFF OMITTED] T3750A.863
    
    [GRAPHIC] [TIFF OMITTED] T3750A.864
    
    [GRAPHIC] [TIFF OMITTED] T3750A.865
    
    [GRAPHIC] [TIFF OMITTED] T3750A.866
    
    [GRAPHIC] [TIFF OMITTED] T3750A.867
    
    [GRAPHIC] [TIFF OMITTED] T3750A.868
    
    [GRAPHIC] [TIFF OMITTED] T3750A.869
    
    [GRAPHIC] [TIFF OMITTED] T3750A.870
    
    [GRAPHIC] [TIFF OMITTED] T3750A.871
    
    [GRAPHIC] [TIFF OMITTED] T3750A.872
    
    [GRAPHIC] [TIFF OMITTED] T3750A.873
    
    [GRAPHIC] [TIFF OMITTED] T3750A.874
    
    [GRAPHIC] [TIFF OMITTED] T3750A.875
    
    [GRAPHIC] [TIFF OMITTED] T3750A.876
    
    [GRAPHIC] [TIFF OMITTED] T3750A.877
    
    [GRAPHIC] [TIFF OMITTED] T3750A.878
    
    [GRAPHIC] [TIFF OMITTED] T3750A.879
    
    [GRAPHIC] [TIFF OMITTED] T3750A.880
    
    [GRAPHIC] [TIFF OMITTED] T3750A.881
    
    [GRAPHIC] [TIFF OMITTED] T3750A.882
    
    [GRAPHIC] [TIFF OMITTED] T3750A.883
    
    [GRAPHIC] [TIFF OMITTED] T3750A.884
    
    [GRAPHIC] [TIFF OMITTED] T3750A.885
    
    [GRAPHIC] [TIFF OMITTED] T3750A.886
    
    [GRAPHIC] [TIFF OMITTED] T3750A.887
    
    [GRAPHIC] [TIFF OMITTED] T3750A.888
    
    [GRAPHIC] [TIFF OMITTED] T3750A.889
    
    [GRAPHIC] [TIFF OMITTED] T3750A.890
    
    [GRAPHIC] [TIFF OMITTED] T3750A.891
    
    [GRAPHIC] [TIFF OMITTED] T3750A.892
    
    [GRAPHIC] [TIFF OMITTED] T3750A.893
    
    [GRAPHIC] [TIFF OMITTED] T3750A.894
    
    [GRAPHIC] [TIFF OMITTED] T3750A.895
    
    [GRAPHIC] [TIFF OMITTED] T3750A.896
    
    [GRAPHIC] [TIFF OMITTED] T3750A.897
    
    [GRAPHIC] [TIFF OMITTED] T3750A.898
    
    [GRAPHIC] [TIFF OMITTED] T3750A.899
    
    [GRAPHIC] [TIFF OMITTED] T3750A.900
    
    [GRAPHIC] [TIFF OMITTED] T3750A.901
    
    [GRAPHIC] [TIFF OMITTED] T3750A.902
    
    [GRAPHIC] [TIFF OMITTED] T3750A.903
    
    [GRAPHIC] [TIFF OMITTED] T3750A.904
    
    [GRAPHIC] [TIFF OMITTED] T3750A.905
    
    [GRAPHIC] [TIFF OMITTED] T3750A.906
    
    [GRAPHIC] [TIFF OMITTED] T3750A.907
    
    [GRAPHIC] [TIFF OMITTED] T3750A.908
    
    [GRAPHIC] [TIFF OMITTED] T3750A.909
    
    [GRAPHIC] [TIFF OMITTED] T3750A.910
    
    [GRAPHIC] [TIFF OMITTED] T3750A.911
    
    [GRAPHIC] [TIFF OMITTED] T3750A.912
    
    [GRAPHIC] [TIFF OMITTED] T3750A.913
    
    [GRAPHIC] [TIFF OMITTED] T3750A.914
    
    [GRAPHIC] [TIFF OMITTED] T3750A.915
    
    [GRAPHIC] [TIFF OMITTED] T3750A.916
    
    [GRAPHIC] [TIFF OMITTED] T3750A.917
    
    [GRAPHIC] [TIFF OMITTED] T3750A.918
    
    [GRAPHIC] [TIFF OMITTED] T3750A.919
    
    [GRAPHIC] [TIFF OMITTED] T3750A.920
    
    [GRAPHIC] [TIFF OMITTED] T3750A.921
    
    [GRAPHIC] [TIFF OMITTED] T3750A.922
    
    [GRAPHIC] [TIFF OMITTED] T3750A.923
    
    [GRAPHIC] [TIFF OMITTED] T3750A.924
    
    [GRAPHIC] [TIFF OMITTED] T3750A.925
    
    [GRAPHIC] [TIFF OMITTED] T3750A.926
    
    [GRAPHIC] [TIFF OMITTED] T3750A.927
    
    [GRAPHIC] [TIFF OMITTED] T3750A.928
    
    [GRAPHIC] [TIFF OMITTED] T3750A.929
    
    [GRAPHIC] [TIFF OMITTED] T3750A.930
    
    [GRAPHIC] [TIFF OMITTED] T3750A.931
    
    [GRAPHIC] [TIFF OMITTED] T3750A.932
    
    [GRAPHIC] [TIFF OMITTED] T3750A.933
    
    [GRAPHIC] [TIFF OMITTED] T3750A.934
    
    [GRAPHIC] [TIFF OMITTED] T3750A.935
    
    [GRAPHIC] [TIFF OMITTED] T3750A.936
    
    [GRAPHIC] [TIFF OMITTED] T3750A.937
    
    [GRAPHIC] [TIFF OMITTED] T3750A.938
    
    [GRAPHIC] [TIFF OMITTED] T3750A.939
    
    [GRAPHIC] [TIFF OMITTED] T3750A.940
    
    [GRAPHIC] [TIFF OMITTED] T3750A.941
    
    [GRAPHIC] [TIFF OMITTED] T3750A.942
    
    [GRAPHIC] [TIFF OMITTED] T3750A.943
    
    [GRAPHIC] [TIFF OMITTED] T3750A.944
    
    [GRAPHIC] [TIFF OMITTED] T3750A.945
    
    [GRAPHIC] [TIFF OMITTED] T3750A.946
    
    [GRAPHIC] [TIFF OMITTED] T3750A.947
    
    [GRAPHIC] [TIFF OMITTED] T3750A.948
    
    [GRAPHIC] [TIFF OMITTED] T3750A.949
    
    [GRAPHIC] [TIFF OMITTED] T3750A.950
    
    [GRAPHIC] [TIFF OMITTED] T3750A.951
    
    [GRAPHIC] [TIFF OMITTED] T3750A.952
    
    [GRAPHIC] [TIFF OMITTED] T3750A.953
    
    [GRAPHIC] [TIFF OMITTED] T3750A.954
    
    [GRAPHIC] [TIFF OMITTED] T3750A.955
    
    [GRAPHIC] [TIFF OMITTED] T3750A.956
    
    [GRAPHIC] [TIFF OMITTED] T3750A.957
    
    [GRAPHIC] [TIFF OMITTED] T3750A.958
    
    [GRAPHIC] [TIFF OMITTED] T3750A.959
    
    [GRAPHIC] [TIFF OMITTED] T3750A.960
    
    [GRAPHIC] [TIFF OMITTED] T3750A.961
    
    [GRAPHIC] [TIFF OMITTED] T3750A.962
    
    [GRAPHIC] [TIFF OMITTED] T3750A.963
    
    [GRAPHIC] [TIFF OMITTED] T3750A.964
    
    [GRAPHIC] [TIFF OMITTED] T3750A.965
    
    [GRAPHIC] [TIFF OMITTED] T3750A.966
    
    [GRAPHIC] [TIFF OMITTED] T3750A.967
    
    [GRAPHIC] [TIFF OMITTED] T3750A.968
    
    [GRAPHIC] [TIFF OMITTED] T3750A.969
    
    [GRAPHIC] [TIFF OMITTED] T3750A.970
    
    [GRAPHIC] [TIFF OMITTED] T3750A.971
    
    [GRAPHIC] [TIFF OMITTED] T3750A.972
    
    [GRAPHIC] [TIFF OMITTED] T3750A.973
    
    [GRAPHIC] [TIFF OMITTED] T3750A.974
    
    [GRAPHIC] [TIFF OMITTED] T3750A.975
    
    [GRAPHIC] [TIFF OMITTED] T3750A.976
    
    [GRAPHIC] [TIFF OMITTED] T3750A.977
    
    [GRAPHIC] [TIFF OMITTED] T3750A.978
    
    [GRAPHIC] [TIFF OMITTED] T3750A.979
    
    [GRAPHIC] [TIFF OMITTED] T3750A.980
    
    [GRAPHIC] [TIFF OMITTED] T3750A.981
    
    [GRAPHIC] [TIFF OMITTED] T3750A.982
    
    [GRAPHIC] [TIFF OMITTED] T3750A.983
    
    [GRAPHIC] [TIFF OMITTED] T3750A.984
    
    [GRAPHIC] [TIFF OMITTED] T3750A.985
    
    [GRAPHIC] [TIFF OMITTED] T3750A.986
    
    [GRAPHIC] [TIFF OMITTED] T3750A.987
    
    [GRAPHIC] [TIFF OMITTED] T3750A.988
    
    [GRAPHIC] [TIFF OMITTED] T3750A.989
    
    [GRAPHIC] [TIFF OMITTED] T3750A.990
    
    [GRAPHIC] [TIFF OMITTED] T3750A.991
    
    [GRAPHIC] [TIFF OMITTED] T3750A.992
    
    [GRAPHIC] [TIFF OMITTED] T3750A.993
    
    [GRAPHIC] [TIFF OMITTED] T3750A.994
    
    [GRAPHIC] [TIFF OMITTED] T3750A.995
    
    [GRAPHIC] [TIFF OMITTED] T3750A.996
    
    [GRAPHIC] [TIFF OMITTED] T3750A.997
    
    [GRAPHIC] [TIFF OMITTED] T3750A.998
    
    [GRAPHIC] [TIFF OMITTED] T3750A.999
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.000
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.001
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.002
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.003
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.004
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.005
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.006
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.007
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.008
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.009
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.010
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.011
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.012
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.013
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.014
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.015
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.016
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.017
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.018
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.019
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.020
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.021
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.022
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.023
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.024
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.025
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.026
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.027
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.028
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.029
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.030
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.031
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.032
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.033
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.034
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.035
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.036
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.037
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.038
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.039
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.040
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.041
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.042
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.043
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.044
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.045
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.046
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.047
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.048
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.049
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.050
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.051
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.052
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.053
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.054
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.055
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.056
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.057
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.058
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.059
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.060
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.061
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.062
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.063
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.064
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.065
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.066
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.067
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.068
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.069
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.070
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.071
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.072
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.073
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.074
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.075
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.076
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.077
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.078
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.079
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.080
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.081
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.082
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.083
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.084
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.085
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.086
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.087
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.088
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.089
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.090
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.091
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.092
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.093
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.094
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.095
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.096
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.097
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.098
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.099
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.100
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.101
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.102
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.103
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.104
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.105
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.106
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.107
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.108
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.109
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.110
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.111
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.112
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.113
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.114
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.115
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.116
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.117
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.118
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.119
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.120
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.121
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.122
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.123
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.124
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.125
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.126
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.127
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.128
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.129
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.130
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.131
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.132
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.133
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.134
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.135
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.136
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.137
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.138
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.139
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.140
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.141
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.142
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.143
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.144
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.145
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.146
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.147
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.148
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.149
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.150
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.151
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.152
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.153
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.154
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.155
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.156
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.157
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.158
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.159
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.160
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.161
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.162
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.163
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.164
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.165
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.166
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.167
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.168
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.169
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.170
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.171
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.172
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.173
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.174
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.175
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.176
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.177
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.178
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.179
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.180
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.181
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.182
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.183
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.184
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.185
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.186
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.187
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.188
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.189
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.190
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.191
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.192
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.193
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.194
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.195
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.196
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.197
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.198
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.199
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.200
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.201
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.202
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.203
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.204
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.205
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.206
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.207
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.208
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.209
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.210
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.211
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.212
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.213
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.214
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.215
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.216
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.217
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.218
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.219
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.220
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.221
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.222
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.223
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.224
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.225
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.226
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.227
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.228
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.229
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.079
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.080
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.081
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.082
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.083
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.084
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.085
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.086
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.230
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.231
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.232
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.233
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.234
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.235
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.236
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.237
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.238
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.239
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.240
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.241
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.242
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.243
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.244
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.245
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.246
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.247
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.248
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.249
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.250
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.251
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.252
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.253
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.254
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.255
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.256
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.257
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.258
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.259
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.260
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.261
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.262
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.263
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.264
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.265
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.266
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.267
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.268
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.269
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.270
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.271
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.272
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.273
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.274
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.275
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.276
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.277
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.278
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.279
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.280
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.281
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.282
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.283
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.284
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.285
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.286
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.287
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.288
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.289
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.290
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.291
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.292
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.293
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.294
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.295
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.296
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.297
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.298
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.299
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.300
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.301
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.302
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.303
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.304
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.305
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.306
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.307
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.308
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.309
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.310
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.311
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.312
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.313
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.314
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.315
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.316
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.317
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.318
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.319
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.320
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.321
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.322
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.323
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.324
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.325
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.326
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.327
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.328
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.329
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.330
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.331
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.332
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.333
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.334
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.335
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.336
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.337
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.338
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.339
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.340
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.341
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.342
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.343
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.344
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.345
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.346
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.347
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.348
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.349
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.350
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.351
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.352
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.353
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.354
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.355
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.356
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.357
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.358
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.359
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.360
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.361
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.362
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.363
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.364
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.365
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.366
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.367
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.368
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.369
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.370
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.371
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.372
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.373
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.374
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.375
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.376
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.377
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.378
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.379
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.380
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.381
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.382
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.383
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.384
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.385
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.386
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.387
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.388
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.389
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.390
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.391
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.392
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.393
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.394
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.395
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.396
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.397
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.398
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.399
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.400
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.401
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.402
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.403
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.404
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.405
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.406
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.407
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.408
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.409
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.410
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.411
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.412
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.413
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.414
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.415
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.416
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.417
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.418
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.419
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.420
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.421
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.422
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.423
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.424
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.425
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.426
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.427
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.428
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.429
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.430
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.431
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.432
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.433
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.434
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.435
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.436
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.437
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.438
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.439
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.440
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.441
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.442
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.443
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.444
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.445
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.446
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.447
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.448
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.449
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.450
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.451
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.452
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.453
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.454
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.455
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.456
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.457
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.458
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.459
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.460
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.461
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.462
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.463
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.464
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.465
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.466
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.467
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.468
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.469
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.470
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.471
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.472
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.473
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.474
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.475
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.476
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.477
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.478
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.479
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.480
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.481
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.482
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.483
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.484
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.485
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.486
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.487
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.488
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.489
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.490
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.491
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.492
    
                                            Thursday, May 10, 2001.

                          DEPARTMENT OF ENERGY

                               WITNESSES

DR. JAMES DECKER, ACTING DIRECTOR, OFFICE OF SCIENCE
DR. ROBERT K. DIXON, DEPUTY ASSISTANT SECRETARY, OFFICE OF POWER 
    TECHNOLOGIES, OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY
WILLIAM D. MAGWOOD, IV, DIRECTOR, OFFICE OF NUCLEAR ENERGY, SCIENCE AND 
    TECHNOLOGY
    Mr. Callahan. I asked the staff to call and see if there 
was going to be a journal vote. I would hate to get you guys 
halfway into the opening statement and all those bells start 
ringing for that total waste of time. But in any event, I do 
not guess that they found out yet, so we will go ahead and 
proceed.
    We have today Dr. James Decker, the Acting Director of the 
Office of Science; Dr. Robert K. Dixon, the Deputy Assistant 
Secretary for Power Technologies; and William Magwood, the 
Director of the Office of Nuclear Energy, Science and 
Technology. Gentlemen, we welcome you to this committee, and 
look forward to working with you for the rest of the process of 
the appropriations.
    Some of you all have requested some pretty healthy 
reductions. Generally, that is not hard to facilitate your 
request, but I do think we need to question some of your 
priorities in your request. I know technically you did not 
write the budget request, but I am sure that you had some input 
or some discussions with OMB, anyway.
    But, in any event, good morning. Welcome to the Committee, 
and we will start in any order that you wish. Dr. Decker, maybe 
we will just start in the center.

                     SCIENCE FY 2002 BUDGET REQUEST

    Dr. Decker. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I certainly 
appreciate having the opportunity to testify before you today 
on the Fiscal Year 2002 budget request for the Office of 
Science. Before I begin, let me thank you, Mr. Chairman and 
members, for the Subcommittee's strong support for our research 
programs in past years.
    I have submitted written testimony describing our $3.16 
billion request supporting the basic research that underpins 
the science, energy, environment, and national security 
missions of the Department of Energy. The Office of Science is 
the largest source of Federal support for fundamental research 
in the physical sciences, which includes physics, chemistry, 
and materials sciences. In addition, my office plays a key role 
in the life sciences, environmental research, and advanced 
computation and mathematics.
    Our research is conducted by scientists in the Department 
of Energy's national laboratories and at more than 250 
universities located in virtually every State. In funding this 
research, we develop the new scientific knowledge that helps 
support both the DOE missions and the Nation's economy of the 
future, as well as helping to train the next generation of 
researchers.
    The Office of Science also plays an essential role in the 
Nation's scientific infrastructure by constructing and 
operating major scientific facilities such as accelerators, 
synchrotron light sources, and neutron sources. This year these 
facilities will serve more than 16,000 researchers from 
academia, industry, and Federal laboratories. These facilities 
are essential to progress in many scientific disciplines.
    The past year has been a very productive one for the Office 
of Science. A working draft of the human genome was completed, 
a major milestone in the Human Genome Project which the Office 
of Science initiated in 1986. We developed many of the 
underlying technologies used by all of the institutions 
involved in the sequencing process, as well as sequencing of 
three of the human chromosomes.
    In High Energy and Nuclear Physics, experiments both 
supported and challenged established theory. Fermilab observed 
the Tau neutrino, the last of the leptons predicted by our 
accepted theory, the so-called Standard Model; while another 
experiment, called the g-2 experiment, at Brookhaven generated 
a new challenge to the Standard Model, as did strong evidence 
for neutrinos having mass.
    At the same time, the B Factory at the Stanford Linear 
Accelerator Center has been gathering evidence of Charge-Parity 
violation, with implications for understanding why matter 
dominated over antimatter in the universe. And early results 
from the Relativistic Heavy Ion Collider indicate the presence 
of a predicted state of matter of the quark-gluon plasma that 
existed shortly after the ``Big Bang.''

                       SPALLATION NEUTRON SOURCE

    Construction of the Spallation Neutron Source at the Oak 
Ridge National Laboratory is approximately 20 percent complete, 
and projected within budget and on schedule for completion in 
2006. The Spallation Neutron Source will be the world's most 
powerful pulsed neutron source, producing six to ten times 
greater neutron flux than any existing source. It will provide 
a critical research capability in a wide range of areas, 
including materials research, structural biology, and advanced 
drug design.
    Our researchers have also made substantial progress in many 
other areas, such as understanding and controlling energy 
losses from magnetically confined plasmas; developing 
techniques for bonding wear-resistant ceramic surfaces to 
metals, a technique with great promise for improved artificial 
knees and hips, as well as energy technology applications 
requiring high levels of heat resistance; and also 
investigating the effects of Ritalin on the brain through 
positron emission tomography studies.
    The President's budget request for Fiscal Year 2002 will 
fully fund the Spallation Neutron Source construction; continue 
operations of our existing large scientific user facilities; 
support development of the next generation of high performance 
computing and communications tools for science; continue 
research in support of DOE missions; and support our 
stewardship of those areas of science for which we are the 
predominant supporter, such as high-energy physics, nuclear 
physics, nuclear medicine, catalysis, and heavy element 
chemistry, to name a few.
    In my remaining time, I would like to briefly focus on 
three of the important areas of our budget request: ``Genomes 
to Life''; physics, for both the Standard Model and beyond; and 
nanoscale science. In each area we are building on knowledge 
and capabilities that have been created through sustained 
investments in the Office of Science Programs.

                            GENOMES TO LIFE

    The proposed ``Genomes to Life'' program is aimed at 
determining how a single cell and consortia of cells function. 
The single cell is an amazing, complex chemical factory. With 
our ability to sequence the genome of any living thing today, 
we can determine an instruction set for making the parts of the 
cell. However, we do not know what the parts are and how they 
function together.
    We also do not have an understanding of how a consortia of 
cells, such as complexes of different microbes, work together. 
Eventually we want to understand the behavior of more complex 
cellular organisms, including people. We do know that these 
systems are so complex that the only way that we will obtain a 
predictive capability is through computational modeling.
    To successfully tackle this problem, interdisciplinary 
teams will have to be formed, and we will need many of the 
tools that we have developed over the years, including our 
terascale computers, our synchrotron light sources, our neutron 
sources, and our DNA sequencing capabilities. Our initial focus 
is on microbes that are relevant to DOE missions, including 
energy production, carbon sequestration, and environmental 
cleanup. We also anticipate this effort will contribute to a 
better understanding of health effects of various environmental 
toxins, and will allow us to better understand the impacts of 
low doses of radiation.

                    HIGH ENERGY AND NUCLEAR PHYSICS

    In high energy and nuclear physics, the Department of 
Energy laboratories are now the site of the most advanced 
experimental facilities in the world. The 2002 budget proposes 
a program to allow the Tevatron at Fermilab to explore the 
energy range where physicists now expect to observe the Higgs 
boson, believed to be the source for the fundamental 
constituents of matter.
    This proposed budget will also allow the B Factory to 
dramatically speed up its program of research into the 
asymmetry that led to the dominance of matter over antimatter 
in the universe. At Brookhaven, the Relativistic Heavy Ion 
Collider will examine the qualities of a manmade quark-gluon 
plasma, addressing the question of why quarks are so strongly 
confined inside protons and neutrons, and shedding light on the 
early evolution of the universe.
    We are also exploring another scientific frontier, science 
at the nanoscale, where the physics of materials is governed by 
the interaction of individual atoms and molecules and is 
qualitatively different than at larger scales. The promise for 
the future is immense.
    We are now entering a stage of research where structures 
can be designed, atom-by-atom, so that the desired 
characteristics and chemical reactivity can be controlled. In 
the future, we should be able to design and synthesize new 
alloys, ceramics, chemical catalysts, and other materials 
tailored for specific tasks, leading to significant 
improvements in solar energy conversion, more energy-efficient 
lighting, and stronger, lighter materials to improve efficiency 
in transportation.
    The budget request for the Office of Science balances 
support for our existing programs and facilities with new 
investments such as ``Genomes to Life'' and new tools such as 
the Spallation Neutron Source. This provides a strong basis for 
scientific progress in all the disciplines that we support, 
while capitalizing on exciting new opportunities and new areas 
of research.
    Mr. Chairman, that concludes my oral remarks, and I would 
be pleased to answer any questions.
    [The prepared statement of Dr. Decker follows:]
    [GRAPHIC] [TIFF OMITTED] T3750A1.493
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.494
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.495
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.496
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.497
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.498
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.499
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.500
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.501
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.502
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.503
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.504
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.505
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.506
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.507
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.508
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.509
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.510
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.511
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.512
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.513
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.514
    
    Mr. Callahan. Thank you, Dr. Decker. Now that I thoroughly 
understand your mission, we will move on. Dr. Dixon?

                         FY 2002 BUDGET REQUEST

    Dr. Dixon. Mr. Chairman, I have offered written testimony 
for the record. I would like to move through some graphics 
which are in front of you. There is a packet for each of you.
    Again, Mr. Chairman, good morning, and thank you for the 
opportunity to present our 2002 budget request for energy and 
water development programs and renewable energy resources. I am 
Dr. Robert K. Dixon, Deputy Assistant Secretary in the Office 
of Energy Efficiency and Renewable Energy. Our Acting Director, 
Dr. Abraham Haspel, is recovering from a serious ailment and 
sends his apologies for not being here today.
    The energy investments proposed in our 2002 budget request 
address today's energy problems and provide the technology base 
for the next generation of energy needs. These investments can 
reduce our dependence on imported energy sources, address the 
critical needs for energy supplies, and upgrade the energy 
infrastructure in the electric power sector.
    The 2002 budget request totals almost $277 million. This 
figure includes an amendment to our original budget request for 
more than $39 million. In an effort to control spending, it is 
always necessary to identify priorities and focus on the most 
critical activities.
    Because of their strategic importance, the Secretary has 
identified five priority programs that will be funded at or 
near Fiscal Year 2001 levels. These programs included 
Bioenergy, Hydrogen, Hydropower, Electric Energy Systems, and 
the Renewable Energy Production Incentive.
    While we have adjusted the requests for other programs, the 
requested funding levels will still maintain core competencies 
and will allow continued progress towards our national 
technology goals. Mr. Chairman, I want to assure you that the 
solar, wind, and geothermal programs remain a vital part of our 
portfolio and essential to implementing a robust national 
energy policy.

                         NATIONAL ENERGY CRISIS

    Mr. Chairman, clearly we are facing severe national energy 
problems. The President has identified the electricity crunch 
as a national energy crisis. If the worst case electricity 
shortage scenario occurs, up to two-thirds of the 125 million 
American electricity users could be affected. Thus, we have 
developed an alternative energy R&D portfolio which is 
responsive to these national needs.
    Mr. Chairman, working together, we have a window of 
opportunity to address national energy problems. The new 
National Energy Plan which is being developed under the 
leadership of Vice President Cheney will be released next week. 
The report will contain important guidance for the future 
directions and priorities of our programs.
    The Hydrogen Reauthorization Bill is before Congress. It 
lays the foundation for revitalization of the Nation's energy 
infrastructure.
    Hydropower, a vital resource today, could be a 
significantly less important part of the Nation's energy 
portfolio in the future if we do not handle the relicensing 
processes more carefully.
    Creation of new rules of the game for the utility markets 
and regulations is proving to be an extraordinarily complex 
process, as we have seen with the disappointments in California 
but the successes in Texas. Our power generation, transmission, 
and distribution infrastructure needs to be modernized. We need 
power supplies and an up-to-date infrastructure to keep the 
lights on and the internet humming.

                        RENEWABLE R&D PRIORITIES

    Mr. Chairman, this is truly a decade of decision for 
alternative R&D activities. Mr. Chairman, this is our portfolio 
of technologies and programs. We have three major areas of 
activity: renewable energy; distributed energy resources; and 
reliability and power quality. I want to highlight two of the 
Secretary's priorities in FY 2002, bioenergy and distributed 
energy resources.
    Mr. Chairman, our proposed bioenergy activities focus on 
three primary elements: biomass for electric power; biomass for 
transportation fuels; and biomass for industrial feedstocks and 
products. We are requesting almost $82 million for 
collaborative R&D, and we are working hard to align our 
programs with the guidance under the Biomass R&D Act of 2000. 
We are also working closely with our industrial and academic 
partners and with other Federal agencies, such as the U.S. 
Department of Agriculture.

                      DISTRIBUTED ENERGY RESOURCES

    Mr. Chairman, our R&D portfolio includes priorities for 
distributed energy resources in 2002. Distributed energy is an 
important concept in restructured utility markets. It focuses 
on energy technologies that can be installed on site and 
provide clean, affordable, reliable energy supplies directly to 
customers. Natural gas is an important fuel for distributed 
energy systems today.
    The Nation needs a distributed energy system that can 
operate efficiently and safely in concert with traditional 
power systems. It needs to be integrated, optimized, seamless, 
and able to incorporate emerging technologies. Hydrogen energy, 
which is plentiful and clean, is compatible with existing 
distributed energy devices such as fuel cells, engines, and 
combustion turbines.
    Distributed energy resources provide new supplies and 
address the Nation's aging transmission and distribution 
infrastructure. Approximately 70 percent of our transmission 
lines, transformer banks, and circuit breakers are over 25 
years old, and they need to be upgraded or they need to be 
replaced. Our program in electric energy systems includes R&D 
efforts for high-temperature superconducting materials for 
cables, motors, and transformers. These materials have near 
zero line losses. Mr. Chairman, our distributed energy 
resources portfolio is responsive to our Nation's energy needs.
    Finally, Mr. Chairman, I would like to again highlight our 
budget request. We are requesting almost $277 million, which 
includes a supplement for $39 million which will be submitted 
shortly. And again, we have five areas of priority: bioenergy, 
hydrogen, hydropower, electric energy systems, and the 
Renewable Energy Production Incentive.
    Thank you for the opportunity to appear before you today. 
Thank you for your support in the past, and I look forward to 
responding to your questions.
    [The prepared statement of Dr. Dixon follows:]
    [GRAPHIC] [TIFF OMITTED] T3750A1.515
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.516
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.517
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.518
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.519
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.520
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.521
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.522
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.523
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.524
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.525
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.526
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.527
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.528
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.529
    
                 NUCLEAR ENERGY FY 2002 BUDGET REQUEST

    Mr. Callahan. Mr. Magwood?
    Mr. Magwood. Thank you, Mr. Chairman. I am Bill Magwood. I 
am Director of the Office of Nuclear Energy, Science and 
Technology. I am pleased to appear before you today to discuss 
our Fiscal Year 2002 budget request. I would like to welcome 
you to the energy and water fray. You have come at an opportune 
time, as have the other new members of the committee. Welcome 
to all of you.
    When we met with this subcommittee last year, we said that 
the United States was on the edge of a turnaround in the 
prospects for nuclear energy. At that time, nuclear power 
plants were setting new records in the United States for 
producing inexpensive and reliable electric power. The utility 
industry was moving forward with relicensing its nuclear power 
plants, and utilities were beginning--for the first time in 
many years--to talk about the possibility of building new 
plants in the United States.
    This year evidence of that turnaround is even greater. 
Nuclear power has set even higher generation records than last 
year. Nearly all U.S. nuclear power plants now are expected to 
receive NRC license renewals. The utilities are now actively 
engaged in developing the business case for specific nuclear 
power plant projects. I would expect that next year we will be 
able to report even greater progress.
    It is difficult to measure the degree to which Government 
encouragement fosters this renewed interest. Clearly, industry 
makes its decisions based on business cases, on economics and 
strategic factors, but you cannot underestimate the impact of 
having the Vice President of the United States make the case 
for building new nuclear power plants in this country.
    You also cannot underestimate the impact of renewed Federal 
funding for nuclear research and development. Since our R&D 
budget hit essentially zero in 1998, the Department has 
received slightly more resources each succeeding year, and we 
have spent those resources to support both the near-term and 
long-term interests of the United States for increased power 
production. While our nuclear R&D program is small in 
comparison to other programs, for example, only about one-tenth 
the size of the renewables program, its impact has been huge.

                   NUCLEAR ENERGY RESEARCH INITIATIVE

    At the core of our research activity is the Nuclear Energy 
Research Initiative, NERI. This is an investigator-initiated, 
peer-reviewed research program designed to advance 
revolutionary nuclear power technologies. Initiated in 1999, 
this program signaled the return of the United States to 
nuclear power R&D, a return that reflected lessons learned and 
a new appreciation for applying outside expertise to focus the 
Federal research agenda.
    Today, there are more than 50 research projects underway, 
many representing significant cooperation and collaboration 
among the Nation's universities, laboratories, and the private 
sector. Next week the Department will award 13 new projects 
involving eight universities, eight national laboratories, 
eight private sector organizations, and collaborations with six 
international organizations.

                  GENERATION IV NUCLEAR POWER SYSTEMS

    A major focus of the NERI program this fiscal year and 
next, and an area of growing interest in the U.S. and 
internationally, is the Generation IV nuclear power systems. 
The Generation IV nuclear power systems are those that will be 
competitive with all other energy options and will open the use 
of safe, proliferation resistant nuclear power to more people 
throughout the world. We are currently developing a Generation 
IV technology roadmap to evaluate a variety of advanced nuclear 
energy systems concepts and to define the needed research 
activities for the most promising concepts.
    This roadmap has become a large international project 
involving nearly 150 experts from 10 countries working on many 
technical working groups. We have established a new 
international collective known as the Generation IV 
International Forum, or GIF, through which the United States 
can leverage its expenditures in research and work with other 
nuclear experienced nations to set the goals, establish the 
programs, and collaborate in the research that will lead to 
next generation nuclear power systems. This week we are hosting 
a large meeting in Chicago, bringing all these U.S. and foreign 
scientists together for the first time to coordinate their 
activities.
    The Gen IV goals set very aggressive targets for future 
technologies, such as limiting the need for off-site emergency 
planning, and assuring the economy and proliferation resistance 
of future nuclear technologies. Now international teams, most 
based in the U.S. and a few based overseas, but all under the 
guidance of our Nuclear Energy Research Advisory Committee, 
will evaluate a number of concepts against these Gen IV goals 
and agree upon the technology concepts around which the entire 
international community will rally. The roadmap should be 
completed by the end of next year, and we have requested $4.5 
million in 2002 to complete this work.

               ADVANCED ACCELERATOR APPLICATIONS PROGRAM

    We are also making significant progress in the Advanced 
Accelerator Applications program, the AAA program, defining the 
parameters for a potential project to build the necessary 
facilities and establishing the research to explore the 
transformation of nuclear wastes into less toxic forms of less 
quantity than untreated spent nuclear fuel. International 
collaboration is a fundamental underpinning of this initiative, 
and very shortly the Department will sign an agreement with 
France to share the cost of performing a series of important 
experiments over the next year.
    The French are very interested in discussing a joint 
activity with the United States to build an accelerator-driven 
test facility in the U.S. Should such a project proceed, the 
support of the French, the Swiss, and other countries will be 
essential, as the U.S. is a relative newcomer to this area of 
technology and other countries have made significant progress.
    For this initiative, as well as most other aspects of 
nuclear R&D, the FY 2002 budget reflects a need to pause and 
reflect on the direction of our research. With the entry of a 
new administration, it is appropriate to assess the energy 
needs of the country and consider the DOE's activities in that 
light.
    As you know, the Vice President is leading a task force to 
review these issues. Once these priorities are clearly 
identified, the Department will be in a better position to 
recommend a future direction for its research and request 
appropriate funding for its activities.

                            MEDICAL ISOTOPES

    Another major area of focus for our office is medical 
isotopes. Medical isotopes are a staple of today's advanced 
medical infrastructure. Accurate nuclear medicine diagnoses 
enable physicians and patients to precisely target therapies, 
thus avoiding surgery in many cases.
    Today there are groundbreaking clinical trials underway at 
Memorial Sloan Kettering Cancer Institute in New York, 
demonstrating that alpha-particle-emitting isotopes produced at 
the Oak Ridge National Laboratory may be extremely effective in 
treating leukemia and other serious illnesses. These isotopes 
work well when targeted to cancers because they provide high-
intensity radiation in very short areas.

                  ADVANCED NUCLEAR MEDICINE INITIATIVE

    Our Advanced Nuclear Medicine Initiative, started last 
year, supports research on medical applications of isotopes in 
training in nuclear medicine technologies. Nine research 
projects are underway by universities, hospitals, and national 
labs, and five education grants have been provided to 
universities across the country.

              ADVANCED RADIOISOTOPE POWER SYSTEMS PROGRAM

    The Department also has an essential role in enabling the 
United States to explore space. Our Advanced Radioisotope Power 
Systems program provides critical support to the Nation's 
efforts to better understand the universe in which we live. The 
Department provides power and heat sources to NASA for 
spacecraft, enabling missions to deep space. In 2002, the 
Department is proposing to provide $29 million for this 
activity, the absolute minimum necessary to sustain our unique 
infrastructure and allow us to continue to support NASA and 
also our national security customers.

                NUCLEAR SCIENCE AND ENGINEERING PROGRAMS

    Finally, I would like to inform you of an urgent matter 
that we are now facing. The Nation's universities, which have 
supported nuclear science and engineering programs and research 
reactors for many years, are facing intense pressure. A growing 
number of universities today are contemplating closure of the 
research reactors. These reactors, such as at Cornell and MIT 
and University of Michigan, are a vital part of the Nation's 
nuclear science and technology infrastructure.
    Many of us are concerned that these universities may close 
many of the reactors this year. In response to this, our 
Nuclear Energy Resource Advisory Committee formed a special 
task force to investigate the issue and make recommendations. 
That task force has reported back, and last month recommended 
that the Department provide a near-term influx of funds to keep 
these three facilities at MIT, Cornell, University of Michigan, 
in operation, and set up a longer term structure to assure the 
continued operation of university research reactors in the U.S. 
We are now looking at those recommendations, and we will react 
to them very soon.
    With that, I will end my oral remarks and will be pleased 
to answer any questions you may have.
    [The prepared statement of Mr. Magwood follows:]
    [GRAPHIC] [TIFF OMITTED] T3750A1.530
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.531
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.532
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.533
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.534
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.535
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.536
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.537
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.538
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.539
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.540
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.541
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.542
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.543
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.544
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.545
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.546
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.547
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.548
    
                       NUCLEAR ENERGY R&D FUNDING

    Mr. Callahan. Thank you, Mr. Magwood. Since we let you 
testify last, we will begin questioning you first. Certainly 
your area of jurisdiction and responsibility lies in an area 
that all of America, I think, is looking at at this time in our 
history, and that is the expansion of our nuclear energy 
capacity here in the United States.
    I notice, and I assume you support, the President's request 
when he submitted this budget, but I noted the President has 
cut you about 8 percent at a time when nuclear energy is on the 
tip of the tongue of everyone talking about energy policy, when 
it is the obvious way to expand our capabilities of producing 
our own energy without the continued reliance upon Middle East 
oil.
    I just wonder why you and the Administration would submit 
to the Congress a request for reduction when it is apparent 
that--maybe you know something we do not know--but it seems 
apparent to me that that is the direction we must move towards. 
And so it is confusing to us to hear indications that next week 
Vice President Cheney is going to come out and say that this is 
the way we must proceed, and at the same time you say, ``Give 
us less money to make sure we are doing it right.'' Do you 
support the 8 percent decrease?
    Mr. Magwood. Actually, Mr. Chairman, the decrease in 
nuclear energy R&D funding is significantly larger than 8 
percent. Most of our budget is composed of infrastructure 
requirements, so the 8 percent actually reflects a huge 
decrease in nuclear energy R&D funding levels that we have 
requested.
    I do support the budget we have requested, for the 
following reason: It is appropriate for the new Administration 
to look at the activities that are currently being conducted by 
the Department and other Federal agencies I believe that once 
the new Administration has an opportunity to assess the 
progress we have made over the last few years and look at the 
programs that are in place, we will see more support in future 
budgets.
    I think it makes sense to freeze the new activities. We 
have many new initiatives that were about to be launched, and 
it makes sense to pause and take a look at those initiatives 
and make sure we are moving in the right direction.
    For example, one of the bigger cuts in our budget reflects 
asking for no money for the Advanced Accelerator Applications 
program which was funded at $34 million last year. This year we 
have asked for zero. And I think that before we make a 
commitment to go forward with a program that could eventually 
cost $1 billion or more, it makes sense to stop now, take a 
look, make a policy judgment, and then move forward.
    We are waiting to see what the Vice President's report says 
next week, and if there is support for our activities, then I 
expect that there will be ultimately greater support for 
nuclear energy R&D funding.
    Mr. Callahan. Well, I think that we are where we are today 
simply because of research and scientific testing of the past, 
yet you are requesting a 48 percent reduction in nuclear energy 
research, and telling us that you are facing a crisis in many 
of the universities that will be preparing us for the future 
and even for the current situation, giving us support to make 
certain that when we move in the nuclear power direction, that 
we are doing the right thing or maybe a more cost-effective 
thing. Why would you request a reduction of 48 percent and yet 
express concern about closure of some of these educational 
facilities?
    Mr. Magwood. Once again, all I can say is that I believe 
that what we have done is to continue supporting the research, 
as well as the commitments that we have in place, but we have 
not started new initiatives. We have not started the Advanced 
Accelerator Applications program. We don't plan in 2002 to 
award new Nuclear Energy Research Initiative (NERI) projects. 
We don't plan to expand immediately into a new, larger 
university program.
    I think it makes sense for the new leadership in the 
Department to understand the programs before making commitments 
for the future. As I said, I personally believe that once they 
have had an opportunity to look at these programs and 
understand the impact that they can have, that we will see more 
support in the future.
    Mr. Callahan. Mr. Magwood, then you would not be 
tremendously upset at this Congress if we increased your 
appropriation for these things, would you? I mean, we do not 
want to upset you.
    Mr. Magwood. Well, Mr. Chairman, Congress has increased our 
budget every year for the last three years over the request, 
and I have not thrown a tantrum yet. [Laughter.]
    Mr. Callahan. Dr. Dixon, I feel like I can trust you a 
little bit more because you do have some credentials at Auburn 
University in Alabama.
    Dr. Dixon. Yes, sir.

                              HYDROGEN R&D

    Mr. Callahan. But we had some interesting conversations a 
couple of weeks ago with a European automobile manufacturer 
president, indicating that they were coming out with a 
prototype in 2004 of an automobile that will run on water by 
separating hydrogen from the oxygen. Where are we on that? Are 
we that close to being able to separate and burn the hydrogen 
to create energy? Are we that close?
    Dr. Dixon. Well, Mr. Chairman, I am not fully familiar with 
the example that you cited this morning, but let me try to 
update you on where we are at with the hydrogen R&D program at 
the Department, because we have a robust hydrogen R&D program. 
It has been in operation for about five years, and there are a 
number of R&D activities, including efforts to look at the 
catalysis of water.
    There have been significant breakthroughs using chemical 
means or biological means to break water into hydrogen and 
oxygen, and there have been significant advancements. Whether 
this technology is ready to move in the marketplace is open to 
some debate. There are those who are pressing ahead with the 
technologies; there are those who are taking a more circumspect 
view of these breakthroughs and continue to test in the 
laboratory, to test in the field.
    We look at the hydrogen program as an area of bright 
promise at the Department of Energy. We are looking forward to 
working with Congress in the reauthorization of the Hydrogen 
Act, and look forward to continue to make R&D investments to 
bring a hydrogen-based economy to the American people, whether 
it is applications in automobiles or in homes.
    Mr. Callahan. Well, in discussing this with the automobile 
manufacturers, the president of the automobile company said the 
primary problem was the constant movement of the vehicle, the 
turns. Therefore, you would assume from that, that if that is 
the primary problem, that home usage, if they develop it to the 
point where you could use it to propel an automobile, that home 
usage in a stable position would be the obvious way for us to 
go, to burn water to create electricity in a home. Are we 
anywhere close to that, or is that some science-based theory 
that may or may not work, or will it work?
    Dr. Dixon. Mr. Chairman, we have seen dramatic 
breakthroughs in research and development in the hydrogen field 
in recent years. We have seen significant improvements in the 
efficiency of fuel cell systems. Hydrogen is an opportunity for 
America because there are a number of ways to make the hydrogen 
molecule, and it is a very flexible molecule, and there are a 
number of ways that it can be used in our homes and businesses.
    The difficulty, the R&D barrier as I see it today, is in 
the area of safety and storage of hydrogen, and we continue to 
make investments in this arena. These are priority investments 
in our R&D portfolio and in our 2002 request. I think we need 
to work a little harder, a little bit longer, on how we 
carefully and safely bring hydrogen into homes and businesses. 
As you know, there are questions about hydrogen safety.
    We made great strides in our work, in working with the 
States on codes and regulations. Are we ready to move into the 
home? Yes, there are a few products. We know that there are 
products coming on the market this year. For instance, Coleman 
is coming out with a little fuel cell that you can take out on 
your camping trip.
    So, yes, we are moving forward. Are we ready to go 
commercial on a large scale? We are probably a few years away 
yet, but very promising technology. I understand some of the 
vendors are ready to bring products on the market in the next 
year or two for use in commercial applications. I do not think 
it will be long. If those applications prove fruitful and the 
testing continues to show positive results, then application of 
those technologies in homes cannot be too far away.
    Mr. Callahan. Now, I am excited about it but I do not want 
to get too excited about that possibility of burning water to 
propel your car in lieu of gas, because if I go back to Alabama 
and tell them that we are on the brink of this, it may come out 
in two years that, yes, it will work but you have got to burn 
Perrier water, and we do not want to get into that. [Laughter.]
    But I am excited about that, and I hope that we can make 
some rapid advancements.
    My time is up. We have a vote, Pete. Do you want to go 
ahead and----
    Mr. Visclosky. Shall I go vote and come back, Mr. Chairman?
    Mr. Callahan. Do whatever you want to do. Do you want to go 
vote and come back?
    Mr. Visclosky. Yes, that would be preferable, Mr. Chairman.
    Mr. Callahan. All right. If you will excuse us, we will go 
and then come back.
    [Recess.]
    Mr. Callahan. Mr. Visclosky?
    Mr. Visclosky. Thank you, Mr. Chairman.

                       UNIVERSITY REACTOR SUPPORT

    Mr. Magwood, if I could start with you, at the end of your 
testimony, and the chairman talked about nuclear research as 
well, you talked about the university programs. And in your 
written statement you had indicated that the task force has 
been conducting a review, but it is my understanding that it 
has now reached a conclusion and made a recommendation.
    Let me just stay with that question. I understand that it 
has made a recommendation that at least $750,000 be provided in 
this coming fiscal year, I assume it is the next fiscal year, 
to address the needs of the three universities you mentioned, 
and that would be University of Michigan, MIT, and Cornell. 
Otherwise, it is my understanding their reactors would likely 
be decommissioned and stop operating.
    Mr. Magwood. It is actually this Fiscal Year they have made 
the recommendation to provide that money.
    Mr. Visclosky. Oh, so the $750,000 would be for 2001?
    Mr. Magwood. Yes.
    Mr. Visclosky. Okay. Is that an indication that there would 
be a problem in 2002 as well, then, for funding for university 
reactors?
    Mr. Magwood. I have talked with Mr. Long about that. Mr. 
Long is a former Executive Vice President from GPU Nuclear in 
Pennsylvania, and also was formerly on the staff of the 
University of New Mexico. As a member of the Nuclear Energy 
Research Advisory Committee, he led a three-person, what we 
called the tribunal, to go out to the universities and 
understand the situation, particularly at the three 
universities that thought they might shut their reactors down 
this year. Those three, as I mentioned, are Cornell, MIT, and 
University of Michigan.
    What they have recommended is a two-step process. The first 
step would be to provide an influx of money, $750,000 was what 
they recommended, to those three institutions, to give them 
some support from the government while we formulated a longer 
term strategy. The longer term strategy they have recommended 
would actually require more money in FY 2003.
    What they have suggested is that the Department support, I 
believe, about nine university reactors as national centers. 
Five would be for research and four would be for training, and 
the Department would provide extra resources to those 
facilities.
    Mr. Visclosky. There are more reactors than that now at 
universities.
    Mr. Magwood. There are more reactors than that now, but 
NERAC believes that there is justification for nine reactors to 
receive increased Federal support. The other facilities would 
receive the kind of support we are currently providing for fuel 
and upgrades of equipment, but these nine would receive 
substantially more funding from Government under this proposal. 
This would assure that they stay in operation, because of the 
importance of those particular facilities to the Nation, and 
there would be a peer-reviewed expert process to identify those 
nine facilities.
    Mr. Visclosky. It would not necessarily necessitate the 
closure of those that are not going to receive the additional 
plus-ups?
    Mr. Magwood. It would not.
    Mr. Visclosky. None of those are Notre Dame, by chance, are 
they?
    Mr. Magwood. I am sorry?
    Mr. Visclosky. None of them are Notre Dame, are they?
    Mr. Magwood. Actually there is one at Purdue. [Laughter.]
    Mr. Visclosky. I would express my personal concern, and I 
assume at some point we will see something from the department 
as far as reprogramming or follow-up on the recommendations?
    Mr. Magwood. I am discussing the options with the 
Secretary's staff.
    Mr. Visclosky. I, for one, am very concerned about that, 
and also the implications as far as education.
    I am very pleased, I must tell you, that in 2001 you will 
now fund three minority-majority partnerships, and I am very, 
very pleased about that initiative, and it is my understanding 
that you have enough money in your budget for 2002 to expand 
that partnership to six the next fiscal year.
    Mr. Magwood. I believe that is correct, yes.
    Mr. Visclosky. And there is enough money in your budget to 
continue that particular initiative?
    Mr. Magwood. That is our plan at this time.
    Mr. Visclosky. If I could ask, just out of curiosity, in 
your testimony you also talked about 50 scholarships and 24 
fellowships for 2001 and 2002. Is that an increase over what 
was provided in 2000, do you know? Has that been a static 
number?
    Mr. Magwood. That is pretty much a static number. At one 
point we had a few more than that, but the actual amount of 
dollars that we allocate to the fellowships and scholarships is 
about the same. The number goes up or down somewhat every year 
depending on which university actually is hosting that student 
or students. There are some universities, as you know, that 
cost significantly more to send a graduate student to than 
others, and that actually has a big impact on how many 
fellowships and scholarships in total we can award. But the 
actual dollar level has been constant for the last few years.

                        FAST FLUX TEST FACILITY

    Mr. Visclosky. You now have a 90-day suspension on the Fast 
Flux Test Facility, as I understand it, and there is going to 
be another. My sense is, that is not the first review or even 
the second review. What new information do you believe is going 
to be provided by another review relative to the operation of 
the Fast Flux? Or whoever would want to respond to that.
    Mr. Magwood. I turn to Dr. Decker.
    Mr. Visclosky. You want Dr. Decker to answer?
    Mr. Magwood. Dr. Decker has asked that I continue to answer 
the question. [Laughter.]
    Mr. Visclosky. I am on a roll.
    Mr. Magwood. In December, Secretary Richardson decided that 
we should provide, as part of the final programmatic 
environmental impact statement, a preferred alternative of 
shutting down the FFTF, and at that time there were several 
things that we did not know that we know now.
    One, for example, is that we did not know that the pace of 
the use of medical isotopes in the United States has actually 
increased faster than our initial projections. We had projected 
an increase of about, as I recall, 8 to 16 percent increased 
used for therapeutic isotopes each year for the next 20 years. 
And I am told by experts outside the Department that the pace 
is actually significantly larger than that. I do not know what 
the number is, but they tell me it is significantly larger. 
There is a new independent consultant report that is available.
    Mr. Visclosky. So there are some changes, and when do you 
anticipate that review----
    Mr. Magwood. It is a 90-day review. I may have to defer to 
Dr. Decker. I do not know if there is an exact target date at 
this point, but the 90-day clock, my understanding is that it 
started about a week or so ago.
    Mr. Visclosky. In the early fall, then?
    Mr. Magwood. Probably by the end of summer.

                        NUCLEAR ENERGY PROGRAMS

    Mr. Visclosky. One last observation I guess I would make 
is, in one of the written testimonies there was a statement 
relative to the Nuclear Energy Research Initiative that was 
reduced significantly in the 2002 request, I believe by almost 
half. And the statement was that this decision was made in 
order not to prejudice the decisions of the Cheney task force 
that is going to be issuing their report.
    And if I could kind of follow up, I guess, on the 
chairman's observations, on the Fast Flux reactor, it was even-
funded. On university reactors, and I am concerned about the 
funding level there, it was even-funded. And I think those 
types of decisions may give you some flexibility, but where you 
take a figure for the Nuclear Energy Research Initiative from 
34 to 18, when you reduce the Nuclear Energy Optimization 
Program, you have nuclear energy science and technology reduced 
by $22 million, I am very concerned about that, very concerned. 
I would just make that statement for the record, if I could.
    Mr. Chairman, with that, I yield back.
    Mr. Callahan. Mr. Frelinghuysen?

                 SCIENCE IN THE NATIONAL ENERGY POLICY

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I have a couple 
of general questions that I guess would go to Dr. Decker.
    For somebody in California there is an immediate energy 
crisis. They are living with it every day. But a lot of what 
you do and do well, actually all of you gentlemen do well, is 
in terms of basic research. I know this committee has been 
supportive of research, and in certain areas I have professed 
more interest in than others. But sometimes it is difficult to 
make a case for the long-term investment, given, shall we say, 
the crisis we appear to be in. And certainly if you come from 
California, there is one.
    I was just wondering, Dr. Decker, since the President is 
about to roll out his national energy policy, I would assume 
some portion of it would be devoted to the need for long-term 
investments, which is really your area of expertise and 
responsibility. I was wondering if you could, in just a few 
minutes, if you could make to this lay person a basic case, a 
best case for why such research should fit in a national 
comprehensive policy? I can make it as a lay person, but I was 
just wondering if you could talk about that part of the overall 
equation. People are looking for quick fixes, but in reality 
this committee has made some long-term investments which are 
very important. How do you sort of make that case for the 
public, that those, these investments need to continue?
    Dr. Decker. Sometimes that is not an easy question or an 
easy case to make. I think that, as you said, when people are 
looking for short-term fixes, it is hard to make the arguments 
to make investments in things that may not pay off for 10 years 
or 20 years.
    I think the best case that one can make is to sort of look 
back at the investments that have been made in the past and see 
how they have paid off. I mean, our economy that has been so 
strong certainly has been driven, I think to a large extent, by 
the investments in long-term research by the Federal 
Government. And I think that is probably the strongest case one 
can make, is really a retrospective look at the payoffs of 
basic research in the past.
    Mr. Frelinghuysen. I think, I hope it will be well-
articulated in what the President is about to lay out for us. 
And the second general question is, and maybe I have been 
listening to Dan Goldin lately, I certainly promote the work of 
physicists, but he makes the point sometimes on his bully 
pulpit that there needs to be more work in terms of 
relationships between biologists and physicists, and 
interactions between some of our brightest and best. As I look 
over a lot of the work of the labs here, and I am supportive of 
that work, do these great, giant intellects in these programs 
talk to one another?
    Dr. Decker. Yes, I think that is truly one of the strengths 
of especially the Department of Energy's laboratories. The 
thing that the laboratories really bring to the table, at least 
one of the things, is their ability to put together 
interdisciplinary teams to tackle really complex problems.
    And that is certainly why I think the Department is well-
positioned to take on the new initiative that I described, 
``Genomes to Life,'' because it really will require not just 
biologists but physicists and chemists and computational 
scientists working together to solve a very complex problem, 
and it will take our large facilities----
    Mr. Frelinghuysen. But direction from above somewhat 
mandates that. I mean, it is occurring?
    Dr. Decker. Yes.
    Mr. Frelinghuysen. I mean, everybody has a right to a 
degree of selfishness in terms of their professional work, and 
I understand the nature of this business is that people often 
share their work, with other physicists around the world, and 
they can sort of see on a day-to-day basis how things are 
rolling out and progressing. But I just wondered whether, in 
the scheme of things, biologists are talking to physicists, and 
whether that is actually occurring.
    Dr. Decker. I think certainly that is more and more the 
case today than it was maybe 15 years ago. I mean, you see more 
and more the impact of physics and chemistry, the physical 
sciences, on progress in biology and life sciences.

                         FUSION ENERGY SCIENCE

    Mr. Frelinghuysen. As you know, I am an advocate for 
fusion. I have worked pretty closely with the Princeton Plasma 
Physics Lab in New Jersey, which is the only single program 
national lab devoted to fusion energy science. We are trying to 
get more money for the program. Some have advocated perhaps a 
budget of $300 million per year. Do you think that level of 
funding could be put to good use? And could you comment briefly 
on the whole issue of the decommissioning of the Tokamak at 
Princeton?
    Dr. Decker. Yes. In fact, let me take the decommissioning 
question first. Decommissioning is certainly supported in the 
2002 budget request. It should be completed by the end of 2002, 
so we are very, very pleased at the way that has gone. It has 
gone very much on schedule and on budget.
    I am sorry. Now I am trying to remember the other part of 
your question.
    Mr. Frelinghuysen. The additional money.
    Dr. Decker. The additional money, yes. I think in all of 
these research programs, certainly one measure of whether or 
not they are robust programs or can additional money be used 
effectively is, are there scientific opportunities? Is there 
good science to be done that is not currently being funded? And 
the answer is, I think in the fusion program that is the case.
    Mr. Frelinghuysen. So to answer my question, the money 
could be put to use, good use?
    Dr. Decker. Yes, there is good science to be done. Yes.
    Mr. Frelinghuysen. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Edwards?
    Mr. Edwards. Thank you, Mr. Chairman.
    Thank you for the work that you all do. I came to Congress 
as a young aide working for a fellow that chaired the Science 
and Technology Committee named ``Tiger'' Teague, back in the 
'70s, and he certainly made me a believer in the importance of 
the Federal Government investing in research for payoffs, 
whether it is 2 or whether it is 20 or 30 years down the line.
    I know you are in a difficult situation. This is 
reminiscent of Army generals coming before congressional 
committees over the last eight years, saying, ``Yes, we are 
thrilled with our budget, and we can do everything we need to 
do with it,'' when we all knew that if they could speak totally 
openly, without pressure from OMB, they would say, ``Yes, we do 
have needs and we could spend more money.'' So I do not intend 
to try to criticize any of you personally.

                            RENEWABLE ENERGY

    But, Dr. Dixon, if I could just play off one of your 
comments, where you said we are facing a severe national energy 
crisis, I hope FEMA never takes the approach ``we are facing 
severe floods, hurricanes, tornadoes, so let us cut our budget 
by 26 to 50 percent to deal with this crisis.'' I read of such 
cuts in your own report of budget highlights, let us just go 
directly to some of these cuts.
    While the overall cuts are 26 percent when you say we have 
an energy crisis, which we all agree with, I read your comments 
about the geothermal program. The goal would be to help provide 
heat and electrical power to 5 million homes and businesses by 
2015. That budget is cut by 50 percent. So are energy 
technologies.
    ``Solar systems increase customer energy choices, can 
reduce energy price volatility, emit virtually no harmful 
emissions, and can reduce dependence on foreign fuel 
supplies.'' That is cut by 86 percent in the concentrating 
solar power program, 48 percent in photovoltaic energy. Solar 
building research, cut by 49 percent.
    Go down to wind energy, and your budget booklet says that 
one of the goals of the program includes developing lower wind 
speed turbines that will expand twenty-fold the viable areas 
for cost-competitive wind energy production. I look at the 
budget, a cut of 48 percent.
    It just doesn't make sense to be describing our energy 
situation as a crisis, and then describe the positive benefits 
of these programs, and then say, you know, while we are 
studying what works and does not work, let us just take a meat 
axe approach and cut these programs from 48 to 50 to 86 
percent.

                             NUCLEAR POWER

    Mr. Magwood, on nuclear energy, I will just say I am a real 
believer in nuclear power. I think it is clean. I think it is 
proven to be safe, and I think it is a great energy source for 
the future. And yet the message it sends out to young students 
thinking about being nuclear engineers, at a time you already 
admit we have a crisis, to be cutting nuclear energy research 
by a dramatic proportion just I think sends a terrible message.
    You know, I am not going to ask you to respond to all that. 
I think we know what has happened over a series of briefings, 
the same thing that happens in every administration. OMB tells 
you some numbers you have got to fit your budget into. You do 
the best you can with those limited resources. But, honestly, 
we all know this is not a very effective way to deal with the 
crisis.
    My question to all of you, if you could respond in writing, 
would be if we don't increase these projected budgets by a 
cent, how many people at the Department of Energy under your 
programs will be laid off? And if you can give any other 
specificity, other than what is already in your budget book, as 
to for example what types of nuclear research will not be 
funded as a result of this level of budget proposals, I would 
appreciate that very much.
    And finally, Mr. Magwood, one specific question to you. I 
met with some folks in the nuclear power industry the other 
day, and they admitted great concern about the shortage of 
scientists, nuclear scientists and engineers in the United 
States. We also have, another part of our responsibility in 
this subcommittee, have concerns about Russian scientists and 
nuclear engineers that are not getting paid and could be 
offered attractive jobs in Libya and Iran, Iraq.
    Is there anything we can work together on to try to make it 
easier for the United States to provide immigration for Russian 
nuclear scientists and engineers? GE has brought over I think 
260 Russian nuclear engineers and scientists. I am sure other 
companies have done some, but they say it is extremely 
difficult.
    Do you have any specific ideas? Maybe it is dealing with 
immigration policy. Maybe it is something we can all do 
together. Anything we could do? I think that is a win-win. It 
helps our nuclear industry, and it also helps employ people who 
otherwise might be attracted to go to Libya or Iran or Iraq or 
North Korea to build nuclear missiles. So any thoughts on that, 
what we could do together?
    Mr. Magwood. I really am not aware of any specific, special 
issues regarding Russian scientists emigrating to the United 
States. What I am aware of, is a real interest in the 
Department and the Administration to look at ways of giving 
those scientists more beneficial activities to do in Russia.
    For example, an activity the Department currently is 
funding is developing a gas-cooled reactor, using Russian 
scientists, in cooperation with France and Japan. That 
initiative has employed, my understanding, a few hundred 
scientists for the last few years, doing extremely good work 
for a relatively small amount of money.
    That is an example of the sorts of things that can be done. 
I think that there are very good scientists in Russia. I think 
they would like to do meaningful work, and I think that with 
some help they can probably be applied to do some things on 
some of our activities. It is certainly something we should 
look at.
    Mr. Edwards. Very good. Thank you, Mr. Chairman. Thank you, 
Mr. Magwood.
    Mr. Callahan. Zack, just let me, before you go, let me 
follow up on Chet's comments.
    I do not want to hear from any university or college in 
this country that the reason you cannot grant them additional 
research monies or new research monies is because Congress cut 
your budget. Do not let me hear that from anybody, from any of 
your staffs, that you are transmitting that message to these 
universities. Because if you do, then next year we are going to 
give you the right to say that. So do not say that.
    We are going to try to pump up your facilities and your 
capabilities, but I do not want to hear one member of your 
staff or any of you tell anybody at any university that the 
reason we cannot continue your program or the reason we cannot 
grant you a grant to do your program is because Congress cut 
your monies. You tell them, ``We went to Congress and we 
requested a cut.'' Do not let me hear that, or there will be 
consequences to pay.
    Mr. Wamp?
    Mr. Wamp. I think I will start by saying, ``Amen, 
Brother.'' [Laughter.]

                       SPALLATION NEUTRON SOURCE

    Dr. Decker, let me start with the Spallation Neutron 
Source. You gave us a report that it is 20 percent complete, it 
is on time, it is on budget, management reviews are positive to 
date. We all know that a year and a half ago this project 
needed improved management. That has taken place. We are very 
positive about the consortium. It is a five-laboratory 
consortium.
    The actual construction is underway in my district in east 
Tennessee, and I have been there and seen the massive scope of 
it. As a matter of fact, I would encourage the Subcommittee, 
since this is the largest single project under construction 
through the Office of Science at the Department of Energy right 
now in the country, to come and see it.
    As a matter of fact, I asked Jeanne Wilson, Mr. Chairman, 
if they were saving that space right there on the wall for the 
Spallation Neutron Source when we had a prototype model of it, 
and she said, ``Not unless your name is Chairman Callahan.'' 
[Laughter.]
    Actually, the Spallation Neutron Source will be probably 
pretty old before it makes its way to that wall. But anyway, I 
will just persevere.
    I would ask, there have been a few changes since you last 
appeared and talked to us about the Spallation Neutron Source. 
I just want to ask about the team and the consortium and how 
that is coming, and then about the fact that there are fewer 
scientific instruments now needed in the actual project, and 
how that has affected the progress that we are making as we 
seek to build this very important neutron facility for our 
country. Dr. Decker?
    Dr. Decker. Thank you. As I indicated, we are very pleased 
with the fact that the project is on cost and schedule. The 
management team is doing a good job. We had a significant 
change in the management at the top of the project. Dr. 
Moncton, who was the head of the project, decided to return to 
the Argonne National Laboratory, and Tom Mason has replaced 
him. Tom, quite experienced, was already involved in the 
project. His piece of the project, which was the targets and 
instrumentation, was doing very well, and he has stepped up and 
he is doing a terrific job.
    As far as the consortium that you referenced of the 
laboratories building this project, each piece of this project 
is now in good shape, as I understand. Each of the partners is 
pulling their weight. So we are very pleased that that all 
seems to be working well.
    You mentioned the instruments. When the project was first 
conceived, the instruments that were envisioned at that time 
were of the type that were sort of in use at that point in 
time. New instruments have evolved since, and so we have chosen 
to build more advanced instruments and probably can afford 
fewer of them than was originally conceived.
    But the scientific throughput from those new instruments 
will certainly be equal to or better than from the original 
instruments that we had planned for. So the instruments I think 
are coming along very well, but we are on a slightly different 
course than originally planned.

                              MOUSE HOUSE

    Mr. Wamp. Let me switch gears, Dr. Decker, switch gears 
over to the Comparative and Functional Genomics facility at the 
Oak Ridge National Laboratory, which is commonly known as the 
``Mouse House.'' And we know about the Human Genome Project and 
the necessary research all across the country that brings that 
applied technology to the marketplace. There is a lot of 
interest in it.
    We have that facility under construction now, and the total 
cost is $14 million. I understand that if we did fully fund the 
rest of the construction in the coming fiscal year, FY 2002, 
there would actually be a savings as opposed to funding some of 
that, a very, very small portion of it, in the next fiscal 
year. Explain why that works and how that works.
    Dr. Decker. If I remember correctly, in the present plan 
there is $1.4 million remaining on the construction project in 
2003. If that money were available in 2002, it probably would 
allow completion of the facility a few months earlier. I do not 
know the exact figures, but yes, it probably would have some 
payoff.

                              NANOSCIENCE

    Mr. Wamp. One final question. On nanoscience, explain how 
the nanoscience research through the Office of Science at the 
Department of Energy would differ from what happens at the 
National Science Foundation, and why there would be a need for 
both.
    Dr. Decker. I think this started out as a multiagency 
initiative. Each agency brings certain strengths to a program 
like this. Each agency has a slightly different focus.
    I mean, our focus in the Department of Energy comes from 
our mission associated with energy and environment, etcetera, 
and so our focus in the nanoscience and technology area is on 
those things that are of benefit to the department's mission. 
So that is somewhat different than the focus, of course, of the 
National Science Foundation. Their focus is science for the 
sake of knowledge and science, and not related to a particular 
mission.
    Mr. Wamp. Mr. Chairman, I want to point out that Kevin Cook 
has been to Oak Ridge already and observed all these major 
investments that the Federal Government is making. I appreciate 
his leadership from a staff perspective. And I yield back the 
balance of my time.
    Mr. Callahan. And the Chairman is going to visit the Oak 
Ridge facilities in the near future, too.
    Mrs. Roybal-Allard?
    Mrs. Roybal-Allard. Thank you, Mr. Chairman.
    Dr. Decker, as I was reading through all this, the 
information, one of the things that caught my attention was 
your testimony about the science at the nanoscale. And I 
understand that Lawrence Berkeley Lab in California is going to 
play a very important role in that research.
    Your testimony mentions the benefits of nanoscale research 
in DOE's missions in science, energy, defense, and the 
environment. Could you describe for me in just a bit more 
detail the work that is contemplated in this field, and what 
your research priorities are, and how it is reflected in your 
budget? Because I could not find it specifically in the budget.
    Dr. Decker. Yes, thank you. First of all, this is a very 
exciting area of science. The science of materials at the 
nanoscale, from 1 to 100 nanometers in dimensions, is very, 
very different than the science of materials, the properties of 
materials that one finds in bulk. And the focus of our program 
really is trying to understand the very different physical 
effects that occur, chemical effects that occur on this very 
small scale, which is really about a thousandth to a ten 
thousandth of the diameter of a human hair. We are really 
talking about things at a very, very small scale.
    A laboratory like Berkeley, that you mentioned, has some 
very, very good capabilities through past investments to 
significantly contribute to research in this area. It has 
facilities such as the synchrotron light source there. It has 
electron microscope facilities which are going to be very, very 
important to characterize these nanostructures, these 
materials, at this very small scale.
    There are some very interesting results that have already 
come out of this. For example, it has been discovered you can 
add nanocrystals of aluminum oxide to aluminum and get a 
surface hardening which is equal to the best steel bearing 
material. It is a remarkable change in the properties from 
aluminum, just through that addition of nanocrystals.
    Mrs. Roybal-Allard. I guess what I am trying to focus on 
and trying to understand a little bit better is how does this 
relate to people, you know, in everyday terms, to my 
constituents? And I just happen to have this ``Molecular 
Foundry: Crucible for the Nanoage,'' and it talks here 
something about bioelectronic implants. Could you kind of put 
it in the context, for example, of maybe health, in the health 
field, how this would help people in the health field?
    Dr. Decker. We are not really focused in the Department of 
Energy so much on the health applications of nanoscience. Some 
of the other agencies are more focused on that. But let me give 
you an example. I did give you one example in the materials 
area where one would have a very lightweight material with very 
hard surface properties, which will certainly be of use perhaps 
in vehicles and other things.
    Certainly other areas that we envision nanoscience will 
have impact are in the conversion of sunlight to electrical 
energy. There are ways in which nanolayered materials can be 
made to have much higher efficiencies. Another area which is 
almost kind of the reverse is the use of nanolayered materials 
to produce light from electricity at lower power levels. So I 
think certainly one can see down the road some significant 
impacts in the energy efficiency area.
    Mrs. Roybal-Allard. And going back to my original question, 
where is that reflected in your budget? I could not find it 
under ``nanoscience,'' and I was just wondering if it was under 
a different heading in terms of them money for the support of 
this research.
    Dr. Decker. And I am not sure where all that was described. 
I just do not have the document in my head.
    Mrs. Roybal-Allard. Okay. If you could get that information 
to me later?
    Dr. Decker. Sure. I will be glad to.
    [The information follows:]

                           Nanoscience Budget

    The request for nanoscience is contained in the ``Science'' 
section of the DOE budget, Volume 4, in the Basic Energy 
Sciences program. Except for the data sheet on Project 
engineeringand Design (PED), various locations (project number 
02-SC-002 on page 533), the research funding is budgeted within 
the materials, chemical, and engineering activities. Since 
there is no increase for nanoscale research from FY 2001 to FY 
2002, the only increase is described in the PED data sheet.

    Mrs. Roybal-Allard. It is my understanding that you have a 
wide variety of research underway at Lawrence Berkeley and 
Lawrence Livermore National Laboratories, such as advanced 
computational scientific research, basic energy sciences, 
fusion energy, and high-energy physics. As a new member of this 
committee, it has been difficult for me to sort out all these 
various missions.
    For example, you have an increase for biological 
environmental research at Lawrence Livermore, and a significant 
cut in the same account at Lawrence Berkeley. Could you explain 
to me your funding request in this area?
    Dr. Decker. I would have to supply the rationale for that 
particular cut for the record. I am not sure what it is. I am 
not sure what affected that.
    [The information follows:]

             Biological and Environmental Research Program

    The Biological and Environmental Research program conducts 
a broad range of fundamental research at Lawrence Berkeley and 
Lawrence Livermore National Laboratories, including human and 
microbial genomics, global climate change, and environmental 
remediation. Both laboratories play essential roles in the 
program's Joint Genome Institute, which helped sequence the 
Human genome.
    At Lawrence Livermore the research on DNA sequencing of 
microbes that sequester carbon is increasing. Furthermore, the 
Laboratory's responsibilities at the Joint Genome are 
increasing.
    At Lawrence Berkeley the program is completing several 
projects and others are up for renewal, re-competition, and 
peer review. For example, the DNA Repair Protein Complex 
Beamline at the Advanced Light Source was a one-time project 
funded in FY 2001, equipment purchases for genomics have been 
completed and projected equipment needs for FY 2002 are under 
review. Research activities in structural genomics, low dose 
radiation, and global change have been completed. The 
Laboratory will also have the opportunity for funding in the 
Genomes to Life program in FY 2002. I anticipate that Lawrence 
Berkeley will be a strong competitor. The laboratory currently 
has a large number of proposals pending peer review in a number 
of program areas including low dose radiation, microbial 
genome, and the Microbial Cell Project.

    Mrs. Roybal-Allard. Now, are these programs, are they 
integrated with research programs for, for example, nuclear 
weapons? Are they segregated? Do the science teams overlap? 
Could that be one of the reasons for the cut?
    Dr. Decker. No. Of course, Lawrence Berkeley Laboratory 
does not do any work on nuclear weapons. That is only at the 
Lawrence Livermore Laboratory.
    Mrs. Roybal-Allard. So then you will get the information, 
then, as to why you have a cut in one and----
    Dr. Decker. Yes. I think the answer is, and again I will 
supply the correct answer for the record, but I believe that 
some of the money for a program at Berkeley was set aside 
because there is going to be a competition for some new work 
for which they would be one of the competitors. So they have an 
opportunity to gain that money back, or perhaps additional 
money.

                   STANFORD LINEAR ACCELERATOR CENTER

    Mrs. Roybal-Allard. I just have one more question dealing 
with the Stanford Linear Accelerator Center. Could you describe 
for me a little bit of the work that is accomplished there?
    Dr. Decker. There are two facilities at the Stanford Linear 
Accelerator Center. There is a synchrotron light source which 
is used for a wide variety of research, from materials to 
chemistry to work in the life sciences. What that facility does 
is provide a very intense beam of light which is in the range 
of wavelengths I think going up into the x-ray region, and it 
is used to probe materials and learn about their structure.
    The other major facility there is the B Factory and the 
work at the B Factory is in the high-energy physics area. It is 
designed to look at a particular aspect, a sort of esoteric 
aspect of the nature of matter and antimatter. It is getting at 
a problem which in the technical jargon is called C-P 
violation, but it is tied to this issue of why it is when the 
universe was formed, where one would expect that there was an 
equal amount of matter and antimatter produced at that instant, 
that somehow there was a asymmetry that caused matter to 
survive more than antimatter. And the universe as we know it 
today is made up of matter, and we do not find much antimatter.
    Mrs. Roybal-Allard. Thank you.
    Mr. Chairman, thank you.
    Mr. Callahan. Mrs. Emerson?

              DEPLOYMENT OF RENEWABLE ENERGY TECHNOLOGIES

    Mrs. Emerson. Thanks, Mr. Chairman.
    I come from a very rural district, so I think I am going to 
switch the subject to renewables, and something that I think I 
might understand a little better as a new member of the 
Committee, although I am learning very quickly here from my 
colleague, Mr. Wamp.
    I suppose, too, my questions probably should go to you, Dr. 
Dixon, and particularly because we always have these fights 
about the issue of renewable energy because of the high cost, 
and we might have to subsidize certain things such as ethanol, 
but on the other hand we all know that renewable energy sources 
are a viable alternative source of energy. But I really want to 
move these technologies from in the lab to out in the field, 
and I want an assessment from you of what are we doing in terms 
of moving toward the deployment or more rapid deployment of 
those technologies in a more affordable way.
    Dr. Dixon. Thank you, Mrs. Emerson. I will be glad to 
respond to your question. Let me pick two or three examples, 
and we can explore from there. Let us begin with wind energy. 
We have a good wind resource in Missouri, being one of the 
native sons there.
    We indeed have seen great strides in the movement of the 
technology from the laboratory, from the DOE complex, with our 
private sector partners, into the private sector. We have seen 
an enormous growth of wind energy in the U.S. and worldwide. 
Worldwide, we are going to see about 17,000 megawatts installed 
around the world, with most of the leadership in Europe and 
here in North America. The amount of wind power in America will 
double by the end of this calendar year or next calendar year. 
So the technology is moving out of the labs, the improved 
designs of the technology. In partnership with the private 
sector, we have seen great strides in the deployment of wind 
energy across America.
    In the area of solar energy technologies, we have five 
major manufacturers in American in the photovoltaic industry, 
and we have seen dramatic growth in their production of photo 
cells across the U.S., in these five major manufacturers, 
growth of 20, 30, 40 percent a year. So the R&D investments 
made by this committee over the past 20 years have made a 
significant difference in the growth of this industry, because 
we have worked very closely with the private sector in cost-
shared R&D programs to see this rapid growth in the production 
of PV cells. We are at a point in time now where we are 
probably not able to supply what we need in the western U.S. 
because of the electricity crisis.
    Another area of great potential would include the 
opportunities in geothermal or bioenergy, bioenergy in your 
home State of Missouri. We are seeing an era of time, with the 
Biomass R&D Act of 2000, where in fact we are seeing the 
bioenergy industry come together, and there are opportunities 
to build upon the good work done across the DOE complex, the 
understanding of the resource, how to handle it and how to 
convert it to energy. And now we are seeing field tests across 
America to move this technology, again, out of the labs, into 
the hands of rural America, and provide a cost-effective 
resource, a resource which does not damage the environment and 
is renewable and can be sustained.

                      INVESTMENT IN RENEWABLE R&D

    Mrs. Emerson. Well, then, I am glad to hear all of that, 
but I am looking at the budget. And I will start with solar 
because you ended with solar, and obviously the budget is 
substantially reduced in that particular area. I do not know if 
it is being made up in a different agency, but if in fact we 
have made great progress on R&D, I mean, are we ready now for 
deployment rather than spending the investment, making the 
investment in R&D? Is that why you have cut the budget so much 
in that particular area? I am very interested to know.
    Dr. Dixon. Well, let us take the solar energy technologies 
account specifically. Over the last 20 years, this committee 
has invested over $1 billion in concentrating solar power R&D 
activities, concentrating solar power to harvesting the sun's 
energy and providing heat and power to the American people.
    That technology has moved from the laboratory, it has moved 
from field test, and it is now being developed in commercial 
applications. It is commercially viable here in North America, 
providing electricity for about 6 cents a kilowatt hour in 
California, and we are seeing an expansion of the technology in 
Spain and in Egypt and Morocco.
    So it has moved from the laboratory to the marketplace, and 
therefore our investments in power towers and the dishes 
associated with this technology, we are ramping down, 
appropriately so, because we have handed it off to the private 
sector.
    Mrs. Emerson. Okay, so in other words there really isn't 
that much new type of research that needs to be done. We pretty 
much have reached the optimum level?
    Dr. Dixon. With regard to the concentrating solar power, we 
call them power towers, yes, that is an area that we have 
invested in heavily and we have seen some successes.

                                BIOFUELS

    Mrs. Emerson. You know, also in reading your testimony I 
noticed a lot of reference to ethanol but nothing with regard 
to soy diesel, for example, and the conversion of soybeans into 
diesel and other synthetic type of resins. They wouldn't be 
synthetic, but other resins and coatings, a lot of which have 
been researched at the University of Missouri-Rolla in my 
district. And I am quite impressed with the work that they have 
done, that has not cost a lot of money. And quite frankly, to 
make a refinery, if you will, for the production of soy diesel 
is not a very costly effort.
    The only thing that does concern me is how the government 
perceives the concept, or what do you all think of the concept 
of building these types of refineries, and is there a real 
future, at least in your mind, of increasing the use of these 
fuels as a replacement for oil?
    Dr. Dixon. Well, yes, we see a bright future for biofuels, 
and that is why we are asking for $82 million from the 
committee to continue investments in this area. There are a 
number of opportunities in the bioenergy arena--biofuels, 
biopower, bio products--and we think that further investments 
are needed in this arena. In fact, there need to be investments 
in the basic chemistry and understanding of these molecules at 
the laboratories and research programs at University of 
Missouri and other places. At the same time, there are certain 
areas that we believe are right for field testing or building 
prototypes, and we are making investments in those areas.
    Mrs. Emerson. But you still cut the budget from last year.

                            BUDGET AMENDMENT

    Dr. Dixon. With the budget amendments of $39 million to the 
original request, I believe the biomass/biofuels energy 
systems, our request is almost $82 million. We are almost 
level-funded, but you are right, there is a slight cut.

                 DOE-AGRICULTURE COOPERATION ON BIOMASS

    Mrs. Emerson. From $86 million to $68 million. Now let me 
ask you something else. Do you all coordinate on these research 
projects, particularly with regard to the use of agricultural 
commodities, with the USDA, for example, in the work that they 
are doing there, so that everybody complements one another? Or 
are we having duplicative work done?
    Dr. Dixon. Well, under the Biomass R&D Act of 2000, we are 
directed to work with, in cooperation with the Department of 
Agriculture and other agencies which have jurisdiction over 
bioenergy issues. We are neighbors, as you know, right next 
door. The Department of Energy, Department of Agriculture, work 
very closely. We have coordinating committees, coordinating 
councils, technical advisory panels that are all co-managed and 
coordinated with the Department of Agriculture.
    Mrs. Emerson. Okay, so the answer is yes?
    Dr. Dixon. Yes.
    Mrs. Emerson. At first I wasn't sure if you were going to 
answer the question yes or no. So I appreciate that, and would 
also hope that, Mr. Chairman, we can find some way to perhaps 
ramp up this line item on the budget. Thank you very much.
    Mr. Callahan. Mr. Doolittle?

                            BUDGET AMENDMENT

    Mr. Doolittle. Thank you, Mr. Chairman.
    I am sorry I missed the testimony at the beginning, and 
this was probably explained, but I am looking at page 3 on Dr. 
Dixon's testimony under hydropower, and looking at the first 
column, the FY 2001 comparable, and then the FY 2002 request. 
Then it refers to an amendment, and you end up with the last 
column request for the amendment is the same as the FY 2001 
comparable. Is that just a coincidence, or can you explain that 
to me?
    Dr. Dixon. The amendment is finding its way to Congress 
with the full explanation. We understand it is on its way from 
OMB to Congress with the full background and data and the 
history of the amendment.
    The hope is to in fact continue to make investments in 
hydropower research, and to continue to develop fish-friendly 
turbines, which of course are a very important tool in managing 
the hydropower sector in the Pacific Northwest, the trade-offs 
between managing the fisheries, providing adequate electricity 
in a time of crisis. And developing the next generation of 
turbines, fish-friendly turbines as we refer to them at the 
department, is a priority for us.

                         FISH-FRIENDLY TURBINE

    Mr. Doolittle. Well, I am very pleased to hear that that is 
being increased. Explain to me, what is a fish-friendly 
turbine? How does that work?
    Dr. Dixon. Thank you, Mr. Doolittle. The fish-friendly 
turbine is a turbine which in fact will not kill or damage the 
fish as they pass through the hydropower complex. And it turns 
out that in fact the older generations of turbines, because of 
the pressures and the turbulence involved with going through 
the turbine itself, actually stun the fish. It does not 
actually normally kill them. Most of the time the fish are 
stunned. As they end up at the bottom of the spillway or in the 
water, in fact because they are stunned, they are easily eaten 
by other predators. So we are looking to in fact develop 
turbines which result in fish passing through the hydropower 
complex, in which the fish are not stunned and not killed.
    Mr. Doolittle. Have you to date had some reason to believe 
that this is relatively easy to accomplish?
    Dr. Dixon. The investments in the fish-friendly turbines 
have been taken over the past 5 or 10 years. Development of a 
turbine has made good progress. The delicate part, frankly, is 
the installation of the turbines in field tests and then to 
actually test them using very solid scientific criteria.
    We have actually developed what we affectionately call the 
``crash dummy fish'' that will actually go through the fish 
turbines. We are able to measure the pressures, the turbulence, 
the impacts on the anatomy, the physiology of the fish, and to 
do this in a rigorous way requires thorough testing and 
thorough documentation. We have developed this technology, and 
field testing is underway.
    Mr. Doolittle. So would it be your plan to actually replace 
the turbine at one of the dams with one of these, to test it 
out? I mean, is that part of the program.
    Dr. Dixon. It is eventually part of the program. This 
activity is co-managed and coordinated with those other Federal 
agencies which have jurisdiction over hydropower projects, both 
in the Pacific Northwest as well as the Southeastern U.S.

                      DISTRIBUTED ENERGY RESOURCES

    Mr. Doolittle. You used a term in here, I am trying to find 
it, something about distributed energy resources, I think. 
Anyway, my question, I do not know if I have used the right 
term, but I wondered what that was. Here it is. Distributed 
power generation, I guess. What is that?
    Dr. Dixon. Mr. Doolittle, it is a term that refers to 
generation of power on site, whether it is power generation to 
support an individual home or a building or a campus. And as we 
have seen problems with the overall electricity grid across 
America, we are looking for ways to provide highly reliable 
power, provide it on site, high quality power, without causing 
any environmental damage, and doing it efficiently, we are 
developing a new portfolio of technologies called distributed 
energy resources.
    The current electricity grid in America is many, many 
decades old. The transformers, the transmission and 
distribution lines, the circuit breakers, in my earlier 
testimony I believe over 75 percent are over 25 years old. So 
we are looking to upgrade and improve this infrastructure, and 
one of the most efficient ways of doing so, both 
technologically as well as economically, is to bring power 
generation closer to the consumer.
    And we work with microturbines, with fuel cells, 
reciprocating engines, and smart controls. Using some of Dr. 
Decker's nanotechnologies, we are able to develop smart control 
systems to make all these pieces, both the power generation as 
well as the energy efficiency technologies that we have, all 
work together and all talk together in smart systems for the 
future.

                          FUEL CELL TECHNOLOGY

    Mr. Doolittle. I read in, I think it was in Popular 
Science, an article that said that within 10 years new 
construction would include fuel cells in homes. Do you agree 
with that?
    Dr. Dixon. Fuel cell technology is promising, and this 
Committee and the department have made significant investments 
in fuel cell technology. In prior testimony this morning I 
referred to the fact that the Coleman manufacturing people that 
developed the Coleman lanterns are now developing fuel cells 
that will be on the market this year for use in camping.
    So there are small prototypes moving to the marketplace. 
There are opportunities, and in fact we are involved in field 
testing in several locations across American for commercial 
applications, and eventually we think this technology will be 
available for use in homes. As I told the Chairman earlier 
today, I am cautiously optimistic that we will be moving 
forward. It is always a trade-off between the health, safety, 
and the costs, and we are working all of these problems 
simultaneously to bring highly reliable power to the American 
people.
    Mr. Doolittle. And is it natural gas that is the fuel for 
fuel cells?
    Dr. Dixon. There are a number of opportunities, a number of 
fuel types that can be used for fuel cells, but natural gas is 
one that is in favor right now. But we have a whole range of 
R&D activities to provide fuel types. One great thing about 
fuel cells, bioenergy and other sources, hydrogen, natural gas, 
can be used to power fuel cells, so many great opportunities.
    Mr. Doolittle. Thank you.
    Mr. Callahan. The purpose of that stunning of the fish 
program, we are too humane a body not to be concerned about 
that. We do not want these fish stunned when they go downstream 
and they bite into a barbed wire hook. [Laughter.]
    And then you nearly jerk their head off, pull them up on 
the beach, and then cut their head off while they are still 
kicking. We want them to have full use of their faculties. 
[Laughter.]

                        NUCLEAR ENERGY PROGRAMS

    Mr. Callahan. Mr. Visclosky?
    Mr. Visclosky. Thank you, Mr. Chairman.
    I would like to cover two areas. If I could back up on the 
Fast-Flux reactor and isotopes for a second, Mr. Magwood, if I 
could ask, in looking at the testimony, you have a number of 
programs going at various universities, including the 
University of Michigan, on isotopes. I am wondering, as people 
are studying about what to do with the Fast-Flux, and you 
mentioned the increased demand for isotopes, and the 
universities apparently would suggest they need additional 
funds and resources. Is there a marriage to be made here as far 
as production of isotopes and the use of some of these 
facilities at universities, instead of Fast-Flux?
    Mr. Magwood. What we have basically done over the last 
several years, Mr. Visclosky, is two things. First, the 
Department of Energy has moved out of areas of isotope 
production that can be done by either the private sector or by 
universities. For example, we rely very heavily on the 
University of Missouri in Mrs. Emerson's district to produce 
many isotopes for both commercial and experimental purposes. 
But there are some isotopes that universities simply cannot 
make. They simply do not have the infrastructure.
    What FFTF had been proposed to be used for was the 
production of large-scale amounts of commercial isotopes that 
would be used in hospitals for routine treatments of cancer 
across the country. So it is really the quantity of isotopes 
that is of interest, a large quantity of isotopes that would be 
produced in FFTF.
    That is not something universities would want to spend 
significant resources getting into. Very few of the university 
reactors are large enough to produce large amounts of isotopes. 
But the exception, as I mentioned, is the University of 
Missouri where they do produce a large quantity of isotopes, 
but even that reactor is much, much smaller than FFTF, and 
therefore wouldn't be in that business.
    What we had looked at during the time the FFTF was being 
evaluated last year, was the possibility of partnering with the 
private sector, to have private sector companies use FFTF, 
simply stated, as a radiation vehicle, so that DOE would not be 
producing isotopes. Rather, it would be these companies, and 
they would use our facility. We are not planning to get into 
the large-scale isotope business.

                      NANOSCIENCE REGIONAL CENTERS

    Mr. Visclosky. There has been some discussion about 
nanoscience today, and my understanding is, you have $4 million 
in the budget, Dr. Decker, for nanoscience this year?
    Dr. Decker. Our total request for nanoscience is $87 
million.
    Mr. Visclosky. Okay, so the $4 million would just be for 
the engineering and design for the research centers?
    Dr. Decker. That is correct.
    Mr. Visclosky. Okay. There are four that are proposed. How 
were the decisions made as to those proposed sites? Was that 
competitive?
    Dr. Decker. Yes, it was. It is competitive among the DOE 
laboratories that have facilities that are already in place and 
important for nanoscience research. The idea here is that----
    Mr. Visclosky. If I could interrupt you for a second, as I 
understand, one of these would--I am shocked to see this--would 
be in New Mexico, and the University of New Mexico would be 
involved as a partner with that lab. These would all be 
partnerships with labs?
    Dr. Decker. Yes.
    Mr. Visclosky. And where would the other three be, and who 
are the other universities?
    Dr. Decker. I do not recall the universities that are 
involved. Lawrence Berkeley Laboratory, Oak Ridge National 
Laboratory. Let us see. The other proposals were from Argonne 
and Brookhaven, I believe.
    Mr. Visclosky. And so then Livermore, for example, would 
compete their partnership with universities?
    Dr. Decker. Livermore is not proposed to build such a 
center, to have such a center. Lawrence Berkeley laboratory 
has.
    Mr. Visclosky. I am sorry. Lawrence Berkeley, then.
    Dr. Decker. Yes.
    Mr. Visclosky. Would they then have competed that center 
for a university connection, or is the university relationship 
necessary?
    Dr. Decker. I do not know how they went about forming their 
partnerships. I can find that out for you. I do not believe 
that they ran a competition. I think this probably was done 
through conversations with local universities, envisioned to be 
kind of regional centers.
    Mr. Visclosky. Would anybody here on your staffs be able to 
help provide you with the information now as to which 
universities are involved?
    Dr. Decker. No.
    Mr. Visclosky. But there was not a competition, then, as 
far as university involvement?
    Dr. Decker. No, I do not believe so. I believe, as I said, 
these are being done as regional centers, and----
    Mr. Visclosky. So you would not assume I was wrong in 
believing that you would have a relationship for one center 
between Los Alamos and the University of New Mexico?
    Dr. Decker. No. I am sure you are correct about that.
    Mr. Visclosky. Is there going to be a fifth center, as 
well, potentially?
    Dr. Decker. I think that depends on the proposals and how 
they peer review.
    Mr. Visclosky. And do you know, if that would proceed, 
whether there would be any competition to allow universities to 
participate on a competitive basis?
    Dr. Decker. The philosophy in putting these together is to 
really build on capabilities that already exist at some of the 
national laboratories. We have significant investments in large 
facilities that are going to be needed to characterize these 
nanostructures and materials, things like the big synchrotron 
light sources, neutron sources. We have got investments in sort 
of one-of-a-kind instrumentation like very powerful electron 
microscopes.
    Mr. Visclosky. Excuse me. In the DOD budget--I am a member 
of the Defense Subcommittee, as well--it is certainly my 
impression we have done expenditures for nanoscience. You also 
obviously have, I guess, facilities being established by the 
National Science Foundation, as well. Are we running the risk 
here of some duplication?
    Dr. Decker. No. This has all been worked out in an 
interagency working group, and----
    Mr. Visclosky. And DOD has been involved in that?
    Dr. Decker. DOD has been involved with that, along with the 
National Science Foundation, and there was a need identified 
for these particular types of centers that would be used by a 
lot of researchers who are funded by other agencies.
    Mr. Visclosky. Are the costs for several of these centers 
now going to exceed $100 million?
    Dr. Decker. I do not have cost estimates. I think that they 
are in the range of $70 to $80 million. That is what I have 
been told.
    Mr. Visclosky. If you could, for the record, provide the 
latest cost estimates for each of those centers, and also 
specify the centers involved, the relationship with the 
universities, and how that relationship was established.
    And I might just say that my concern as a Member, and I 
have a number of institutions of higher learning in my 
district, is how these selections are made. My sense after 17 
years in the Congress is, the rich get richer, and people such 
as those on the panel here are criticized for earmarking to 
help others try to at least play in the game, and it is not a 
game as far as I am concerned.
    I do think we have a responsibility, whether that 
university is in Alabama, Tennessee, Texas, Indiana, or New 
Mexico, or in the district of a Member who doesn't happen to 
sit on this panel, that they have a fair obligation to compete, 
to take some of the pressure off of us that we have to reach 
out and earmark to give people a chance here. I am not happy to 
hear that for the universities here, the partnerships were not 
competitively made. I am not happy about that.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T3750A1.549
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.550
    
    Mr. Callahan. You do not imagine somehow the Senate had a 
role in that, do you?
    Mr. Visclosky. I do, and we all have earmarked, and I am 
not ashamed of that. But I also think this idea that people, 
you know, there is some competitive process out there and it 
just happens to go to the same university--and these are great 
institutions. I am not knocking any of them. I couldn't get 
into a lot of them. I got rejection letters from a lot of them, 
including Michigan. Michigan turned me down.
    But I think every time you do one of these and it is not 
competitive, that is hurtful to higher education. And more so 
the reason, then, Mr. Magwood, I appreciate some of the 
competitive partnerships--not competitive, but partnerships you 
are doing with minority universities.
    Mr. Callahan. Do you have any more questions, Mr. Wamp?
    Mr. Wamp. No, thank you, Mr. Chairman.
    Mr. Callahan. Mr. Edwards?
    Mr. Edwards. Thank you, Mr. Chairman, and I will try to be 
cognizant of the time.

                        NUCLEAR ENERGY PROGRAMS

    Mr. Magwood, obviously you are a real believer in the role 
of nuclear energy power. I believe there are 103 U.S. plants 
that provide 23 percent of electrical power in our country, and 
many of those licenses are up.
    Let me ask you this specifically: What would be the impact 
to bright students in our colleges, universities, thinking 
about pursuing Ph.D's in nuclear engineering, nuclear sciences, 
when they wake up and we find out we have cut the nuclear 
energy plant optimization budget by 9.8 percent; the Nuclear 
Energy Research Initiative, a lot of that going to our 
universities, by 48.1 percent; and nuclear energy technologies 
research by 39.9 percent?
    Mr. Magwood. Clearly it is not what they would hope to have 
seen. There is no question----
    Mr. Edwards. Is it what you would have hoped to have seen?
    Mr. Magwood. I am always happy with what I can get.
    Mr. Edwards. You have all done such a good job, and I 
honestly admire and respect you for this, putting on a good 
face and presenting the best case you can. That is your 
responsibility. I do not criticize any of you for that. But you 
are doing such a good job, you might help talk your agencies 
into a massive cut in programs that you care deeply about.
    I want to ask you, I was not going to ask this question but 
I think I will now, did OMB send a directive to the Department 
of Energy to reduce funding in renewable energy research 
programs, including nuclear power research? Yes or no.
    Mr. Magwood. I think the answer, in the case of nuclear, is 
no.
    Mr. Edwards. So you volunteered, without any direction from 
OMB, you volunteered to make a 9.8 percent cut in nuclear 
energy plant optimization programs at a time 103 plants, many 
of the 103 plants are up for license renewal? You proposed the 
Nuclear Energy Research Initiative be cut by 48 percent, and 
nuclear energy technologies be cut by 39.9 percent?
    Mr. Magwood. The way the budget process works in the 
Department, Mr. Edwards, largely is a cascade of target 
allocations. The Department is given so much money to work 
with, and the Office of Nuclear Energy is given so much money 
to work with as well. When you must make sure that your 
facilities are safely operated, that your facilities are 
operated in a way that does not impact the environment, you try 
to avoid breaking promises such as cutting scholarships or 
fellowships for students, and maintain the work that you 
currently have going, it limits your ability to launch new 
activities.
    Mr. Edwards. When you cut the Nuclear Energy Research 
Initiative by 48 percent, the energy technologies program by 
basically 40 percent, how many layoffs will you have to make at 
the Department of Energy to meet those budget----
    Mr. Magwood. We are not expecting layoffs, because we are 
not starting new activities. We are completing some existing 
activities, and we have enough money to continue some 
activities next year as well. We are not starting new 
activities.
    Mr. Edwards. Let me ask the question, and I will finish 
with this. Maybe this is a more comfortable way for you to 
answer it. This is the way we did it on defense testimony for 
the last eight years. Would you send to this committee how you 
would spend the money under your jurisdiction if those programs 
were level-funded, those three programs: energy plan 
optimization, the research initiative, and then nuclear energy 
technologies, how you would spend the money if you were level-
funded. Maybe that is a little more comfortable way to ask you, 
to make the point and ask you that question. Could you do that?
    Mr. Magwood. We could do that.
    [The information follows:]

                    Level Funding Research Programs

    With level funding for the Nuclear Energy Research 
Initiative (NERI) program in FY 2002, we would continue the 23 
research projects initiated in FY 2000 and FY 2001, and award 
up to 16 new NERI projects, 3 new International-NERI projects, 
and 3 follow-on projects to advance promising research 
conducted during the first three years of the NERI program. 
Level funding for the Nuclear Energy Plant Optimization program 
in FY 2002 would enable us, in cooperation with industry, to 
continue our efforts at addressing plant aging issues and 
improving the performance of existing nuclear power plants in 
the United States. With level funding for the Nuclear Energy 
Technologies program in FY 2002, we would complete the 
Generation IV Technology Roadmap and initiate critical research 
and demonstration activities to address the regulatory, 
technical, and institutional issues which currently impede the 
near-term deployment of new nuclear power plants in the United 
States.

                            PROGRAM IMPACTS

    Mr. Edwards. Thank you.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Magwood, that response you just gave Mr. 
Edwards is not a good response, and you ought to practice that 
a little bit. What you are telling the Committee is that you 
say you can live with a 48 percent reduction in the monies that 
we give to you, but you are going to keep all of your 
employees, that you are not going to cut back on one employee 
in your Department. And to me that sounds like while you are 
saying you do not have money for universities because of the 
cutbacks, and you do not have money to expand the nuclear 
energy research, yet you are not going to cut back on any of 
your employees, that you are going to maintain the same level 
of employees?
    Mr. Magwood. I may have misunderstood the question. I was 
referring to not laying off people that are working on various 
research activities throughout the DOE complex and also in 
industry who are working with us.
    Mr. Callahan. Well, how many employees approximately do you 
have under your jurisdiction now?
    Mr. Magwood. We have actually been contracted. We are down 
to about 100 right now.
    Mr. Callahan. And how many do you anticipate you will be 
down to after this 48 percent reduction?
    Mr. Magwood. We originally had expected to hire. Because we 
are actually vastly understaffed right now, we expected to hire 
about 20 new people this year. We are probably going to really 
reduce that and just hire a very small number of new staff.
    Mr. Callahan. So you are asking for a reduction in your 
capabilities to expand research at universities and to expand 
research into nuclear energy possibilities, and yet you are 
going to increase your staff?
    Mr. Magwood. The staff that I expect to hire will be staff 
that would largely be responsible for operating some of our 
nuclear facilities. For example, our office operates Dr. 
Decker's large research reactor at Oak Ridge, and we are 
responsible for other facilities, so we have to have highly 
trained people to keep those responsibilities moving, and that 
has not been affected by any of the budget reductions. I 
obviously will not hire as quickly, or maybe not at all, in 
some of the research and development areas.
    Mr. Callahan. Dr. Decker, how many employees do you have in 
your department?
    Dr. Decker. I think, Mr. Chairman, in headquarters we have 
got on the order of 260, 270. I do not know the exact number.
    Mr. Callahan. And even though you only requested a $5 
million reduction, how many employees do you anticipate 
increasing or adding to your current level?
    Dr. Decker. I think we are pretty much constant in terms of 
our employment.
    Mr. Callahan. But none will have to be laid off?
    Dr. Decker. It is pretty constant.
    Mr. Callahan. None of them will have to be laid off, 
though, as a result of this budget request?
    Dr. Decker. No, sir.
    Mr. Callahan. Dr. Dixon?
    Dr. Dixon. Thank you, Mr. Chairman. There are 81 employees 
under my direct supervision, and based on this request for 
appropriations, it is my understanding there will be no 
employees laid off. I share Mr. Magwood's view that we have 
been understaffed, and we are looking to shift employees to 
other priorities, the bioenergy program, the distributed energy 
resources program, the hydrogen activity, and the high 
temperatures superconductivity, so I do not anticipate any 
layoffs of DOE employees.
    Mr. Callahan. If you all were in the private sector, this 
would sound so absolutely ridiculous to your board or to your 
stockholders, that you are going to have a reduced level of 
funding or your income is going to be 48 percent less and your 
employees are going to be increased.

                    RENEWABLE ENERGY BUDGET REQUEST

    In your particular case, I would like to just run over 
this. I do not know how we are going to handle this request. We 
keep hearing these rumors of this supplemental which is 
expected to be submitted by the Administration in the next 
several weeks, which increases your funding request from $237 
to $276 in total. That is still nearly $100 million under last 
year. Is that correct?
    Dr. Dixon. I believe it is approximately $100 million off 
last year, yes.
    Mr. Callahan. So you are saying that we gave you $100 
million too much for this fiscal year, or how are you going to 
fill in that $100 million void?
    Dr. Dixon. Well, the President has made a commitment to 
moderate discretionary spending, and we were able to identify a 
number of priorities, again, in bioenergy, distributed energy 
resources, hydrogen, high temperature superconductivity, and we 
will continue to make investment in those priority areas.
    When the Secretary rolled out the budget a few weeks ago, 
he stated in his address to the country that in fact the 
priorities of the Vice President's energy task force would be 
revealed soon. We know that will happen next week, and that 
these programs were positioned to be launched based upon the 
priorities identified by the task force.
    Mr. Callahan. The hydrogen research increase request that 
we understand may or may not be coming, if it does come, how 
did they get any information? What made them decide to increase 
hydrogen research back up to $26 million? What prompted OMB? 
Did you go over there and tell them? Why?
    Dr. Dixon. I did not go to OMB to have any discussions 
regarding this matter.
    Mr. Callahan. Well, why? Did they just all of a sudden just 
look through the whole budget and said, ``Hydrogen research, we 
shorted them,'' they did that on their own?

                           BUDGET AMENDMENTS

    Dr. Dixon. There is a $39 million supplemental request 
which is finding its way to Congress. I understand it is on the 
verge of being sent to Congress by OMB. There were actually 
five areas that were identified as priorities. Hydrogen was one 
of those five.
    Mr. Callahan. Well, I am glad that they did, and I will 
welcome the supplemental request. I still do not know. I mean, 
we passed the budget this week, and we passed it with very 
defined lines of spending levels in order to have an ability to 
reduce taxes for the American people, and I am going to go 
through the Sunday morning spiel: We want to save Social 
Security, we want to protect Medicare, we want to do all of 
those things. We have maximum levels of spending.
    I do not think they are sending up a supplemental request 
just for your department. I imagine that they are going to be 
sending up a supplemental request to take in a lot of areas. 
And if that is the case, they are going to have to take that 
$39 million from someone else. Do you have any idea where they 
are taking it from? Are they taking it from Dr. Decker?
    Dr. Dixon. The reallocations within the Office of Energy 
Efficiency and Renewable Energy all were within the accounts 
that have jurisdiction.
    Mr. Callahan. So you do not know where they got the $39 
million? They just decided to reshuffle something else, 
somewhere else?
    Dr. Dixon. The $39 million was identified in the 
Partnership for a New Generation of Vehicles account, which is 
in the Interior and Related Agencies Appropriations.
    Mr. Callahan. Well, in any event, you can go back to your 
respective groups and tell them that the Chairman said you did 
a good job of presenting your case, and that the bad news is 
that the Chairman said he probably was not going to adhere to 
your request to cut your ability to have an effective agency in 
half, and that we are probably going to ignore that part of 
your request and to give you what we feel is an ample amount of 
money to have the universities participate in further research, 
to make absolutely certain in nuclear research that we are 
prepared for the inevitable, and that is the expansion of our 
nuclear power plants, and the same with science.
    But we appreciate your professionalism and your in-depth 
knowledge of your respective agencies or departments, and thank 
you for coming before our Committee.
    Dr. Dixon. Thank you, Mr. Chairman.
    [The questions and answers for the record follows:]
    [GRAPHIC] [TIFF OMITTED] T3750A1.551
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.552
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.553
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.554
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.555
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.556
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.557
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.558
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.559
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.560
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.561
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.562
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.563
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.564
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.565
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.566
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.567
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.568
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.569
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.570
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.571
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.572
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.573
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.574
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.575
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.576
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.577
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.578
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.579
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.580
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.581
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.582
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.583
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.584
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.585
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.586
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.587
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.588
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.589
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.590
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.591
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.592
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.593
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.594
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.595
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.596
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.597
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.598
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.599
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.600
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.601
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.602
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.603
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.604
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.605
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.606
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.607
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.608
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.609
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.610
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.611
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.612
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.613
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.614
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.615
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.618
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.618
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.618
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.619
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.620
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.621
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.622
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.623
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.624
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.625
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.626
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.627
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.628
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.629
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.630
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.631
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.632
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.633
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.634
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.635
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.636
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.637
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.638
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.639
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.640
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.641
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.642
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.643
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.644
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.645
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.646
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.647
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.648
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.649
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.650
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.651
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.652
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.653
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.654
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.655
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.656
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.657
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.658
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.659
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.660
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.661
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.662
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.663
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.664
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.665
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.666
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.667
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.668
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.669
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.670
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.671
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.672
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.673
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.674
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.675
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.676
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.677
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.678
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.679
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.681
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.682
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.683
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.684
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.685
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.686
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.687
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.688
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.689
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.690
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.691
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.692
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.693
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.694
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.695
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.696
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.697
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.698
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.699
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.700
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.701
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.702
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.703
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.704
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.705
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.706
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.707
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.708
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.709
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.710
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.711
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.712
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.713
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.714
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.715
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.716
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.717
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.718
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.719
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.720
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.721
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.722
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.723
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.724
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.725
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.726
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.727
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.728
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.729
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.730
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.731
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.732
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.733
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.734
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.735
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.736
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.737
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.738
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.739
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.740
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.741
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.742
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.743
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.744
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.745
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.746
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.747
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.748
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.749
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.750
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.751
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.752
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.753
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.754
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.755
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.756
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.757
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.758
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.759
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.760
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.761
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.762
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.763
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.764
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.765
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.766
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.767
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.768
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.769
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.770
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.771
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.772
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.773
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.774
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.775
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.776
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.777
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.778
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.779
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.780
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.781
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.782
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.783
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.784
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.785
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.786
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.787
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.788
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.789
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.790
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.791
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.792
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.793
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.794
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.795
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.796
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.797
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.798
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.799
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.800
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.801
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.802
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.803
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.804
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.805
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.806
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.807
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.808
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.809
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.810
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.811
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.812
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.813
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.814
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.815
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.816
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.817
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.818
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.819
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.820
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.821
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.822
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.823
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.824
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.825
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.826
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.827
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.828
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.829
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.830
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.831
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.832
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.833
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.834
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.835
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.836
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.837
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.838
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.839
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.840
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.841
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.842
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.843
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.844
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.845
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.846
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.847
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.848
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.849
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.850
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.851
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.852
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.853
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.854
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.855
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.856
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.857
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.858
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.859
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.860
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.861
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.862
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.863
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.864
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.865
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.866
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.867
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.868
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.869
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.870
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.871
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.872
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.873
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.874
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.875
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.876
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.877
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.878
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.879
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.880
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.881
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.882
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.883
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.884
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.885
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.886
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.887
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.888
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.889
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.890
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.891
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.892
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.893
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.894
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.895
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.896
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.897
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.898
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.899
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.900
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.901
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.902
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.903
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.904
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.905
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.906
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.907
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.908
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.909
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.910
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.911
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.912
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.913
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.914
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.915
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.916
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.917
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.918
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.919
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.920
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.921
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.922
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.923
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.924
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.925
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.926
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.927
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.928
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.929
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.930
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.931
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.932
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.933
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.934
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.935
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.936
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.937
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.938
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.939
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.940
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.941
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.942
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.943
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.944
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.945
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.946
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.947
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.948
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.949
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.950
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.951
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.952
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.953
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.954
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.955
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.956
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.957
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.958
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.959
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.960
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.961
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.962
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.963
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.964
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.965
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.966
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.967
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.968
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.969
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.970
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.971
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.972
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.973
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.974
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.975
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.976
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.977
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.978
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.979
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.980
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.981
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.982
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.983
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.984
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.985
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.986
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.987
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.988
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.989
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.990
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.991
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.992
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.993
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.994
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.995
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.996
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.997
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.998
    
    [GRAPHIC] [TIFF OMITTED] T3750A1.999
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.000
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.001
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.002
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.003
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.004
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.005
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.006
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.007
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.008
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.009
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.010
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.011
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.012
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.013
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.014
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.015
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.016
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.017
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.018
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.019
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.020
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.021
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.022
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.023
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.024
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.025
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.026
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.027
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.028
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.029
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.030
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.031
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.032
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.033
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.034
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.035
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.036
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.037
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.038
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.039
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.040
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.041
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.042
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.043
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.044
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.045
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.046
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.047
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.048
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.049
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.050
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.051
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.052
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.053
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.054
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.055
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.056
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.057
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.058
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.059
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.060
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.061
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.062
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.063
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.064
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.065
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.066
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.067
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.068
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.069
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.070
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.071
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.072
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.073
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.074
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.075
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.076
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.077
    
    [GRAPHIC] [TIFF OMITTED] T3750A2.078
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Abraham, Hon. Spencer............................................     1
Decker, Dr. James................................................  1553
Dixon, Dr. R.K...................................................  1553
Magwood, W.D., IV................................................  1553


                                I N D E X

                              ----------                              

                          Secretary of Energy

                                                                   Page
Accelerator Transmutation of Waste...............................    84
Advisory Boards..................................................  1015
American Textiles Partnership....................................   718
Arctic National Wildlife Reserve.................................  1518
Aviation Management..............................................  1018
Baker-Cutler Nonproliferation Review.............................    60
Ballistic Missile Defense........................................    34
Benefits.......................................................702, 727
Bioenergy........................................................  1496
Biomass..........................................................    55
Bio-refineries...................................................  1503
Bonneville Power Administration................................700, 730
Building Occupancy Costs.........................................  1460
California Energy Situation......................................    85
Carryover Balances, FY 2000 Report...............................   751
Cerro Grande Fire................................................   136
Chemical, Biological, and MPC&A Programs.........................    62
Civilian Radioactive Waste Management............................24, 96
Clean Air Act....................................................    18
Computer Capabilities............................................    72
Conferences......................................1061, 1272, 1389, 1408
Construction Project ``Watch List''..............................   153
Construction Project Overrun Funding.............................   780
Contractor Employees Assigned to DOE-Washington..................  1293
Contractor Employment Levels.................................1014, 1263
Contractor Listing...............................................   724
Contractor Office Leases in the National Capital Area............  1319
Contractor Retirement Benefits.................................705, 707
Contractor Space at the L'Enfant Plaza Building..................  1320
Contractor Travel..............................................729, 999
Cyber Security.................................................137, 151
Demonstration Act of 1980........................................    94
Department Laboratories Sharing Resources........................    71
DOE Annual Performance Plan for FY 2002..........................   156
Economic Impact and Diversity Office.............................  1413
Electric Generating Facility.....................................    66
Emergency Funding................................................    25
Emergency Response...............................................   148
Employee Hiring Practices........................................  1001
Employees...............................................698, 1004, 1289
Energy and Water Development Appropriations Bill, Sec. 301.......   720
Energy Crisis................................30, 47, 49, 85, 1473, 1524
Energy Efficiency................................................    39
Energy Policy Reviews, Status....................................    75
Energy Supply....................................................    22
Environmental Cleanup......................................37, 43, 1481
Environmental Management.......................23, 92, 1500, 1501, 1509
Environmental Quality............................................    23
Expected Service Authority.......................................   697
Excess Facilities..............................................100, 104
External Regulation..............................................    79
Fast Flux Test Facility..........................................    95
Federal Energy Regulatory Commission.........................1477, 1753
Federal Staffing.............................................1001, 1010
Fissile Materials................................................    78
Foreign Energy Development Programs..............................  1431
Foreign Travel...................................................  1459
Full-Time Equivalent and Year End Personnel Strengths............  1010
Functional Support Costs.........................................   781
Fusion Energy Sciences.......................................1472, 1521
FY 2002 Budget Request....................................1, 24, 63, 74
GAO Report On Anonymous Letter...................................  1493
Gasoline Prices............................................64, 90, 1476
Genomes to Life..........................................143, 713, 1523
Global Climate Change............................................   719
Hazardous Waste Worker Training Program..........................  1549
Headquarters Employees...........................................   698
Health and Safety..............................................45, 1489
High Energy Physics..............................................  1522
Hiring...........................................................  1001
Human Genome.....................................................   712
Hydroelectric Generating Facility................................    64
Hydrogen.........................................................    57
Infrastructure............................36, 71, 103, 1497, 1539, 1547
Inspector General................................................  1469
Investments......................................................34, 88
Joint Genome Institute...........................................  1495
Laboratory Directed Research and Development..............33, 708, 1536
Lawsuits.........................................................  1410
Legislation to Implement Budget..................................  1409
Litigation.......................................................  1410
Low-Level Radioactive Waste Disposal.............................    96
Major Contracts Listing..........................................   724
Management Administration Functional Transfers...................  1006
Management Improvements..........................................   146
Motor Vehicles...................................................  1021
Nanotechnology...................................................   711
National Energy Policy.........................29, 53, 55, 57, 75, 1505
National Nuclear Security Administration...................22, 77, 1498
National Transmission Grid.......................................  1550
Next Generation Internet.........................................   714
Nominations for Top DOE Positions................................    26
Non-Fossil Fuel Technologies.....................................  1519
North Korea: KEDO................................................  1491
Nuclear Energy...............................................22, 56, 86
Nuclear Nonproliferation.....................................26, 31, 60
Nuclear Regulatory Commission................................1490, 1546
Nuclear Weapons Stockpile Stewardship............................  1478
Office of the Secretary..........................................   749
Oil Imports......................................................  1438
Partnership For A New Generation Of Vehicles.....................   715
PATH 15 Transmission Line.....................................701, 1534
Performance and Accountability Report FY 2000....................   407
Performance Measures.............................................   155
Performance Plan for FY 2002.....................................   156
Personnel Management....................................697, 1005, 1010
Physical and Computer Security...................................   137
Power Marketing Administration...................................  1533
Power Transmission Lines.........................................  1530
Price Caps.......................................................    51
Prior Year Deobligations.........................................   776
Priorities in FY 2002............................................    74
Public Affairs...............................................1440, 1458
Public Affairs' Federal And Contractor Staff Outside Washington, 
  DC.............................................................  1441
Public Affairs' Federal Contractor Staff Within And Outside Of 
  Washington, DC.................................................  1458
Public Law 106-377, Section 304..................................   728
Public Law 106-377, Section 601..................................   733
Public Law 106-60, Section 301...................................   722
Refinery Capacity................................................    53
Reimbursement Funds..............................................  1464
Renewable Energy Incentive Programs..............................  1504
Renewable Energy.............................22, 38, 41, 87, 1504, 1514
Reprogrammings...................................................   774
Rescission.......................................................    59
Rocky Flats......................................................38, 43
Russia.....................................................28, 32, 1483
Russian Naval Reactors...........................................    32
Safeguards and Security..........................................  1464
Schedule ``C'' Employees.........................................  1289
Science Education................................................   716
Science.........................................23, 139, 144, 716, 1520
Scientific User Facilities.......................................   140
Secretary of Energy..............................................   749
Secretary of Energy's Advisory Board.............................  1007
Security.......................................................137, 151
Severance Payments...............................................   726
Staffing.........................................................   698
State Sales Tax..................................................  1541
Statement--Oral-Secretary Abraham................................     1
Statement--Written--Secretary Abraham............................     3
Statutory Requirements...........................................  1469
Supercomputing...................................................  1548
Support Service Contractors......................................  1321
Training.........................................................  1386
U.S.-Russia Plutonium Disposition Agreements.....................    28
University of California Contract Extension......................   723
Weapons of Mass Destruction......................................  1507
Weapons Production...........................................1480, 1540
West Valley Site.................................................    93
Work for Others..............................................1463, 1465
Workers Compensation and Severance Benefits......................   702
Working Capital Fund--Federal Expenses...........................  1462
Yucca Mountain..................................58, 80, 148, 1535, 1543

                      Energy Resources and Science

Accelerator Applications Program.............................1598, 1700
Advanced Nuclear Medicine Initiative.............................  1598
Advanced Radioisotope Power Systems Program......................  1598
Artic Drilling...................................................  1726
Artic Energy Office..............................................  1719
Bioenergy/Bioproducts Initiative.................................  1733
Biofuels.........................................................  1636
Biological and Environmental Research........................1633, 1662
Budget Amendment.......................................1636, 1637, 1648
Burning Plasma Experiment........................................  1667
Decommissioning Facilities.......................................  1689
Distributed Energy Resources.................................1580, 1638
DOE--Agriculture Cooperation on Biomass..........................  1636
Electrometallurgical Treatment...................................  1699
Energy Efficiency................................................  1732
Energy for Military Bases........................................  1728
Energy Resources Research and Development........................  1751
Environmental Management Program.................................  1746
Experimental Program to Stimulate Competitive Research...........  1695
External Regulation of DOE Science Laboratories..................  1686
Fast Flux Test Facility......................................1624, 1698
Federal Investment in Renewable Technologies.....................  1711
Fish-Friendly Turbine............................................  1637
Fuel Cell Technology.............................................  1638
Fusion Energy Sciences...........................1627, 1666, 1746, 1749
Generation IV Nuclear Power Systems..............................  1598
Genome Research..................................................  1742
Genomes to Life..............................................1555, 1662
Global Climate Change Research...................................  1664
Greenhouse Gas Emissions.........................................  1713
Gridley Project..................................................  1734
High Energy and Nuclear Physics..................................  1555
High Energy Physics..............................................  1669
Human Genome Program.............................................  1663
Hydrogen Research and Development................................  1621
Infrastructure and Excess Facilities.............1658, 1687, 1704, 1723
Investments in Renewable Research and Development................  1635
Laboratory for Comparative and Functional Genomics at ORNL.......  1683
Laboratory Funding...............................................  1655
LHC Accelerator and Detection Funding Profile....................  1671
Medical Isotopes.................................................  1599
Million Solar Roofs..............................................  1731
Mouse House......................................................  1631
Nanoscale Science Research Centers...............................  1684
Nanoscience Budget...............................................  1633
Nanoscience..................................................1631, 1744
National Alliance of Clean Energy Incubators.....................  1720
National Energy Crisis...........................................  1579
National Institute for Global and Environmental Change (NIGEC)...  1693
National Renewable Energy Laboratory.............................  1718
Non-Competitive Research Partnerships............................  1679
NREL Funding for Infrastructure..................................  1715
Nuclear Energy...................................................  1750
Nuclear Energy Programs................................1625, 1639, 1645
Nuclear Energy Research and Development......................1620, 1697
Nuclear Energy Research Initiative...............................  1597
Nuclear Physics..................................................  1672
Nuclear Power....................................................  1628
Nuclear Sciences and Engineering Programs........................  1599
Office of Science............................................1650, 1692
Physics..........................................................  1740
Program Impacts..................................................  1646
Renewable Energy.......................................1628, 1724, 1732
Renewable Energy Budget Request..................................  1648
Renewable Energy Funding and Artic Drilling......................  1726
Renewable Energy Research and Development Priorities.............  1580
Renewable Energy Resources Funding to Universities in FY 2000 and 
  FY 2001........................................................  1712
Renewable Energy Technologies Deployment.........................  1634
Renewable Energy Technology......................................  1730
Renewable Energy--Commercialization..............................  1714
Renewable Energy--DOE Investment.................................  1710
Research Programs Level Funding..................................  1646
Science FY 2002 Budget Request...............................1553, 1650
Science in the National Energy Policy............................  1625
Science..........................................................  1737
Scientific User Facilities.......................................  1657
Spallation Neutron Source (SNS)........................1554, 1630, 1660
Staffing.........................................................  1654
Stanford Linear Accelerator Center...............................  1634
Statement--Oral--Bill Magwood....................................  1597
Statement--Oral--Dr. James Decker................................  1553
Statement--Oral--Dr. Robert Dixon................................  1579
Statement--Written--Bill Magwood.................................  1601
Statement--Written--Dr. James Decker.............................  1557
Statement--Written--Dr. Robert Dixon.............................  1582
Strategic Management System......................................  1721
Summary of the Report, ``Scenarios for a Clean Energy Future''...  1722
Technical Information Management--PubSCIENCE.....................  1674
University Reactor Support.......................................  1623
Uranium 233......................................................  1702

                  Federal Energy Regulatory Commission

FY 2002 Budget Request to the Congress...........................  1753
FY 2002 Performance Plan.........................................  1817

                   U.S. Nuclear Regulatory Commission

FY 2002 Budget Estimates and Performance Plan....................  1859

                                <greek-d>

</pre></body></html>
